The Federal Reserve’s Section 13(3) Lending Facilities to Support Overall Market Liquidity
                                                                                             Board of Governors of the Federal Reserve System





                                                                                             The Federal Reserve’s
                                                                                             Section 13(3) Lending Facilities to
                                                                                             Support Overall Market Liquidity:
                                                                                             Function, Status, and Risk Management




                                                                                             Office of Inspector General




         Office of Inspector General




                                                                                             November 2010
                                                                                                        i




                                                                          OFFICE OF INSPECTOR GENERAL




                                      November 16, 2010


Board of Governors of the Federal Reserve System
Washington, DC 20551

Dear Members of the Board:

      The Office of Inspector General is pleased to present its report on The Federal Reserve’s
Section 13(3) Lending Facilities to Support Overall Market Liquidity: Function, Status, and
Risk Management. To respond to the financial crisis, the Board of Governors of the Federal
Reserve System (Board), citing “unusual and exigent circumstances,” exercised its authority
under section 13(3) of the Federal Reserve Act (12 U.S.C. §343) between March and November
2008, to authorize the creation of the following six lending facilities to support overall market
liquidity: Term Securities Lending Facility (TSLF) (including the TSLF Options Program),
Primary Dealer Credit Facility, Asset-Backed Commercial Paper Money Market Mutual Fund
Liquidity Facility, Commercial Paper Funding Facility, Money Market Investor Funding
Facility, and Term Asset-Backed Securities Loan Facility. We performed this work to provide
an independent review of the six lending facilities’ functions, status, and risks.

       Our report describes the overall function and status of each lending facility, including how
it operated, the financial markets it was intended to support, and the financial utilization of the
facility. The report also identifies risks in each lending facility, for the Board’s review in
exercising its monetary policy function and its general supervision and oversight of the Federal
Reserve Banks. To ease financial market conditions and restore economic stability, the six
lending facilities were created separately and quickly to respond to severely stressed market
conditions, without the opportunity for extensive planning. In addition, the lending facilities
were designed to generally encourage broad participation by many borrowers. Thus,
implementation of the facilities involved credit and operational risks, which varied by facility.
To mitigate risk, the Federal Reserve implemented a number of credit risk management and
operational controls. Overall, general indicators of market stress suggest that the lending
facilities helped to stabilize financial markets. As of June 30, 2010, the Federal Reserve has
reported that the lending facilities have generated approximately $9.0 billion in interest income
and usage fees, and that none of the lending facilities have experienced any financial losses.

     We conducted our review from August 2009 through June 2010, prior to the passage of the
Dodd-Frank Wall Street Reform and Consumer Protection Act (the Dodd-Frank Act), which was
signed into law on July 21, 2010. The Dodd-Frank Act is a wide-ranging statute that makes
numerous substantial changes to the U.S. financial regulatory system. In particular, the Dodd-
Frank Act refocuses the Board’s authority under section 13(3) of the Federal Reserve Act from
discounts to individuals, partnerships, and corporations to discounts to participants in any
program or facility with broad-based eligibility. Moreover, the Dodd-Frank Act requires a
ii   Federal Reserve OIG Lending Facilities Review




                    Members of the Board                          ii                             November 16, 2010


                    Government Accountability Office (GAO) audit of all Federal Reserve emergency lending
                    programs, including those facilities discussed in this report. We will share our report with GAO
                    as it goes forward with its work.

                          We provided a draft of our report to Board officials in the Division of Reserve Bank
                    Operations and Payment Systems, the Division of Monetary Affairs, and the Legal Division, as
                    well as officials at the Federal Reserve Banks of New York (FRB-NY) and Boston (FRB-
                    Boston), for their review and comment. In their consolidated response, they indicated that our
                    report provides a clear summary of the purpose, implementation, operation, expiration, and key
                    risks associated with each of the six lending facilities.

                         We appreciate the cooperation that we received from the Board, FRB-NY, and FRB-
                    Boston during our review. We are providing copies of this report to Board management and
                    FRB-NY and FRB-Boston officials. The report will be added to our publicly-available website
                    and will be summarized in our next semiannual report to Congress.

                                                               Sincerely,




                                                         Elizabeth A. Coleman

                                                           Inspector General

                                                    iii



Board of Governors of the Federal Reserve System





The Federal Reserve’s
Section 13(3) Lending Facilities to
Support Overall Market Liquidity:
Function, Status, and Risk Management




Office of Inspector General




November 2010
Federal Reserve OIG Lending Facilities Review




                        THIS PAGE INTENTIONALLY LEFT BLANK.
                                                                                                                                                  v



Contents

Transmittal Letter. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .i



Section 1:             Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3



Section 2:             Financial Crisis in Context and in Focus . . . . . . . . . . . . . . . . . . . . . . . . . . .11



Section 3:             Overview of the Federal Reserve’s Lending Facilities . . . . . . . . . . . . . .21



Section 4:             Term Securities Lending Facility (TSLF) . . . . . . . . . . . . . . . . . . . . . . . . . . .31



Section 5:             Primary Dealer Credit Facility (PDCF) . . . . . . . . . . . . . . . . . . . . . . . . . . . . .45



Section 6:             Asset-Backed Commercial Paper Money 

                       Market Mutual Fund Liquidity Facility (AMLF) . . . . . . . . . . . . . . . . . . . . .57



Section 7:             Commercial Paper Funding Facility (CPFF) . . . . . . . . . . . . . . . . . . . . . . . .69



Section 8:             Money Market Investor Funding Facility (MMIFF). . . . . . . . . . . . . . . . . .81



Section 9:             Term Asset-Backed Securities Loan Facility (TALF) . . . . . . . . . . . . . . . . .93



Section 10: Appendixes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .113

Section 1   Executive Summary

Federal Reserve Board OIG Lending Facilities Review
                                                                                                     Executive Summary                     3



Section 1: Executive Summary

Purpose
Triggered by a contraction of the U.S. housing market that began in
2006 and an associated rise in delinquencies on subprime mortgages,
the United States experienced a financial crisis that had global
consequences and affected a wide range of financial institutions, asset
classes, and markets. Constraints on credit availability and declining
asset values caused a substantial slowing in economic activity that
cascaded throughout the financial sector. Concerns about liquidity and
solvency of institutions brought down financial institutions that had
been in business for decades. Many large banks became stressed to
the point of possible failure. The inability of Bear Stearns Companies,
Inc. (Bear Stearns), an investment company, to meet its financial
obligations in March 2008 cast doubt on the ability of others to meet
their obligations, which triggered chains of distress across the financial
markets. When Lehman Brothers Holdings, Inc. (Lehman Brothers),
an investment company, filed for bankruptcy six months later, credit
markets froze and global financial markets became increasingly
volatile.

To respond to the financial crisis, the Federal Reserve System (Federal
Reserve) looked beyond its traditional monetary policy tools to restore
economic stability. Between March and November 2008, the Board of
Governors of the Federal Reserve System (Board), citing “unusual and
exigent circumstances,” exercised its authority under section 13(3)
of the Federal Reserve Act (12 U.S.C. § 343) to authorize six lending
facilities to support overall market liquidity. The Federal Reserve Bank
of New York (FRB-NY) was authorized to implement and operate the
Term Securities Lending Facility (TSLF) including the TSLF Options
Program (TOP), Primary Dealer Credit Facility (PDCF), Commercial
Paper Funding Facility (CPFF), Money Market Investor Funding Facility                          Section 13(3) of the Federal Reserve
(MMIFF), and Term Asset-Backed Securities Loan Facility (TALF).1                               Act—A section of the Federal Reserve
                                                                                               Act that provides as follows: “In unusual
The Federal Reserve Bank of Boston (FRB-Boston) was authorized to
                                                                                               and exigent circumstances, the Board of
implement and operate the Asset-Backed Commercial Paper Money                                  Governors of the Federal Reserve System . . .
Market Mutual Fund Liquidity Facility (AMLF). These six lending                                may authorize any Federal reserve bank . . .
facilities are described in Table A (on the next page).                                        to discount for any individual, partnership,
                                                                                               or corporation, notes, drafts, and bills
Figure 1-1 illustrates the timeline of when the section 13(3) lending                          of exchange . . . [that are] . . . secured to
                                                                                               the satisfaction of the Federal reserve
facilities were announced.
                                                                                               bank: Provided . . . that such individual,
                                                                                               partnership, or corporation is unable to
As the Board’s Office of Inspector General (OIG), we performed an
                                                                                               secure adequate credit accommodations
independent review of the six lending facilities to (1) determine the                          from other banking institutions. All such
overall function and status of each facility, including how it operated,                       discounts for individuals, partnerships,
                                                                                               or corporations shall be subject to such
                                                                                               limitations, restrictions, and regulations
1 In addition to the Board’s authorization under section 13(3), the TSLF was also authorized   as the Board of Governors of the Federal
  by the Federal Open Market Committee (FOMC), under the authority provided in section 14      Reserve System may prescribe.”
  of the Federal Reserve Act, because the facility involved open market operations.
4      Federal Reserve Board OIG Lending Facilities Review



                                                  the financial markets it was intended to support, the financial
Primary Dealers—Firms that are authorized
                                                  utilization of the facility, the total amount of loans extended, and the
to buy and sell U.S. government securities        current outstanding balances; and (2) identify risks in each facility for
with FRB-NY’s Open Market Desk, which             the Board’s review in exercising its monetary policy function and in
operates on behalf of the Federal Open            its general supervision and oversight of the Federal Reserve Banks.
Market Committee (FOMC), in order
                                                  Our review focused on the six lending facilities created under section
to implement monetary policy. (See
Appendix 4 for a list of primary dealers.)        13(3) of the Federal Reserve Act to support overall market liquidity and
                                                  did not include the Board authorized lending programs in support of
Tri-Party Repurchase Agreement—A                  specific institutions, such as American International Group (AIG) and
financial transaction in which the holder of a
                                                  Bear Stearns. Our objectives, scope, and methodology are discussed in
security obtains funds by selling that security
to another financial market participant           detail in Appendix 3.
under an agreement to repurchase the
security at a fixed price on a predetermined      Table A. The Six Lending Facilities to Support Overall Market Liquidity
future date. The borrower posts collateral
at a clearing bank and receives cash from          Name of Facility                           Market Focus of Facility
the lender. The clearing bank confirms
                                                   Term Securities Lending Facility (TSLF),   Loaned U.S. Treasury securities to primary
collateral eligibility, assesses the value of
                                                   including the TSLF Options Program         dealers against eligible collateral to
the collateral, and applies a haircut to set
the loan amount.
                                                   (TOP)                                      promote liquidity in the financing markets
                                                                                              for U.S. Treasury securities and other
Asset-Backed Commercial Paper (ABCP)—                                                         securities and, thus, foster the functioning of
Short-term debt instruments (maturities                                                       financial markets more generally.
ranging from overnight to 270 days) issued
by corporations and financial institutions         Primary Dealer Credit Facility (PDCF)      Provided funding to primary dealers in
to meet short-term financing needs. The                                                       exchange for collateral eligible for tri-party
instruments are backed by assets, such as                                                     repurchase agreements to foster the
credit card receivables.                                                                      functioning of financial markets.
Money Market Mutual Fund (MMMF)—                   Asset-Backed Commercial Paper Money        Provided financing to financial institutions
A fund that invests solely in money market         Market Mutual Fund Liquidity Facility      for purchases of asset-backed commercial
instruments, such as government securities,        (AMLF)                                     paper (ABCP) from money market
certificates of deposit, commercial paper,                                                    mutual funds (MMMFs) to foster money
and other short-term and low-risk securities.                                                 market liquidity.
Unlike a money market deposit account at
a bank, money market mutual funds are              Commercial Paper Funding Facility          Facilitated purchases of commercial paper
not federally insured. The Securities and          (CPFF)                                     via loans to a special purpose vehicle
Exchange Commission regulates money                                                           (SPV) that provided financing to businesses.
market mutual funds under the Investment
                                                   Money Market Investor Funding Facility     Designed to provide loans via SPVs to money
Company Act of 1940.
                                                   (MMIFF)                                    market investors to encourage them to
Commercial Paper—Short-term debt                                                              extend the terms of their investments and
instruments (maturities ranging from                                                          maintain appropriate liquidity positions.
overnight to 270 days) issued by
                                                   Term Asset-Backed Securities               Provided loans to investors for the purchase of
corporations and financial institutions to
                                                   Loan Facility (TALF)                       asset-backed securities (ABS) to revive the
meet short-term financing needs.
                                                                                              securitization market for consumer loans and
Special Purpose Vehicle (SPV)—A separate                                                      commercial real estate loans.
legal entity used for the acquisition and
financing of assets.                              Results-in-Brief
Asset-Backed Securities (ABS)—Tradable            Function and Status of the Lending Facilities
securities backed by pools of assets, such as
loans, leases, or other cash-flow producing       The six Federal Reserve lending facilities shared the common objective
assets. The holders of ABS are entitled           of stabilizing the financial markets and the U.S. economy, and thereby
to payments that are distributed by the           supplementing the Federal Reserve’s monetary policy actions. The
underlying assets.
                                                                                                                   Executive Summary   5



lending facilities expanded the Federal Reserve’s traditional role as the
“lender of last resort” beyond depository institutions, to corporations
and other financial institutions. The Federal Reserve determined that
such lending was necessary to avoid systemic financial failure within the
U.S. economy.

At the peak on November 5, 2008, the combined usage of the lending
facilities reached $600 billion.2 Since that point, each of the six lending
facilities has expired, as market conditions have improved. As of
June 30, 2010, only the TALF had outstanding loans, which totaled
approximately $42.5 billion, and were scheduled to mature no later
than March 2015, according to the TALF terms and conditions. The
Board has reported that all loans for the TSLF (including TOP), PDCF,
AMLF and CPFF were repaid in full with interest, and it does not
anticipate any net loss to the Federal Reserve on loans made through
the TALF.3 The Federal Reserve has reported that none of the lending
facilities have experienced losses as of June 30, 2010, and that the
lending facilities have generated approximately $9.0 billion in interest
earnings and fees as of that same date.
Table B. The Lending Facilities’ Current Loans Outstanding, Fees/Earnings,
and Peak Utilization

    Facility                    Current Loans               Fees/Earnings             Peak Utilization
                                Outstanding                 (Billions) a, b           (Billions)
                                (Billions)a
    TSLF, including                  $0                          $0.781                       $235.5
    TOP
    PDCF c                           $0                          $0.593                       $146.6
    AMLF                             $0                          $0.543                       $152.1
    CPFF                             $0                          $6.112                       $348.2
    MMIFF                            $0                               $0                          $0
    TALF                          $42.5                          $0.926                        $48.2
a     Current outstanding loan amounts and fees/earnings are as of June 30, 2010.

b     The total for fees/earnings was approximately $9.0 billion.

c     The Federal Reserve’s reporting of the results of PDCF operations also included credit extended to other 

      broker-dealers, such as credit provided to broker-dealers whose parent companies were transitioning to
      bank holding companies.


Management and Oversight of the Lending Facilities
The Board authorized FRB-NY to implement the TSLF (including TOP),
PDCF, CPFF, MMIFF, and TALF; and FRB-Boston to implement the AMLF.
The Board worked with these two Reserve Banks to establish policies,
terms, and conditions for their respective lending facilities. Both
Federal Reserve Banks used their internal expertise and leveraged their

2 	 Although the combined utilization of the lending facilities peaked at $600 billion, each
    facility peaked on different dates.
3 	 As it was never used, MMIFF had no earnings or losses.
6   Federal Reserve Board OIG Lending Facilities Review



                                internal operational, credit, and other risk management practices in
                                operating their respective lending facilities. The lending facilities were
                                implemented largely by utilizing existing Federal Reserve Bank staff
                                and infrastructure (systems, processes, procedures, and controls). In
                                addition, FRB-NY hired various vendors to perform key tasks, such as
                                transaction and investment management.

                                The Board’s Division of Monetary Affairs and Division of Reserve
                                Bank Operations and Payment Systems (RBOPS) were responsible for
                                overseeing and monitoring the lending facilities. Monetary Affairs
                                officials worked with the Federal Reserve Banks in developing overall
                                policies, terms, and conditions, and monitored the operations of the
                                lending facilities. RBOPS officials performed operational reviews of the
                                TSLF (including TOP), PDCF, CPFF, and TALF.

                                In addition, FRB-NY and FRB-Boston internal auditors completed audits
                                of various aspects of the TSLF (including TOP), PDCF, AMLF, and CPFF.
                                At the time of our review, FRB-NY’s internal auditors were reviewing the
                                TALF lending facility and the performance of vendors in TALF. Further,
                                the Compliance section of FRB-NY’s Legal Group had contracted with a
                                third-party vendor who was in the process of testing specific vendors’
                                compliance with conflict of interest and other contract provisions.

                                With regard to financial operations and financial reporting of the
                                six lending facilities, the Board has engaged an independent public
                                accounting firm, Deloitte & Touche LLP (Deloitte), to audit the
                                individual and combined financial statements of the Federal Reserve
                                Banks and the lending facilities’ SPVs. Deloitte issued unqualified
                                (clean) opinions for these financial statements as of December 31,
                                2008, and December 31, 2009.

                                In addition, the Government Accountability Office and the Special
                                Inspector General for the Troubled Asset Relief Program have
                                performed reviews of various Federal Reserve programs and
                                operations, including the TALF.

                                How Have Risks Been Managed?
                                To ease financial market conditions and restore economic stability,
                                the lending facilities were created separately and quickly to respond
                                to severely stressed market conditions, and without the opportunity
                                for extensive planning. In addition, the Federal Reserve designed the
                                lending facilities to generally encourage broad participation by many
                                borrowers. Thus, implementation of the lending facilities involved
                                credit and operational risks, which varied by facility. To mitigate risk,
                                the Federal Reserve implemented a number of credit risk management
                                and operational controls.
                                                                                   Executive Summary                         7



In order to stabilize the financial markets, the Federal Reserve provided
for a broad scope of eligible borrowers and types of collateral for
loans, which exposed the Federal Reserve to credit risk—the risk that
borrowers are unable to meet their obligations in accordance with
agreed-upon terms. The credit risks included broad eligibility for
borrowers, the non-recourse nature of some of the lending facilities’        Non-Recourse Loan—A secured loan
loans, and the potential aggregate exposure to certain types of              that allows the lender to attach only the
                                                                             collateral pledged, not the borrower’s other
collateral and various types of borrowers.                                   assets, if the loan is not repaid.
To mitigate credit risk, the Federal Reserve implemented a number
of credit risk management controls that varied by facility, with a
particular focus on ensuring adequate collateral. For example, the
Federal Reserve (1) required specific types of collateral, most of which
were highly rated by Nationally Recognized Statistical Rating                Nationally Recognized Statistical Rating
Organizations (NRSROs), to cover the value of the loans; (2) in most         Organizations (NRSROs)—Credit rating
cases, incorporated a “haircut” on the collateral; (3) imposed above-        agencies that provide their opinions
                                                                             on a business entity’s or security’s
normal market interest rates and usage fees to ensure that facility          creditworthiness. They are registered with
borrowing only occurred when markets were not functioning properly;          the Securities and Exchange Commission.
and (4) contracted with specialized vendors to obtain expertise to           These ratings demarcate investment-grade
perform critical functions within the lending facilities.                    (quality) and non-investment grade (lower
                                                                             quality) securities and provide additional
The short lead time available for planning, coupled with the complex         risk-based information for investors to make
                                                                             investment decisions.
terms and conditions of the lending facilities, created operational
risks associated with developing and maintaining policies and                Haircut—The amount by which a maximum
procedures; having sufficient, experienced staff to run the lending          authorized loan amount is below the value
facilities; and managing vendor contracts and agent agreements. To           of the assets used as collateral for the
                                                                             loan. When a borrower pledges assets as
mitigate these risks, dedicated teams were established to develop            collateral, the lender making the loan treats
and maintain policies and procedures, operate the programs, and              the assets as being worth less than they
implement controls. Risks also existed concerning staffing shortages         actually are, so as to provide the lender a
for operating the lending facilities, which were mitigated by borrowing      cushion in case the assets’ market price
                                                                             decreases.
staff from other sections of the Federal Reserve Bank, hiring additional
staff, obtaining operational assistance from other Federal Reserve           Agent—An individual or firm authorized to
Banks, and using contractors. FRB-NY’s contracts with vendors and            act on behalf of another.
agreements with agents entailed risks that the vendors and agents
would not (1) comply with all provisions in contracts and agreements,
(2) provide the quality and quantity of services required, and (3) protect
against conflicts of interest. To mitigate vendor and agent risks, FRB-NY
performed on-site reviews of vendors’ and agents’ compliance with
contract and agreement provisions, established contractual conflict of
interest provisions and, at the time of our review, had contracted with
a third-party vendor to review and test specific vendors’ and certain
agents’ compliance with conflict of interest and other provisions.

As stated previously, as of June 30, 2010, the Board reported that none
of the lending facilities had experienced any financial losses. Overall,
general indicators of market stress suggest that the lending facilities
helped to stabilize financial markets, although the markets are still
recovering.
8   Federal Reserve Board OIG Lending Facilities Review



                                We performed this work to provide an independent review of the
                                six lending facilities’ functions, status, and risks. Our report does not
                                include any recommendations.

                                We provided a draft of our report to Board officials in RBOPS,
                                Monetary Affairs, and the Legal Division, as well as officials at FRB-NY
                                and FRB-Boston for their review and comment. In their consolidated
                                response, they indicated that our report provides a clear summary
                                of the purpose, implementation, operation, expiration, and key
                                risks associated with each of the six lending facilities. The officials
                                also provided technical comments under separate cover, which we
                                incorporated as appropriate.
Section 2   Financial Crisis in
            Context and in Focus
10   Federal Reserve Board OIG Lending Facilities Review
                                                             Financial Crisis in Context and in Focus                   11



Section 2: Financial Crisis in
Context and in Focus
Overview of the Financial Crisis
Triggered by a contraction of the U.S. housing market that began in
2006 and an associated rise in delinquencies on subprime mortgages,
the United States experienced a financial crisis that had global
consequences and affected a wide range of financial institutions, asset
classes, and markets. Constraints on credit availability and declining
asset values generated a substantial slowing in economic activity.

From 2000 to 2005, housing prices increased roughly 60 percent—far
outstripping the increases in incomes and general prices. Rising home
prices made housing increasingly unaffordable. In addition, the housing
supply increased as single-family home construction grew by about 40
percent. The upward trend in housing prices generally ended in 2006,
when mortgage delinquencies began to increase dramatically.

Another critical development was a broad credit boom where lenders
                                                                            Leveraged Lending—A loan made by a
and investors aggressively sought new opportunities for profits.            financial institution to a borrower for the
Aspects of the credit boom included rapid growth in the volumes             acquisition of an asset. Often, the asset
of transactions and leveraged lending. Cheap and readily available          being acquired is used as collateral for the
credit also created an abundance of liquidity that translated into poor     loan.
market investment strategies, such as subprime mortgage lending, that       Securitization—The process of pooling
were exacerbated by securitization and the increased use of complex         various types of debt (such as mortgages,
structured financial investment vehicles, such as collateralized debt       auto loans, or credit card debt) and
obligations (CDOs).                                                         packaging that debt into securities, which
                                                                            are sold to investors. The principal and
                                                                            interest on the debt underlying the securities
Securitization and the issuance of asset-backed securities (ABS) gave
                                                                            are paid to the investors on a regular basis,
financial institutions a way to transfer risk associated with lending,      though the method varies based on the type
while allowing rapid loan growth to continue. The “originate-to­            of security.
distribute” model of securitization in which financial institutions
                                                                            Collateralized Debt Obligation (CDO)—A
originate and then sell their loans to investors, rather than holding       financial instrument that entitles the
the loans to maturity, may have contributed to a loosening of credit        purchaser to cash flows from a portfolio of
lending standards. Eventually, loose lending standards were reflected       assets, which may include bonds, loans,
in the negative performance of the securities, as delinquencies,            mortgage-backed securities, or other CDOs.
and then losses, rose. As losses mounted, credit rating agencies            CDOs are a type of ABS.
downgraded what had once been highly-rated securities. Investors            Credit Rating—An external assessment of
soon came to doubt the reliability of ratings that had been assigned        the creditworthiness of corporations and
to highly complex securities. As a result, investors became much more       securities. A credit rating is a financial risk
                                                                            indicator used by potential investors. The
cautious and reversed their aggressive risk-taking posture.
                                                                            ratings are assigned by credit rating agencies,
                                                                            such as Standard & Poor’s, Moody’s, or Fitch
The resulting pullback affected a broad range of securities, including      Ratings.
asset-backed commercial paper (ABCP) and ABS. With home prices
starting to fall, lenders tightened underwriting standards. Decreasing      Underwriting—The due diligence that a
home values and increasing mortgage defaults led to losses that             lender conducts to ensure that potential
                                                                            borrowers are able to repay their loans.
cascaded throughout the financial sector, further distressing the credit
12    Federal Reserve Board OIG Lending Facilities Review



                                            markets. Concerns about credit quality and institution solvency quickly
                                            became liquidity concerns. Lenders reassessed the risk of holding ABCP,
                                            ABS, and other securities as collateral; imposed even higher haircuts,
                                            which required borrowers to post more collateral against existing
                                            loans; and refused certain types of collateral altogether. This dynamic,
                                            including sell-offs of securities, led to additional declines in the price
                                            of the securities, which produced large losses for financial institutions;
                                            an inability to obtain adequate funding; and in some cases, the failure
                                            or near failure of institutions that had been in business for decades. For
                                            example, the inability of Bear Stearns, an investment company, to meet
                                            its obligations in March 2008 cast doubt on the ability of others to
                                            meet their obligations, thereby triggering chains of distress.

                                            When Lehman Brothers, an investment company, filed for bankruptcy
                                            six months later, credit markets froze and global financial markets
                                            began a period of extreme volatility. As a result, even previously “safe”
                                            areas of the financial markets, such as money market mutual funds
                                            (MMMFs), experienced distress. For example, by writing off $785 million
                                            of debt issued by bankrupt Lehman Brothers, the Reserve Primary Fund
                                            became the first MMMF in 14 years to experience a loss that left the
                                            net value of its assets below $1 a share, known as “breaking the buck.”
                                            This event increased concern among investors about the breadth and
                                            depth of potential losses across institutions. All financial markets felt
                                            the effects, revealing how interconnected and mutually dependent
                                            the markets had become, including markets outside the United States.
                                            Large financial institutions, especially in the United States and Europe,
                                            were particularly affected by these events, having reported over $840
                                            billion in credit losses as of the end of 2008.

                                            Financial Markets in Play
                                            To better explain the financial crisis and the Federal Reserve’s actions, a
                                            description of the key markets impacted by the financial crisis follows.
                                            While some of the products in these markets overlap, their size, type of
                                            investor, and market significance distinguish them.

                                            Repurchase Agreements Markets. The repurchase agreements
                                            markets are very large, short-term markets that provide collateralized
                                            financing for a large range of securities. A repurchase agreement
                                            is a two-part transaction. The first part is the transfer of specified
                                            securities by one party, the “borrower,” to another party, the “lender,”
                                            in exchange for cash. The second part of the transaction consists of
                                            a contemporaneous agreement by the borrower to repurchase the
                                            securities at the original price, plus an agreed upon additional amount,
                                            on a specified future date. In a tri-party repurchase agreement, a third
Clearing Bank—A financial services          party called a tri-party agent (usually a clearing bank) facilitates the
company that provides settlement services   repurchase transaction between the first two parties by providing
for financial transactions between two
                                            custodian and cash management services. The tri-party agent adds a
counterparties.
                                            level of safety and security for both the lender and the borrower by
                                                               Financial Crisis in Context and in Focus                  13



holding the collateral from the borrower and ensuring the transfer of
funds from and to the lender. At its height in March 2008, repurchase
agreements financing for primary dealers alone was over
$4.5 trillion.

Money Markets. Money market instruments are generally very                    Money Market Instruments—Short-term
safe short-term investments that return a relatively low interest rate.       debt securities, such as commercial paper,
                                                                              negotiable certificates of deposit, and
The core activity of the money markets involves interbank borrowing
                                                                              Treasury bills, with a maturity of 1 year or
and lending, issuing commercial paper (discussed below), repurchase           less and often 90 days or less.
agreements, and similar instruments. MMMFs are large investment
funds that buy money market instruments in the money markets.
Banks and other financial institutions depend on the money markets to
provide a safe investment and ready access to funds as needed. At the
end of 2006, prior to the beginning of the financial crisis, U.S. MMMFs
held approximately $2.3 trillion in assets.

Commercial Paper Markets. Commercial paper is a short-term
promissory note issued primarily by a wide variety of domestic and
foreign companies to meet their operational cash flow requirements.
Major investors in commercial paper include MMMFs, pension funds,
and institutional investors. In general, commercial paper represents
a lower cost alternative to drawing on a line of credit with a bank. In
recent years, there has been increased use of ABCP, which is secured
by a pool of assets. At the end of 2007, U.S. companies had $1.8 trillion
total in outstanding commercial paper ($840 billion asset-backed and
$960 billion unsecured).

Asset-Backed Securities Markets. ABS are securities that are backed
by a pool of assets. The pool of assets is most often a group of loans
that are not easily sold individually, such as auto loans or student loans.
Pooling the loans through securitization allows them to be sold to
investors and provides funding to lenders to generate new loans. For
investors, ABS provide a secured lending option that generally offers
a higher rate of return than similar government securities. Mortgage-         Mortgage-Backed Securities (MBS)—
backed securities (MBS) are a type of ABS backed by mortgage-                 Tradable securities that represent claims
                                                                              on the cash flows from mortgage loans. An
related assets. The pool of assets underlying MBS can be residential
                                                                              MBS investor owns an interest in a pool of
mortgages (residential mortgage-backed securities, or RMBS) or                mortgages, which serve as the underlying
commercial mortgages (commercial mortgage-backed securities, or               assets and source of cash flow for the
CMBS). At the end of 2006, approximately $7.4 trillion in MBS and over        security. MBS are a type of ABS.
$2.1 trillion of consumer ABS (such as ABS backed by auto, credit card,
home equity, student, and other consumer loans) were outstanding.

The Federal Reserve System’s Structure and Function
The Federal Reserve System consists of a central federal agency called
the Board of Governors of the Federal Reserve System, 12 regional
Federal Reserve Banks, and the Federal Open Market Committee (FOMC),
as described below.
14     Federal Reserve Board OIG Lending Facilities Review



                                          Board of Governors of the Federal Reserve System
                                          The Board is an independent federal government agency located in
                                          Washington, D.C. The Federal Reserve Act provides that the Board
                                          shall consist of seven members, called governors, who are appointed
                                          by the President of the United States and confirmed by the Senate.4
                                          The full term of a Board member is 14 years, and the appointments
                                          are staggered so that one term expires on January 31 of each even-
                                          numbered year. In addition to conducting research, analysis, and
                                          policy-making related to domestic and international financial and
                                          economic matters, the Board plays a major role in the supervision
                                          and regulation of the U.S. banking system. It also has broad oversight
                                          responsibility for the nation’s payments system and the operations and
                                          activities of the Federal Reserve Banks.

                                          Federal Reserve Banks
                                          The Federal Reserve Banks are the operating arms of the nation’s
                                          central banking system. Congress chartered the Federal Reserve Banks
                                          for a public purpose; however, they combine both public and private
                                          elements in their makeup and organization. Each Federal Reserve
                                          Bank has its own board of directors. For the purpose of carrying out
                                          the day-to-day operations of the Federal Reserve, there are 12 Federal
                                          Reserve districts, each managed by a separate Federal Reserve Bank:
                                          Boston, New York, Philadelphia, Cleveland, Richmond, Atlanta, Chicago,
                                          St. Louis, Minneapolis, Kansas City, Dallas, and San Francisco. The 24
                                          branches of the Federal Reserve Banks serve particular areas within
                                          each district. The Federal Reserve Bank of New York (FRB-NY) is the
                                          largest of the Federal Reserve Banks, based on total assets.

                                          Many of the services that the Federal Reserve Banks provide to
                                          depository institutions and the government are similar to services
                                          provided by banks to business customers and individuals. Federal
                                          Reserve Banks hold the cash reserves of depository institutions and
Discount Window—A Federal Reserve         make loans to depository institutions at the discount window. They
lending program that allows eligible      move currency and coin into and out of circulation, collect and process
institutions to borrow money, usually
                                          millions of checks each day, and operate automated clearinghouses
on a short-term basis, from the Federal
Reserve at an above market rate to        (ACH), which are computerized facilities that allow for electronic
meet temporary liquidity shortages.       exchange of payments among participating depository institutions.
                                          The Federal Reserve Banks also provide Fedwire Funds Services, a real-
                                          time system that enables participants to transfer funds immediately.
                                          They maintain the U.S. Treasury’s operating cash account to support
                                          the Treasury’s transactions, issue and redeem government securities,
                                          and serve as a fiscal agent for the U.S. government. Under delegated
                                          authority from the Board, they supervise and examine the safety and
                                          soundness of bank holding companies and over 800 state-chartered

                                          4 	 From March to November 2008, when the lending facilities were authorized, the Board had
                                              five governors.
                                                               Financial Crisis in Context and in Focus                  15



banks that are members of the Federal Reserve System. The Federal
Reserve Banks also participate in setting monetary policy.

Federal Open Market Committee
The FOMC oversees open market operations, the principal tool of
national monetary policy. Its voting membership consists of the
members of the Board; the president of FRB-NY; and four other Federal
Reserve Bank presidents, who serve one-year terms on a rotating basis.
The Chairman of the Board is also the Chairman of the FOMC. The
FOMC typically meets eight times a year in Washington, D.C. At each
meeting, a senior official of FRB-NY and Board staff provide summaries
of economic conditions and discuss developments in the financial and
foreign exchange markets. After discussion, the FOMC members vote
on a directive that sets a target for the federal funds rate and that         Federal Funds Rate—The interest rate at
instructs FRB-NY regarding the conduct of open market operations              which depository institutions lend their
                                                                              excess Federal Reserve deposits to each
during the period until the next FOMC meeting.
                                                                              other.

The Federal Reserve’s Role: Managing Monetary Policy                          Open Market Operations—The primary
                                                                              tool used to implement monetary policy.
Among its many roles, the Federal Reserve executes the nation’s               This tool consists of Federal Reserve sales,
monetary policy by influencing the monetary and credit conditions in          purchases, or repurchase agreements
the economy in pursuit of maximum employment, stable prices, and              regarding financial instruments, usually
                                                                              securities issued by the U.S. Treasury,
moderate long-term interest rates. The Federal Reserve contributes
                                                                              federal agencies, and government-
to financial stability and economic performance by acting to contain          sponsored enterprises. Open market
financial disruptions and their escalation. Modern financial systems          operations are carried out by FRB-NY’s
are highly complex and interdependent and may be vulnerable to                Trading Desk under direction from the
wide-scale disruptions, such as an unexpected plunge in stock prices.         FOMC. The transactions are undertaken with
                                                                              primary dealers.
The Federal Reserve enhances the financial system’s resilience to such
disruptions through its regulatory policies toward banking institutions
and payment systems.

Traditionally, the Federal Reserve’s three instruments for implementing
monetary policy have been open market operations, reserve
requirements, and the discount rate.

• 	 Open market operations—The goal of open market operations is
    primarily to affect the federal funds rate, the interest rate at which
    banks borrow excess Federal Reserve funds from each other. To
    influence the amount of reserve balances in the banking system, the
    Federal Reserve sells or purchases securities, primarily U.S. Treasury
    securities and federal agency securities, either in outright purchases
    or sales, or through repurchase agreements, in the open market
    using primary dealers. By adjusting the level of reserve balances, the
    Federal Reserve influences the federal funds rate. Changes in the
    federal funds rate often have a strong impact on other short-term
    interest rates and, by extension, other interest rates. Figure 2-1 (on
    the next page) provides an overview of how the Federal Reserve
    controls the federal funds rate.
16     Federal Reserve Board OIG Lending Facilities Review




                                             • 	 Reserve requirements—Reserve requirements are the percent­
                                                 age of certain deposits that depository institutions must hold in
                                                 reserve in the form of cash or in an account at a Federal Reserve
                                                 Bank. Reserve requirements play a useful role in the conduct of open
Primary Credit Rate—The rate of interest         market operations by helping to ensure a predictable demand for
charged for very short-term advances             Federal Reserve balances and, thus, enhancing the Federal Reserve’s
(typically overnight) from the Federal           control over the federal funds rate.
Reserve Banks’ discount window to
generally sound depository institutions.     • 	 Discount rate—The discount rate is the interest rate charged to
Because the rate is above the FOMC’s             commercial banks and other depository institutions on loans they
target rate for federal funds, the Federal       request from their regional Federal Reserve Bank’s discount window.
Reserve expects that institutions will use
the discount window as a backup rather
                                                 The Federal Reserve Banks offer depository institutions three dis­
than a regular source of funding.                count window lending programs: primary credit, secondary credit,
                                                 and seasonal credit, each with its own interest rate. All discount win­
Secondary Credit Rate—The rate                   dow loans are fully secured by collateral. The discount rate charged
of interest for very short-term loans
(typically overnight) from the Federal
                                                 for primary credit (the primary credit rate) is set above the usual
Reserve Banks’ discount window to                level of short-term market interest rates. The Federal Reserve at times
depository institutions that are not             uses the term “discount rate” to mean the primary credit rate because
eligible for primary credit. The secondary       primary credit is the Federal Reserve’s main program used at the dis­
credit rate is set above the primary
                                                 count window. The secondary credit rate is higher than the primary
credit rate and is provided to temporarily
meet backup liquidity needs with the             credit rate, while the seasonal credit rate is an average of selected
understanding that an institution                market rates.
returns to a reliance on market sources
of funding in a timely manner or that
                                             In October 2008, Congress granted the Federal Reserve another tool to
a troubled institution is resolved in an     implement monetary policy: the ability to pay interest on depository
orderly manner.                              institutions’ required and excess reserve balances.
                                                                             Financial Crisis in Context and in Focus                  17



The Federal Reserve’s Reaction to the Crisis
Starting in the fall of 2007, the Federal Reserve reacted to financial
strains by utilizing its traditional set of policy tools, conducting a
series of liquidity injections and reducing the discount rate. Through
successive rate decreases, the Federal Reserve decreased the target
federal funds rate from 5.25 percent on September 17, 2007, to
between 0 and 0.25 percent on December 16, 2008, to help stabilize
the financial markets.

On December 12, 2007, the Federal Reserve, exercising its discount
window authority, created the Term Auction Facility (TAF).5 Under the
TAF program, the Federal Reserve Banks auctioned longer-term funds
to depository institutions in exchange for discount window collateral.
All depository institutions judged to be in generally sound financial
condition by their regional Federal Reserve Bank and eligible to borrow
under the primary credit discount window program were eligible to
participate in TAF auctions. By allowing Federal Reserve Banks to inject
term funds, TAF promoted the efficient dissemination of liquidity when
the unsecured interbank markets were under stress.

While the TAF helped provide liquidity, it did not fully address
counterparty risk issues that were exacerbating the crisis. Banks were                      Counterparty—In any financial contract, the
afraid to lend to one another out of fear that the debtor bank (the bank                    persons or institutions entering the contract
                                                                                            on the opposite sides of the transaction.
receiving funds from the originating bank) may not uphold its end
of the financial contract. Counterparty risk concerns also occurred in
other financial institutions. Tightening credit conditions threatened the
nation’s economic stability.

By the spring of 2008, the Federal Reserve looked beyond conventional
policy actions and considered innovative ways to deal with the crisis.
During the period of March through November 2008, acting under
the “unusual and exigent circumstances” authority of section 13(3)
of the Federal Reserve Act, the Board authorized the establishment
of six lending facilities to address the troubled short-term lending
and securities markets. Consistent with section 13(3), these lending
facilities expanded the Federal Reserve’s traditional role as the “lender
of last resort” beyond depository institutions, to corporations and
other financial institutions. The Federal Reserve determined that such
lending was necessary to avoid systemic financial failure within the U.S.
economy.

5 	 TAF was created under the Federal Reserve’s discount window authority and was not a
    section 13(3) lending facility.
18   Federal Reserve Board OIG Lending Facilities Review




                           THIS PAGE INTENTIONALLY LEFT BLANK.

Section 3	   Overview of the
             Federal Reserve’s
             Lending Facilities
20   Federal Reserve Board OIG Lending Facilities Review
                                                Overview of the Federal Reserve’s Lending Facilities                    21



Section 3: Overview
of the Federal Reserve’s
Lending Facilities
Citing “unusual and exigent circumstances,” the Board exercised its
authority under section 13(3) of the Federal Reserve Act to authorize
FRB-NY to implement and operate the TSLF (including TOP), PDCF,
CPFF, MMIFF, and TALF; and FRB-Boston to implement and operate
the AMLF. The Board established the lending facilities’ policies and,
in conjunction with FRB-NY and FRB-Boston, developed the terms
and conditions for their respective lending facilities, such as defining
eligible borrowers and required collateral. In establishing the lending
facilities’ policies, the Board sought to encourage broad participation
in the lending facilities to ease financial market conditions and support
the broader economy, while balancing the risk of financial loss to the
Federal Reserve. FRB-NY received operational support from the Federal
Reserve Banks of Chicago (FRB-Chicago) and Atlanta (FRB-Atlanta) to
manage the PDCF.

Description of the Lending Facilities
While the six lending facilities were established separately in response
to stressed conditions in specific markets, they shared the common
objectives of reducing risks to financial stability and strengthening
the effectiveness of monetary policy by targeting instability in the
credit markets and increasing liquidity to corporations and financial
institutions. The lending facilities were designed to achieve these
objectives, while protecting against financial losses, by securing
collateral to cover potential loan defaults and generally by extending
short-term loans to financially sound institutions. The six lending
facilities are summarized below.

• 	 Term Securities Lending Facility (TSLF), including TSLF Options
    Program (TOP)—A term loan facility that lent U.S. Treasury securities
    from the Federal Reserve’s System Open Market Account (SOMA)              System Open Market Account (SOMA)—An
    portfolio to primary dealers in exchange for other securities, in         investment account that the Federal Reserve
                                                                              uses to help implement its monetary policy.
    accordance with the facility’s terms and conditions. It was intended
                                                                              By buying or selling U.S. Treasury securities
    to promote liquidity in the financing markets for U.S. Treasury           in the financial markets, FRB-NY, on behalf
    securities and other collateral and, thus, to foster the functioning of   of the FOMC, is able to add or subtract
    financial markets more generally. The TSLF increased the ability of       reserves from the monetary system and,
    the primary dealers to obtain cash in the private financial markets       thus, influence inflation, consumer lending,
                                                                              and interbank lending.
    by enabling them to pledge less-liquid securities temporarily as
    collateral and obtain U.S. Treasury securities, which are easier to use
    to obtain financing. The TOP offered options to the primary dealers
    to draw upon short-term, fixed rate TSLF loans. The program was
    intended to enhance the effectiveness of TSLF by offering added
22    Federal Reserve Board OIG Lending Facilities Review



                                              liquidity over periods of heightened collateral market pressures, such
                                              as quarter-end and year-end dates.
                                            • 	 Primary Dealer Credit Facility (PDCF)—An overnight loan facility
                                                that provided funding to primary dealers in exchange for a specified
                                                range of collateral, in accordance with the facility’s terms and
                                                conditions. It was intended to foster the functioning of the financial
                                                markets by providing the primary dealers with an alternative source
                                                of funding for assets that were effectively illiquid.
                                            • 	 Asset-Backed Commercial Paper Money Market Mutual Fund
                                                Liquidity Facility (AMLF)—A term loan facility that provided loans
                                                to eligible borrowers for the purchase of ABCP from MMMFs, in
                                                accordance with the facility’s terms and conditions. This program was
                                                intended to assist MMMFs and to foster liquidity in the ABCP market
                                                and money markets more generally. MMMFs are major investors in
                                                ABCP and were experiencing substantial pressures from investors
                                                seeking to redeem their funds.
                                            • 	 Commercial Paper Funding Facility (CPFF)—A credit facility with
                                                a special purpose vehicle (SPV) that served to purchase commercial
                                                paper from eligible issuers. It was intended to increase the liquidity
                                                of the commercial paper markets and provide an immediate funding
                                                source for companies, allowing them to continue to finance day-to­
                                                day operations.
                                            • 	 Money Market Investor Funding Facility (MMIFF)—A loan facility
                                                designed to provide funding to a series of SPVs established by the
                                                private sector to purchase eligible money market instruments from
                                                eligible investors. It was intended to reassure MMMFs and other
                                                money market investors that they could buy longer-term (maturity
                                                up to 90 days) investments and still maintain appropriate liquidity
Portfolio—The combined holdings of stock,       positions in their portfolio holdings to meet immediate redemption
bond, commodity, real estate investment,        demands by investors. This facility was never utilized.
mutual fund, cash equivalent, and other
assets by an individual or institutional    • 	 Term Asset-Backed Securities Loan Facility (TALF)—A credit facility
investor.                                       that provided loans to eligible borrowers for the purpose of buying
                                                eligible ABS, including CMBS. It was intended to make credit available
                                                to consumers and businesses on more favorable terms by facilitating
                                                the issuance of ABS and improving the market conditions for ABS
                                                more generally. The TALF was intended to reinvigorate securitization
                                                markets that were largely frozen.

                                            Status of the Lending Facilities
                                            At the peak on November 5, 2008, the lending facilities had a
                                            combined usage of $600 billion.6 Since that time, each of the six
                                            lending facilities has expired. The MMIFF expired October 30, 2009.

                                            6 	 Although the combined utilization of the lending facilities peaked at $600 billion, each
                                                facility peaked on different dates.
                                                           Overview of the Federal Reserve’s Lending Facilities                   23



The TSLF (including TOP), PDCF, AMLF, and CPFF expired on February 1,
2010. TALF ceased making loans collateralized by TALF-eligible newly-
issued ABS and legacy CMBS on March 31, 2010, and stopped making
loans collateralized by newly-issued CMBS on June 30, 2010. As of
June 30, 2010, TALF had outstanding loans totaling approximately
$42.5 billion, which under the TALF terms and conditions are scheduled
to mature no later than March 2015. Figure 3-1, below, provides an
overview of the six lending facilities’ combined utilization since their
inception.




The Board has reported that all loans for the TSLF (including TOP),
PDCF, AMLF, and CPFF were repaid in full with interest, and the Board
has reported that it does not anticipate any net loss to the Federal
Reserve on loans made through the TALF.7 The Federal Reserve has
reported that none of the lending facilities have experienced losses
as of June 30, 2010, and that the lending facilities have generated
approximately $9.0 billion in interest earnings and fees as of that same
                                                                                      London Interbank Offered Rate (LIBOR)—
date. General indicators of market stress suggest that the lending                    The interest rate at which banks borrow
facilities helped to stabilize the functioning of financial markets.                  unsecured funds in the London wholesale
Utilization of the lending facilities decreased significantly, and, at the            money market.
time the lending facilities expired, key market data had improved
                                                                                      Overnight Indexed Swap (OIS) Rate—The
as market liquidity stabilized and investors’ concerns subsided. For                  OIS rate is a type of interest rate swap that
example, as of February 1, 2010, the London Interbank Offered Rate-                   is based on daily federal funds rates. OIS
Overnight Indexed Swap (LIBOR-OIS) spread, a closely watched                          rates indicate investor expectations of future
barometer of distress in money markets, had decreased to pre-crisis                   interest rates set by central banks, such as
                                                                                      the federal funds rate.
levels. In addition, the financial market rates on commercial paper and
ABS also decreased.                                                                   London Interbank Offered Rate-Overnight
                                                                                      Indexed Swap (LIBOR-OIS) Spread—A
The Federal Reserve has publicly reported financial information and                   financial market metric that compares the
has enhanced transparency of the lending facilities in a number                       three-month LIBOR with an interest rate
of ways. The results of the lending facilities operations have been                   swap tied to the federal funds rate. The OIS
                                                                                      rate is considered the more stable and less
reported on the Federal Reserve’s H.4.1 weekly statistical release,                   risky component of the two. Thus, when the
entitled Factors Affecting Reserve Balances of Depository Institutions and            spread increases, LIBOR is rising, which
                                                                                      means banks are charging other banks higher
                                                                                      interest rates for interbank loans.
7 As it was never used, MMIFF had no earnings or losses.
24   Federal Reserve Board OIG Lending Facilities Review



                                 Condition Statement of Federal Reserve Banks. In addition, the Board
                                 publishes a monthly Credit and Liquidity Programs and the Balance
                                 Sheet report, which includes detailed information and income (fees
                                 and earnings) for each active facility. Additionally, the annual income
                                 related to the lending facilities has been reported on the Federal
                                 Reserve Banks Combined Statements of Income and Comprehensive
                                 Income, as well as FRB-NY’s (consolidated) and FRB-Boston’s financial
                                 statements, as applicable.

                                 Reserve Bank Implementation
                                 Based on the policies issued by the Board, FRB-NY and FRB-Boston
                                 implemented their respective lending facilities over very short periods
                                 of time, primarily using existing internal expertise and infrastructure
                                 (systems, processes, procedures, and controls), and leveraging internal
                                 operational, credit, and other risk management best practices. For
                                 example, the TSLF (including TOP) and PDCF leveraged FRB-NY’s
                                 existing open market operations and discount window infrastructures,
                                 respectively.

                                 Given the significant increase in the roles and responsibilities
                                 associated with managing lending facilities of such size and
                                 importance, FRB-NY contracted with private firms for various
                                 operational aspects of the CPFF and TALF. FRB-NY also contracted with
                                 vendors to provide general consulting services. The services provided
                                 by vendors have included:

                                 • 	 Accounting, Advisory, and Consulting Services—due diligence
                                     support services, financial accounting advice, and other consulting
                                     services
                                 • 	 Administrative and Custodial Services—bookkeeping, monthly
                                     reporting, collateral safekeeping, and pricing
                                 • 	 Audit Services—independent review of financial reporting controls,
                                     processes, and procedures
                                 • 	 Collateral Monitoring Services—risk assessments on certain
                                     collateral and issuers, financial market assessments, valuation, and
                                     analysis reports
                                 • 	 Legal Services—creation of facility documents and agreements
                                 • 	 Risk Management Advisory Services—consulting services related
                                     to overall implementation and risk management
                                 • 	 Structuring Agent Services—services to arrange the SPV operating
                                     and financing requirements through interactions with private
                                     investors
                                 • 	 Transaction Agent Functions—review and processing of proposed
                                     sales of commercial paper, coordination with relevant entities, and
                                     investment management
                                                                          Overview of the Federal Reserve’s Lending Facilities   25



Table C provides an overview of the vendors and the services they
provided, by facility.
Table C. FRB-NY Vendors*

Vendor           TSLF            PDCF             CPFF             MMIFF            TALF              General
                 (including
                 TOP)
Bank of New      Custodial       Custodial        -                -                Administrative/ -
York             Services        Services                                           Custodial
Mellon                                                                              Services
BlackRock        -               -                -                -                Collateral      -
Financial                                                                           Monitoring
Management,                                                                         Services
Inc.
Cleary           -               -                -                -                -                 Legal Services
Gottlieb Steen
& Hamilton
LLP
CWCapital        -               -                -                -                Advisory          -
Investments                                                                         Services
LLC
Davis Polk &     -               -                -                -                -                 Legal Services
Wardwell LLP

Ernst & Young -                  -                -                -                Accounting/       -
LLP                                                                                 Consulting
                                                                                    Services
JP Morgan    Custodial           Custodial        -                Structuring      -                 -
Chase (JPMC) Services            Services                          Agent Services

KPMG LLP         -               -                Consulting       -                Consulting        -
                                                  Services                          Services

McKinsey &       -               -                -                -                Consulting        -
Company                                                                             Services

Oliver Wyman -                   -                -                -                -                 Risk
Group                                                                                                 Management
                                                                                                      Advisory
                                                                                                      Services
Pacific       -                  -                Transaction      -                Collateral        -
Investment                                        Agent                             Monitoring
Management                                        Functions                         Services
Company LLC
(PIMCO)
Promontory -                     -                -                -                Consulting        -
Financial                                                                           Services
Group, LLC
Sidley Austin -                  -                -                -                Consulting        -
LLP                                                                                 Services

State Street -                   -                Administrative/ -                 -                 -
Bank & Trust                                      Custodial
Company                                           Services
(State Street)
TREPP LLC      -                 -                -                -                 Collateral      -
                                                                                     Monitoring
                                                                                     Services
*Vendors were not utilized for the AMLF. For CPFF, the CPFF SPV contracted directly with PIMCO and State Street. For
MMIFF, JPMC was an agent for the MMIFF private SPVs.
26   Federal Reserve Board OIG Lending Facilities Review



                                 Facility vendors have been paid by FRB-NY, but the expenses have
                                 been deducted from the lending facilities’ income or fees in the
                                 determination of net income. According to FRB-NY officials, FRB-NY
                                 did not pay Bank of New York Mellon and JP Morgan Chase (clearing
                                 banks) any fees or execute any new agreements for their custodial roles
                                 in the TSLF and PDCF. Fees to vendors that support the CPFF and TALF
                                 LLC have been paid directly by the income and fees generated by the
                                 CPFF SPV and the TALF LLC. The annual net income from the lending
                                 facilities has been reported on the Federal Reserve Banks’ Combined
                                 Statements of Income and Comprehensive Income and FRB-NY and FRB-
                                 Boston financial statements, as applicable.

                                 Oversight of the Federal Reserve Banks and the
                                 Lending Facilities
                                 Various groups at the Board and in the Federal Reserve Banks
                                 perform oversight functions. As the Board’s OIG, we are responsible
                                 for conducting and supervising independent and objective audits,
                                 investigations, and other reviews related to the Board’s programs and
                                 operations, which include the Board’s oversight of the Reserve Banks.

                                 With regard to financial operations and financial reporting of the
                                 lending facilities, an independent public accounting firm, Deloitte,
                                 audited the financial statements of the CPFF LLC as of December 31,
                                 2008, and December 31, 2009, and TALF LLC as of December 31, 2009.
                                 The TSLF (including TOP), PDCF, AMLF, CPFF, and MMIFF facilities were
                                 included in the scope of the financial statement audits of the separate
                                 Federal Reserve Banks as of December 31, 2008, and December 31,
                                 2009. TALF loans were included in the scope of the financial statement
                                 audit of FRB-NY as of December 31, 2009. Deloitte issued unqualified
                                 (clean) opinions for each of these audits.

                                 The Board performs various reviews of the Federal Reserve Banks,
                                 including a wide range of off-site and on-site oversight activities,
                                 conducted primarily by the Board’s Division of Reserve Bank
                                 Operations and Payment Systems (RBOPS). RBOPS oversees the Federal
                                 Reserve Banks’ provision of financial services to depository institutions;
                                 fiscal agency services to the Treasury and other government agencies;
                                 and significant support functions, such as information technology,
                                 financial and cost accounting, audit of the Federal Reserve Banks’
                                 financial statements, human resources, facilities management, and
                                 physical security. RBOPS monitors the activities of each Federal
                                 Reserve Bank on an ongoing basis and conducts an on-site review of
                                 each Federal Reserve Bank at least once every three years. The review
                                 includes an assessment of each Federal Reserve Bank’s Internal Audit
                                 function’s conformance to applicable professional standards and the
                                 Internal Audit department’s effectiveness. In addition, RBOPS created
                                 a special oversight group to review the operational, credit, and market
                                                                     Overview of the Federal Reserve’s Lending Facilities   27



risk of the lending facilities, within the framework of policy decisions
made by the Board.

Internal auditors with the Federal Reserve Banks are responsible for
audits of the Banks’ operations, including the nature of activities, the
level of controls surrounding these activities, and budgeted resources.
FRB-NY’s Legal Group includes a Compliance section that is responsible
for identifying, assessing, monitoring, and reporting on the legal risks,
financial losses, or reputational impacts that may result from a failure
to comply with applicable laws, regulations, the code of conduct, and
industry best practices.

Division of Monetary Affairs officials worked with the Federal Reserve
Banks in developing overall policies, terms, and conditions, and
monitored the operations of the lending facilities through discussions
with FRB-NY and FRB-Boston staff. RBOPS staff and FRB-NY and FRB-
Boston internal auditors completed several reviews and audits of
the lending facilities. Specifically, RBOPS completed reviews on the
TSLF (including TOP), PDCF, CPFF, and TALF that assessed FRB-NY’s
management of operational, credit, and market risk, as applicable,
and made a number of recommendations to strengthen the control
environment for these lending facilities. FRB-Boston’s internal auditors
completed audits of the AMLF. FRB-NY’s internal auditors completed
audits of the TSLF (including TOP), PDCF, and CPFF. At the time of our
review, the FRB-NY internal auditors were reviewin g the TALF lending
facility and the performance of vendors in TALF.8 Additionally, at the
time of our review, a third-party vendor, under contract with FRB­
NY’s Legal group, was performing a conflict of interest review and
testing vendors’ and agents’ compliance with contract provisions.
FRB-NY had reported progress in implementing corrective actions for
recommendations made by RBOPS and the internal auditors, and was
working to resolve outstanding issues.

In addition, the Government Accountability Office and the Special
Inspector General for the Troubled Asset Relief Program have
performed reviews of various Federal Reserve programs and
operations, including the TALF.

8 	 RBOPS and FRB-NY staff stated that the MMIFF was not reviewed or audited because the lending facility
    was never used.
28   Federal Reserve Board OIG Lending Facilities Review




                           THIS PAGE INTENTIONALLY LEFT BLANK.

Section 4   Term Securities
            Lending Facility (TSLF)
Federal Reserve Board OIG Lending Facilities Review
                                                                               Term Securities Lending Facility (TSLF)             31
                                                                                                                                  31




                                                                                                                                TSLF at a Glance
Term Securities Lending Facility
At a Glance                                                 Term Securities Lending Facility (TSLF) Overview
Announced on March 11, 2008, the                            (as of June 30, 2010)
Term Securities Lending Facility (TSLF)                     Announcement Date March 11, 2008
was intended to promote liquidity in
the financing markets for U.S. Treasury                     Operational Date          March 27, 2008
securities and other collateral and, thus,                  Expiration Date           February 1, 2010
foster the functioning of financial markets
more generally. Traditionally, primary                      Current Utilization       No outstanding loans
dealers could borrow highly liquid U.S.
                                                            Peak Utilization          $235.5 billiona
Treasury securities on an overnight basis                                             October 1, 2008
from the Federal Reserve’s System Open
Market Account (SOMA), in exchange for                      Participants              Primary dealers of the Federal Reserve
other U.S. Treasury securities with different                                         Bank of New York (FRB-NY)
attributes or maturities as collateral.
                                                            Collateral                Collateral that was traditionally
The TSLF allowed primary dealers to                                                   eligible for open-market operations,
borrow U.S. Treasury securities for a term                                            and other investment-grade corporate
of 28 days (unless otherwise stated) by                                               securities, municipal securities,
pledging other less liquid securities as                                              mortgage-backed securities (MBS),
collateral, through a competitive, single-                                            and asset-backed securities (ABS).
price auction, subject to a minimum fee
requirement.9 Consequently, the TSLF                        Managed by                FRB-NY
increased the ability of the primary dealers                Loan Term                 28 days, unless otherwise stated in the
to obtain cash in the private markets by                                              announcement
pledging the highly liquid U.S. Treasury                   a   Includes outstanding loans under both the $200 billion TSLF
securities as collateral.                                      facility and the $50 billion TSLF Options Program (TOP).


Primary dealers, broker-dealers, and other borrowers typically borrow large amounts of
money on a daily basis through repurchase agreements. As of March 4, 2008, primary dealers’
repurchase agreements financing—including both overnight and longer term loans—
reached over $4.5 trillion. Primary dealers are the trading counterparties of the Federal
Reserve Bank of New York (FRB-NY) in its execution of open market operations to carry out
U.S. monetary policy and have a key role in providing liquidity in the market for government
securities, which is in turn critical to the implementation of monetary policy. In the weeks
prior to the creation of the TSLF, liquidity concerns grew and the repurchase agreements
markets became strained. Lenders were concerned about the creditworthiness of borrowers
and the riskiness of the collateral pledged, particularly mortgage-backed securities (MBS).
As a result, haircuts increased significantly, even for borrowers with high credit ratings and
relatively safe collateral.



9 Although the TSLF was similar in operation to Federal Reserve Bank of New York’s traditional overnight securities
  lending program, the purposes of the traditional overnight securities lending program and the TSLF were different.
  The traditional overnight securities lending program’s purpose was to promote the smooth functioning of the U.S.
  Treasury securities financing market. By contrast, the TSLF promoted liquidity in the financing markets beyond just
  the U.S. Treasury securities collateral and, thus, fostered the functioning of financial markets more generally.
     32 32         Federal Reserve Board OIG Lending Facilities Review




                         By increasing the ability of primary dealers to finance their portfolios, the TSLF reduced
                         the primary dealers’ need to sell assets into increasingly illiquid markets and decreased the
                         likelihood of lenders losing confidence in primary dealers. In addition, the TSLF Options
                         Program (TOP) offered “options” to primary dealers to borrow securities under the TSLF during
                         periods of heightened collateral pressures, such as financial quarter-end dates.

                         All loans of U.S. Treasury securities were made with recourse to the primary dealer beyond the
                         specific collateral pledged. The TSLF (including TOP) was administered by FRB-NY.

                         Utilization Summary
                         TSLF lending ramped up quickly in April 2008 and remained relatively constant through the
                         summer and early fall of 2008. The program reached its peak utilization on October 1, 2008,
                         at approximately $235.5 billion.10 As overall financial markets improved, primary dealers
                         stopped utilizing this facility, and the TSLF expired on February 1, 2010.

                         While it is not possible to assess the specific, direct impact of the TSLF, market data indicated
                         improved functioning in financial markets more generally.
TSLF at a Glance




                         10 Includes outstanding loans under both the $200 billion TSLF facility and the $50 billion TOP program.
                                                                  Term Securities Lending Facility (TSLF)                   33



Detailed Overview of the TSLF
What was it?
In authorizing the TSLF, which was managed by FRB-NY, the Board and
FOMC sought to promote liquidity in the financing markets for U.S.
Treasury securities and other collateral and, thus, foster the functioning
of financial markets more generally. Under this facility, FRB-NY could lend
up to $200 billion of U.S. Treasury securities to primary dealers against
pledges of collateral eligible for open market operations and investment-
grade securities. TSLF provided an additional source of liquidity to help
primary dealers obtain financing in the private market by enabling them
to temporarily pledge less liquid securities as collateral to obtain U.S.
Treasury securities, which are more widely accepted and easier to use
as collateral to obtain financing. Therefore, the TSLF reduced the need
for primary dealers to sell assets into increasingly illiquid markets and
lessened the likelihood of a loss of confidence among lenders to the
primary dealers.

In addition, the Board and FOMC created the TOP, which operated
much like the TSLF, but offered “options” to primary dealers to borrow
securities under the TSLF during periods of heightened collateral
pressures, such as financial quarter-end and year-end dates. When
these options were exercised, the primary dealer would receive a loan
of U.S. Treasury securities at a fixed interest rate against a pledge of
TSLF-eligible collateral. The price of the options was determined in
competitive auctions.

The TSLF was similar in operation to FRB-NY’s traditional overnight
securities lending program. Traditionally, through the overnight
securities lending program, primary dealers could borrow highly liquid
U.S. Treasury securities on an overnight basis from the Federal Reserve’s
SOMA, in exchange for other U.S. Treasury securities with different
attributes or maturities as collateral, which promoted the smooth
functioning of the U.S. Treasury securities financing market. However,
the TSLF allowed a longer 28-day term for the loan of securities, and
broadened the types of acceptable collateral to include less liquid
securities that were eligible for tri-party repurchase agreements.

Also, in contrast to the other five section 13(3) lending facilities, the TSLF
                                                                                 Illiquid Market—A market in which assets
was a security-for-security lending program as opposed to the lending of
                                                                                 cannot be quickly converted to cash.
funds under the other lending facilities.

How did we get there?
Figure 4-1 highlights the key events in the relevant financial markets
and operation of the TSLF.
34     Federal Reserve Board OIG Lending Facilities Review



                                                Primary dealers, like broker-dealers, are distinguished from
Broker-dealer—Any individual or firm in the
business of buying and selling securities for   commercial banks in many respects, such as the way in which they
itself and others. When acting as a broker, a   obtain funding. While commercial banks can obtain funding through
broker-dealer executes orders on behalf of a    deposits from consumers, which tend to be a stable source of funds,
client. When acting as a dealer, a broker-      broker-dealers rely heavily on short-term funding in the money
dealer executes trades for its firm’s own
account. Broker-dealers must register with
                                                markets and repurchase agreements markets. Primary dealers obtain
the Securities and Exchange Commission.         short-term funding through the repurchase agreements markets to
                                                finance their portfolios of securities and are the markets’ largest group
                                                of borrowers. Most repurchase agreements are organized as tri-party
                                                repurchase agreements. In March 2008, primary dealers’ repurchase
                                                agreement financing—including both overnight and longer-term
                                                loans—peaked at more than $4.5 trillion.

                                                Primary dealers came under tremendous pressure in early 2008. The
                                                March 2008 near failure of Bear Stearns, an investment company,
                                                put significant strain on the financial markets, which led to further
                                                decreases in asset prices and higher haircuts on the assets used as
                                                collateral in repurchase agreements. As a result, liquidity conditions
                                                in the repurchase agreements markets grew very strained. Lenders
                                                were concerned about the creditworthiness of borrowers and the
                                                riskiness of the collateral pledged, particularly MBS. The Federal
                                                Reserve was concerned that higher haircuts would force large numbers
                                                of broker-dealers to terminate their repurchase transactions and sell
                                                off securities. A rapid sell-off could cause the prices of securities to
                                                plummet, prompting lenders in the repurchase agreements markets
                                                to reassess the risk of holding these securities as collateral and to
                                                impose even higher haircuts or to refuse certain types of collateral
                                                altogether. This dynamic could result in further sell-offs of securities,
                                                producing additional declines in the price of the securities held.
                                                The Federal Reserve’s concern was heightened by the rapid rise in
                                                overnight repurchase agreements, which shifted from 50 percent of
                                                all repurchase transactions in 2004, to 75 percent in 2008. This shift
                                                toward shorter-term financing meant that a greater portion of the
                                                primary dealers’ funding was rolled over each day, putting primary
                                                dealers’ liquidity positions at great risk of fluctuations in availability
                                                and cost as short-term funding became increasingly scarce and more
                                                expensive.

                                                Fearing not only the failure of the primary dealers, but also the freezing
                                                of the $4.5 trillion repurchase agreements markets, the Board and
                                                FOMC authorized the lending of U.S. Treasury securities with a 28-day
                                                term, against a broader set of collateral to provide liquidity support
                                                to the primary dealers. The failure of a large primary dealer could
                                                have meant significant losses to investors in repurchase agreements
                                                markets, such as money market mutual funds and securities lenders
                                                and, thus, significant disruption to the financial markets.
                                                                                    Term Securities Lending Facility (TSLF)                  35



How did it work?                                                                                  Bid Rate—Represents the interest rate
The TSLF was authorized under sections 13(3) and 14 of the Federal Reserve                        a bidder was willing to pay to borrow a
                                                                                                  “basket“ (a group) of U.S. Treasury securities
Act and was similar in operation to the traditional overnight securities                          against pledged collateral.
lending program.11 Like the traditional securities lending program, TSLF
loans required collateral, with an appropriate haircut; recourse to the                           Collateralized Mortgage Obligations
borrower’s assets; and payment of a bid rate by the borrower. Unlike the                          (CMOs)—A type of MBS that consists of
                                                                                                  bonds that represent claims to specific cash
traditional securities lending program, the TSLF extended the lending                             flows from large pools of home mortgages.
period from overnight (1 day) to 28 days; accepted other types of high                            The streams of principal and interest
quality collateral (beyond U.S. Treasury securities); and used a “single price                    payments on the mortgages are distributed to
auction” in which the accepted bids were awarded at one lending rate                              the different classes of CMO interests, known
                                                                                                  as tranches, according to the deal structure.
based on the lowest accepted bid. In contrast, the traditional securities                         Each tranche may have different principal
lending program uses a “multi-price” format.                                                      balances, coupon rates, prepayment risks,
                                                                                                  and maturity dates.
TSLF eligible collateral was comprised of two schedules. Schedule 1 collateral
was comprised of all collateral eligible in open market operations (U.S. Treasury
securities, agency debt securities, and agency MBS). Schedule 2 collateral was
comprised of Schedule 1 collateral plus other investment-grade debt securities
[corporate securities, municipal securities, asset-backed securities (ABS), agency
collateralized mortgage obligations (CMOs), and MBS (non-agency)].

Figure 4-2 illustrates the TSLF operating model, beginning with the primary
dealer’s bid for securities.

The following describes the various components of the TSLF operating
model.

TSLF Process Flow
The TSLF was structured to lend U.S. Treasury securities via auction. The day
before each auction, FRB-NY announced the par value of the offering amount,
the particular basket of U.S. Treasury securities it was willing to lend from
the SOMA, and the collateral eligible for delivery against the U.S. Treasury
securities—either Schedule 1 or Schedule 2 collateral. Auctions were usually
held at 2 p.m. Eastern Time and were open for 30 minutes. Primary dealers
could submit up to two bids. A dealer’s bid rate represented the rate it was
willing to pay to borrow a basket of U.S. Treasury securities against other
pledged collateral. The minimum bid size was $10 million, each bid could not
exceed 20 percent of the offering amount, and each dealer could be awarded
no more than 20 percent of the offering amount. The auctions were single-
priced, so accepted dealer bids were awarded at the lowest rate at which bids
were accepted. The minimum fees for Schedule 1 and Schedule 2 auctions
were 10 and 25 basis points, respectively.

11 The TSLF was also authorized by the FOMC, under the authority provided in section 14 of the    Basis Points (bps)—The smallest measure
   Federal Reserve Act, because the facility involved open market operations.                     often used to specify transaction pricing and
                                                                                                  to quote rates on fixed income products.
                                                                                                  One basis point is equal to 1/100th of
                                                                                                  1 percentage point (0.01 percent).
                                                                                                  Therefore, 100 basis points would be
                                                                                                  equivalent to 1 percent.
36   Federal Reserve Board OIG Lending Facilities Review



                                 Shortly after the auction closed, FRB-NY informed dealers of their
                                 awards and posted summary results to FRB-NY’s public website.
                                 Loans settled on the business day following the auction. U.S. Treasury
                                 securities were allocated to dealers on a pro rata basis (for example, a
                                 dealer awarded 10 percent of the offering amount received a
                                 10 percent share of each U.S. Treasury security offered). Dealers
                                 awarded loans were required to pledge eligible collateral to their
                                 clearing bank custodial accounts to obtain the U.S. Treasury securities.
                                 The clearing banks exchanged the U.S. Treasury securities and
                                 pledged collateral between FRB-NY and the primary dealers, and
                                 made necessary adjustments to collateral levels to maintain the
                                 haircut-adjusted loan amounts. The loaned U.S. Treasury securities
                                 remained in the primary dealer’s account at the clearing bank, and the
                                 eligible collateral remained in an account in FRB-NY’s name that was
                                 maintained at the clearing bank.

                                 Terms and Conditions of the TSLF
                                 The following summarizes the terms and conditions for the TSLF at the
                                 time of our review. (A comprehensive list of TSLF terms and conditions
                                 was available on the FRB-NY website.)

                                 Element            Description
                                  Standard Terms    • 	 The term of a securities loan under the TSLF was 28 days (versus the
                                                        traditional SOMA securities lending program, which is overnight), unless
                                                        otherwise stated in the auction announcement.
                                                    • 	 Loans were awarded and allocated through auction formats.
                                                    • 	 There were separate auctions for Schedule 1 collateral, Schedule 2
                                                        collateral, and TOP.
                                                    • 	 Each dealer was allowed to submit two bids at each auction. Each bid could
                                                        not exceed 20 percent of the total offering amount.
                                                    • 	 The minimum bid a dealer could place was $10 million, and all bids were
                                                        required to be in $10 million increments.
                                                    • 	 Collateral was priced by the borrower’s clearing bank using the lowest price
                                                        available in the clearing bank’s valuation systems.
                                  Interest Rates/   • 	 Minimum lending fees:
                                  Fees                    – Schedule 1 collateral – 10 basis points
                                                          – Schedule 2 collateral – 25 basis points
                                                    • 	 A dealer’s bid rate represented the interest rate it was willing to pay to
                                                        borrow a basket of U.S. Treasury securities against pledged collateral.
                                                    • 	 The interest rate was based on the quoted price of the security (exclusive of
                                                        accrued interest) on the day before the auction and the term of the loan, in
                                                        days, divided by 360.
                                  Lending Limits    • Dealer awards were limited to no more than 20 percent of the total offering
                                                      of securities at each auction.
                                                                                          Term Securities Lending Facility (TSLF)   37



Element               Description
 Collateral           • The awarded dealer was required to pledge Schedule 1 or Schedule 2
 Requirements           collateral against the U.S. Treasury securities borrowed through the auction.
                            –	 Schedule 1 collateral (open market operations eligible)—Consisted
                               of U.S. Treasury securities, agency debt securities, and agency MBS.
                            –	 Schedule 2 collateral—Consisted of all Schedule 1 collateral,
                               investment-grade corporate securities, investment-grade municipal
                               securities, investment-grade MBS (non-agency), and investment-
                               grade ABS.
                      • 	 Haircut requirements on all collateral were determined by FRB-NY based on
                          methods consistent with current market practices.
                      • 	 FRB-NY could call for collateral substitutions from the dealer if the value or
                          quality of the pledged collateral deteriorated.
                      • 	 Dealers could also substitute eligible program collateral for other eligible
                          collateral, if necessary.
 Eligible             • Only primary dealers of FRB-NY were eligible to participate in TSLF auctions.

 Participants & 

 Involved Entities


Since the inception of the facility, the Federal Reserve made a number
of changes and clarifications to the terms and conditions of the TSLF, as
follows:

Collateral Eligibility
• On March 20, 2008, FRB-NY announced that the first auction would
  use Schedule 1 and Schedule 2 collateral. Schedule 2 collateral was
  expanded to include agency CMOs and AAA/Aaa-rated commercial
  mortgage-backed securities (CMBS).
• On May 2, 2008, the FOMC authorized an expansion of Schedule 2
  collateral to include AAA/Aaa-rated ABS.
• On September 14, 2008, FRB-NY announced that TSLF Schedule
  2 collateral would be expanded to include all investment-grade
  securities.
Fees
• On March 20, 2008, FRB-NY announced a minimum fee rate for
  Schedule 1 and Schedule 2 auctions of 10 basis points and 25 basis
  points, respectively, with the actual fee rate resulting from the TSLF
  single-price auction format.
Facility Expiration Date
Since its inception, the TSLF’s expiration date was extended three times.
In each instance, the extension was due to continued instability in the
financial markets.

• On December 2, 2008, the TSLF was extended through April 30, 2009.
38   Federal Reserve Board OIG Lending Facilities Review



                                 • On February 3, 2009, the TSLF was extended through October 30,
                                   2009.
                                 • On June 25, 2009, the TSLF was extended through February 1, 2010.
                                 Facility Size
                                 • On March 20, 2008, it was announced that the first TSLF auction
                                   would be conducted on March 27, 2008, with an offering size of
                                   $75 billion for a term of 28 days.
                                 • On July 30, 2008, the Board and FOMC announced an extension of
                                   TSLF via the creation of the TOP. The TOP offered primary dealers
                                   options that, when exercised, allowed primary dealers to borrow up
                                   to an additional $50 billion of U.S. Treasury securities for two weeks
                                   or less, surrounding key financing dates, against a pledge of TSLF-
                                   eligible collateral.
                                 • On August 8, 2008, the Board announced that it would offer options
                                   on $50 billion in TSLF loans in two separate auctions to be held
                                   August 27, 2008, and September 10, 2008. The TSLF loan underlying
                                   the September quarter-end TOP would be for seven days beginning
                                   on September 25, 2008, and maturing on October 2, 2008.
                                 • On September 14, 2008, the Board announced that the amounts
                                   offered under Schedule 2 auctions would increase to a total of
                                   $150 billion, from a total of $125 billion. Amounts offered in
                                   Schedule 1 auctions would remain at a total of $50 billion. The total
                                   amount offered in the TSLF program would increase to $200 billion
                                   from $175 billion. Schedule 2 TSLF auctions would be conducted
                                   weekly; previously, Schedule 2 auctions had been conducted every
                                   two weeks.
                                 • On June 25, 2009, the Board announced the suspension of Schedule
                                   1 TSLF operations effective July 1, 2009, and TOP operations effective
                                   with the maturity of outstanding June 2009 TOP options. It also
                                   reduced the frequency (to every four weeks) and size (to $75 billion)
                                   of its Schedule 2 TSLF operations.
                                 • On September 24, 2009, the Board further reduced the size of
                                   Schedule 2 TSLF auctions to $50 billion in the October 2009 auction
                                   and to $25 billion in the November 2009 to January 2010 auctions.
                                 Financial Reporting
                                 The results of the TSLF (including TOP) operations were reported on
                                 the Federal Reserve’s H.4.1 weekly statistical release, entitled Factors
                                 Affecting Reserve Balances of Depository Institutions and Condition
                                 Statement of Federal Reserve Banks. In addition, the Board publishes
                                 a monthly Credit and Liquidity Programs and the Balance Sheet report,
                                 which included additional detailed information on the TSLF. Both
                                 of these reports are posted on the Board’s public website. All TSLF
                                 and TOP auction results were posted on FRB-NY’s public website
                                 following each auction. The fees related to these securities lending
                                                                  Term Securities Lending Facility (TSLF)   39



transactions were reported as a component of “Non-interest income
(loss)” in the Federal Reserve Banks Combined Statements of Income
and Comprehensive Income, as well as FRB-NY’s consolidated financial
statements.

How was risk managed?
As the first section 13(3) lending facility announced, the TSLF was
established as the financial crisis was evolving, under pressures that
afforded little opportunity for extensive implementation planning.
To respond quickly and to minimize risk, FRB-NY used its traditional
SOMA securities lending and open market operations infrastructure
in designing and operating the TSLF. To help restore stability to the
financial markets and improve liquidity, the Board and FOMC authorized
a program similar to its traditional overnight lending of U.S. Treasury
securities to primary dealers, but allowed a 28-day loan of securities.
The TSLF also allowed the primary dealers to pledge a broader set of
collateral than would be acceptable for traditional securities lending. To
respond rapidly to stabilize the financial markets, FRB-NY implemented
credit risk management practices that were market-neutral across
the primary dealers—that is, it did not differentiate loan terms and
conditions based on the strength and capitalization of individual primary
dealers. While the primary dealers had a trading relationship with
FRB-NY, they generally had not been subject to direct regulation and
supervision by the Board. Thus, TSLF loans exposed the Federal Reserve
to credit risk.

To mitigate these credit risks, the Board established TSLF terms and
conditions that focused on ensuring adequate collateral. The TSLF
required (1) specific types of collateral to cover the value of the loan,
(2) the valuation of the collateral by a clearing bank, and (3) the daily
revaluation of the collateral. Further, the TSLF included a haircut on the
collateral—that is, the value of the collateral had to exceed the value of
the U.S. Treasury securities lent—to reflect the credit risk of the collateral
asset(s) and the market in which they were traded. In general, collateral
assets with lower credit ratings, longer maturities, and less liquidity
would have higher haircuts than assets with higher credit ratings, shorter
maturities, and more liquidity. In addition, TSLF loans had recourse to
the assets of the primary dealer to recover the loan value in the event of
default and charged interest on the loans based on the dealers’ auction
bids.

From an operational perspective, FRB-NY looked to experienced
staff in its Markets group to operate the TSLF. During the peak of the
crisis, FRB-NY had a staffing shortage due to the effort required to
operate the TSLF and perform other functions. The employees had to
balance the operation of this new facility with the traditional ongoing
operations of their respective areas. In the fall of 2008, FRB-NY added
new staff to assist in the operation of the TSLF. FRB-NY’s ability to
40   Federal Reserve Board OIG Lending Facilities Review



                                 quickly draw on knowledgeable staff and hire additional staff helped
                                 to mitigate the risks that staffing constraints could have had on the
                                 quality and quantity of transaction processing, particularly for short-
                                 term periods of high utilization.

                                 Did it have an impact?
                                 Facility Utilization
                                 Upon initiation in March 2008, TSLF utilization ramped up quickly and
                                 remained relatively constant through the summer and early fall of
                                 2008. The program reached its peak utilization on October 1, 2008, at
                                 approximately $235.5 billion.12 The TSLF and TOP were heavily utilized
                                 for most of October and November 2008; however, use then tapered
                                 off as funding markets gradually stabilized. Borrowing through the
                                 TSLF fell dramatically as financial markets improved. In June 2009, it
                                 was announced that due to dimishing demand, both Schedule 1 and
                                 TOP auctions were being suspended. TSLF utilization remained at $0
                                 from August 19, 2009, through the facility’s expiration on February 1,
                                 2010. Figure 4-3 illustrates the utilization of the TSLF since inception.




                                 Financial Review of the Facility
                                 According to FRB-NY, operation of the TSLF (including TOP) generated
                                 $781 million from interest and fees charged on TSLF loans, and the
                                 Board reported that there were no losses on TSLF operations. All loans
                                 made were repaid with interest.

                                 Market Impact Analysis
                                 While it is difficult to determine the specific impact of the TSLF,
                                 market data indicated improved functioning in financial markets more
                                 generally. For example, the London Interbank Offered Rate-Overnight
                                 Indexed Swap (LIBOR-OIS) spread, a general measure of financial
                                 market stress, has historically hovered around 10 basis points. However,

                                 12 Includes outstanding loans under both the $200 billion TSLF facility and the $50 billion TOP program.
                                                             Term Securities Lending Facility (TSLF)   41



in the midst of the financial crisis, the spread increased from 60 basis
points to 83 basis points in March 2008 and spiked to over 360 basis
points in October 2008. An increasing LIBOR-OIS spread indicates
that banks are charging each other higher interest rates to borrow
money from one another because they are concerned about a greater
chance of loan defaults, whereas a smaller LIBOR-OIS spread indicates
increased bank confidence as LIBOR rates are conforming more closely
to traditionally more stable central bank rates.

As shown by Figure 4-4, the spread between LIBOR and OIS rates
subsequently decreased significantly, dropping below 100 basis points
in mid-January 2009 and returning to a range of 10 to 15 basis points
by September 2009, apparently reflecting that investors’ concerns had
diminished and financial markets had improved.
42   Federal Reserve Board OIG Lending Facilities Review




                            THIS PAGE INTENTIONALLY LEFT BLANK.

Section 5   Primary Dealer Credit

            Facility (PDCF)

44   Federal Reserve Board OIG Lending Facilities Review
                                                                              Primary Dealer Credit Facility (PDCF)        45
                                                                                                                          45




                                                                                                                        PDCF at a Glance
Primary Dealer Credit Facility
At a Glance                                                    Primary Dealer Credit Facility (PDCF)
Announced on March 16, 2008, and                               Overview (as of June 30, 2010)
operational on March 17, 2008, the Primary                     Announcement Date March 16, 2008
Dealer Credit Facility (PDCF) was intended
to maintain the orderly functioning of the                     Operational Date       March 17, 2008
financial markets by providing primary dealers                 Expiration Date        February 1, 2010
with an alternative source of funding for assets
that had, in effect, become illiquid. This facility            Current Utilization    No outstanding loans
provided overnight funding to primary dealers
                                                               Peak Utilization       $146.6 billiona
in exchange for eligible, haircut-adjusted
                                                                                      October 1, 2008
collateral. The loans were with recourse,
beyond the pledged collateral, to the assets of                Participants           Primary dealers of the Federal
the primary dealers.                                                                  Reserve Bank of New York
                                                                                      (FRB-NY)
As discussed earlier under the Term Securities
Lending Facility (TSLF) section, broker-dealers, Collateral                     Collateral that was eligible for tri­
which include primary dealers and other                                         party repurchase agreements by
                                                                                the two major clearing banks
borrowers, typically borrow large amounts of
money on a daily basis through repurchase            Managed by                 Federal Reserve Banks of New
agreements. As of March 4, 2008, primary                                        York, Atlanta, and Chicago
dealers’ repurchase agreements ﬁnancing—
including both overnight and longer term             Loan Term                  Overnight
loans—reached over $4.5 trillion. Primary
                                                    a The Federal Reserve’s reporting of the results of PDCF
dealers are the trading counterparties for the         operations also included credit extended to other broker-
Federal Reserve Bank of New York (FRB-NY)              dealers, such as credit provided to broker-dealers whose
                                                       parent companies were transitioning to bank holding
in its execution of open market operations             companies.
to carry out U.S. monetary policy. They have
a key role in providing liquidity in the market for government securities, which is critical
to the implementation of monetary policy. In the weeks prior to the creation of the PDCF,
liquidity concerns grew and the repurchase agreements markets became strained. Lenders
were concerned about the creditworthiness of borrowers and the riskiness of the collateral
pledged, particularly mortgage-backed securities (MBS). As a result, haircuts increased
significantly, even for borrowers with high credit ratings and relatively safe collateral. By
increasing the ability of primary dealers to finance their portfolios, the facility reduced the
primary dealers’ need to sell assets into illiquid markets and decreased the likelihood of
lenders losing confidence in primary dealers.

Utilization Summary
The PDCF experienced varied usage. After inception, PDCF loans quickly rose to about
$37 billion, but then dropped to $0 by July 2, 2008, and utilization remained at $0 through
September 10, 2008. The September 2008 Lehman Brothers Holdings, Inc. (Lehman
Brothers) bankruptcy caused additional strain in the market, and eligible collateral was
expanded to include all tri-party repurchase agreements eligible collateral. As a result,
lending increased and then peaked at $146.6 billion on October 1, 2008. As overall
      46 46         Federal Reserve Board OIG Lending Facilities Review



                          financial markets improved, primary dealers stopped utilizing the facility, with the last loan
                          made in May 2009. The PDCF expired on February 1, 2010.

                          During the height of the financial crisis (especially after the bankruptcy of Lehman Brothers),
                          the PDCF performed in a similar manner to the Federal Reserve’s discount window in that it
                          served as a backstop source of liquidity for primary dealers. While it is difficult to determine
                          the specific impact of the PDCF, market data indicated improved functioning in financial
                          markets more generally.
PDCF at a Glance

                                                                   Primary Dealer Credit Facility (PDCF)   47



Detailed Overview of the PDCF 

What was it?
The PDCF was authorized under section 13(3) of the Federal Reserve Act
to maintain the orderly functioning of the financial markets by providing
primary dealers with an alternative source of funding for assets that
had, in effect, become illiquid. The PDCF provided primary dealers with
the ability to obtain overnight loans using eligible assets as collateral to
secure such loans. These loans were made with recourse, beyond the
collateral, to the primary dealers’ assets. The PDCF was similar to the
Federal Reserve’s discount window in that it served as a backstop source
of liquidity for primary dealers during market disruptions. Before the
creation of the PDCF, primary dealers had no access to a “lender of last
resort” credit facility.

Eligible collateral for the PDCF initially was limited to investment-
grade securities. On September 14, 2008, the PDCF was expanded to
accept all collateral eligible for tri-party repurchase agreements (which
includes non-investment grade securities) through a major clearing
bank, in order to further alleviate primary dealers’ funding pressures.

The PDCF was funded and managed by FRB-NY. The Federal Reserve
Banks of Chicago (FRB-Chicago) and Atlanta (FRB-Atlanta) provided
operational support for the PDCF.

How did we get there?
Figure 5-1 highlights the key events in the relevant financial markets
and operation of the PDCF.

As discussed earlier in the TSLF section, primary dealers, like broker-
dealers, are distinguished from commercial banks in many respects,
such as the way in which they obtain funding. While commercial banks
can obtain funding through deposits from consumers, which tend to
be a stable source of funds, broker-dealers rely heavily on short-term
funding in the money markets and repurchase agreements markets.
To finance their portfolios of securities, primary dealers obtain short-
term funding through the repurchase agreements markets and are the
markets’ largest group of borrowers. At its peak in March 2008, primary
dealers’ repurchase agreement ﬁnancing—including both overnight and
longer-term loans—reached more than $4.5 trillion. Most repurchase
agreements are organized as tri-party repurchase agreements.

Primary dealers came under tremendous pressure in early 2008. The
March 2008 near failure of Bear Stearns, an investment company,
put significant strain on the financial markets, which led to further
decreases in asset prices and higher haircuts on the assets used as
collateral in repurchase agreements. As a result, liquidity conditions in
48   Federal Reserve Board OIG Lending Facilities Review



                                 the repurchase agreements markets grew very strained. Lenders were
                                 concerned about the creditworthiness of borrowers and the riskiness
                                 of the collateral pledged, particularly MBS. The Federal Reserve
                                 was concerned that higher haircuts would force large numbers of
                                 broker-dealers to terminate their repurchase agreements and sell off
                                 securities. This dynamic could have caused the prices of securities to
                                 plummet, prompting lenders in the repurchase agreements markets
                                 to reassess the risk of holding these securities as collateral and to
                                 impose even higher haircuts or to refuse certain types of collateral
                                 altogether. These actions could have resulted in further sell-offs of
                                 securities, producing additional declines in the price of the securities
                                 held. The Federal Reserve’s concern was heightened by the rapid rise in
                                 overnight repurchase agreements, which shifted from 50 percent of all
                                 repurchase transactions in 2004 to 75 percent in 2008. This shift toward
                                 shorter-term financing meant that a greater portion of the primary
                                 dealers’ funding was rolled over each day, putting primary dealers’
                                 liquidity positions at great risk of fluctuations in availability and cost, as
                                 short-term funding became increasingly scarce and more expensive.

                                 Fearing not only the failure of the primary dealers, but also the freezing
                                 of the $4.5 trillion repurchase agreements markets, the Federal Reserve
                                 provided liquidity support, through the PDCF, to the primary dealers
                                 that FRB-NY transacts with on a regular basis. The failure of a large
                                 primary dealer could have meant significant losses to repurchase
                                 agreements markets investors, such as money market mutual funds
                                 and securities lenders and, thus, significant disruption to the financial
                                 markets.

                                 After the inception of the PDCF, the financial markets experienced
                                 another significant disruption in September 2008, with the bankruptcy
                                 of Lehman Brothers, which had a primary dealer subsidiary, Lehman
                                 Brothers Inc. The Lehman Brothers’ bankruptcy led to concern that other
                                 financial institutions, including broker-dealers, were at risk of failing, and
                                 credit markets froze.

                                 How did it work?
                                 The PDCF was authorized under section 13(3) of the Federal Reserve
                                 Act to provide overnight loans to primary dealers, which was similar
                                 to the Federal Reserve’s discount window that makes overnight loans
                                 to depository institutions. PDCF loans required an appropriate haircut
                                 to the collateral, recourse to the borrower’s assets, and payment of
                                 interest and fees by the borrower.
                                                                                           Primary Dealer Credit Facility (PDCF)   49



Figure 5-2 illustrates the PDCF operating model, beginning with the
primary dealer’s submission of collateral for the loan.

The following describes the various components of the PDCF operating
model.

PDCF Process Flow
The operating model for the PDCF utilized FRB-NY’s discount window
function and the infrastructure for the tri-party repurchase agreements
markets, and involved the primary dealers communicating their funding
needs to their respective clearing banks. The clearing banks then
checked collateral eligibility, valuation, and haircuts to ensure that a
sufficient amount of collateral had been pledged by each primary dealer
participating in the PDCF, and they notified FRB-NY accordingly. Once
FRB-NY received notice that a sufficient amount of eligible collateral
had been assigned to FRB-NY’s account, FRB-NY would transfer the
amount of the loan to the clearing bank for credit to the primary dealer.
FRB-Chicago and FRB-Atlanta processed the loan origination and loan
repayment for the PDCF on behalf of FRB-NY. The next day, the clearing
bank would reverse the transaction and release the collateral back to the
primary dealer.

Terms and Conditions of the PDCF
The following summarizes the terms and conditions for the PDCF
at the time of our review. (A comprehensive list of PDCF terms and
conditions was available on the FRB-NY website.)

Element           Description
 Standard         • Loans settled on the same business day and matured the following business
 Terms              day.
                  • 	 PDCF credit was secured by collateral with appropriate haircuts, but with
                      recourse to the primary dealer beyond the specific collateral pledged.
                  • 	 Loan amounts were limited to the amount of haircut-adjusted eligible collateral
                      pledged by the dealer and assigned to the FRB-NY account at the clearing bank.
                  • 	 Assets were priced by the borrower’s clearing bank using the lowest price
                      available in the clearing bank’s valuation systems.
 Interest Rates   • The lending rate was equal to the discount window’s primary credit rate at
                    FRB-NY.
 Fees             • 	 “Frequency fees” were assessed to borrowers who accessed the facility on more
                      than 45 business days out of the preceding 180 business days.
                  • 	 The following general fee schedule applied:
                        – First 45 days: no fee
                        – 46–90 days: 10 basis points, annualized
                        – 91–135 days: 20 basis points, annualized
                        – 136–180 days: 40 basis points, annualized
50     Federal Reserve Board OIG Lending Facilities Review



                                               Element         Description
                                                Collateral     • All assets that were eligible for tri-party repurchase agreements with the two
                                                Requirements     major clearing banks were eligible, including:
                                                                     –	 U.S. government, agency, and government sponsored entity securities;
                                                                        corporate and municipal bonds; money market instruments; MBS; asset-
                                                                        backed securities (ABS); and collateralized mortgage obligations (CMOs).
Convertible Stock—Corporate securities                               –	 Equities (such as common stock, convertible stock, and preferred
(usually preferred shares or bonds) that are                            stock).
exchangeable for a set number of another
form of securities (usually common shares)                     • 	 For collateral that was eligible for open market operations (U.S. Treasury securi­
at a prestated price.                                              ties, agency debt securities, and agency MBS), the haircuts were those used for
                                                                   open market operations.
Preferred Stock—A form of equity ownership
that usually pays a fixed dividend, gives
                                                               • 	 For collateral not eligible for open market operations, haircuts were assigned based
the holder a claim on corporate earnings                           on the riskiness of the asset and were generally higher than for open market opera­
superior to common stock owners, and                               tions eligible collateral.
generally has no voting rights. Preferred       Eligible       • The PDCF was limited to primary dealers (via their clearing banks) of FRB-NY.
stock also has priority over common stock       Participants
in the distribution of assets in the case of
                                                & Involved
liquidation of a bankrupt company.
                                                Entities

                                               Since the inception of the facility, the Federal Reserve made a number
                                               of changes to the terms and conditions of the PDCF, as follows:

                                               Collateral Eligibility
                                               • On September 14, 2008, eligible collateral was broadened to closely
                                                 match the types of instruments that could be pledged in the tri­
                                                 party repurchase agreements systems of the two major clearing
                                                 banks as of September 12, 2008. Initially, eligible collateral was
                                                 limited to investment-grade securities.
                                               Frequency Fee
                                               • On February 3, 2009, the facility usage fee changed, so that fees were
                                                 calculated based on use of the facility for more than 45 business days
                                                 out of the preceding 180 business days. (Previously it was 30 days
                                                 out of 120 days.)
                                               Facility Expiration Date
                                               Since its inception, PDCF’s expiration date was extended four times.
                                               In each instance, the extension was due to continued instability in the
                                               financial markets.

                                               • On September 15, 2008, the term of the PDCF was extended to
                                                 January 30, 2009.
                                               • On December 2, 2008, the term of the PDCF was extended to April
                                                 30, 2009.
                                               • On February 3, 2009, the term of the PDCF was extended to October
                                                 30, 2009.
                                                                                       Primary Dealer Credit Facility (PDCF)   51



• On June 25, 2009, the term of the PDCF was extended to February 1,
  2010.
Financial Reporting
The results of the PDCF operations were publicly reported on the Federal
Reserve’s H.4.1 weekly statistical release, entitled Factors Affecting Reserve
Balances of Depository Institutions and Condition Statement of Federal Reserve
Banks. In addition, the Board publishes a monthly Credit and Liquidity
Programs and the Balance Sheet report, which included detailed information
on the PDCF. Both of these reports are posted on the Board’s public website.
The frequency fees and the interest income related to PDCF transactions
were reported as components of “Non-interest income (loss)” and “Interest
income” respectively, in the Federal Reserve Banks Combined Statements of
Income and Comprehensive Income, as well as FRB-NY’s consolidated financial
statements.13

How was risk managed?
To respond quickly to the financial crisis, the PDCF was established as the
crisis was evolving, under pressures that afforded little opportunity for
extensive implementation planning. To respond quickly and to minimize
risk, FRB-NY used the infrastructures of its discount window function
and the tri-party repurchase agreements markets in designing and
operating the PDCF. Initially, the PDCF allowed primary dealers to pledge
investment-grade securities as collateral, and it was later expanded to
allow all collateral that was eligible for tri-party repurchase agreements,
including non-investment grade securities. To respond rapidly to stabilize
the financial markets, FRB-NY implemented credit risk management
practices that were market-neutral across the primary dealers—that is, it
did not systematically differentiate loan terms and conditions based on the
strength and capitalization of individual primary dealers. While the primary
dealers had a trading relationship with FRB-NY, they generally had not
been subject to direct regulation and supervision by the Board. Thus, PDCF
loans exposed the Federal Reserve to credit risk.

To mitigate these credit risks, the Board established PDCF terms and
conditions that focused on ensuring adequate collateral. PDCF required
(1) specific types of collateral to cover the value of the loan, and (2) the value
of the collateral to be determined through the clearing banks’ valuation
processes. Further, PDCF included a haircut on the collateral—that is, the
value of the collateral had to exceed the value of the loan extended—to
reflect the credit risk of the collateral asset(s) and the market in which they
were traded. In general, collateral assets with lower credit ratings, longer
maturities, and less liquidity would have higher haircuts than assets with
higher credit ratings, shorter maturities, and more liquidity. In addition, PDCF
loans had recourse to the assets of the primary dealer to recover the loan

13 The Federal Reserve’s reporting of the results of PDCF operations also included credit extended
   to other broker-dealers, such as credit provided to broker-dealers whose parent companies were
   transitioning to bank holding companies.
52   Federal Reserve Board OIG Lending Facilities Review



                                 value in the event of default, charged interest on the loans based on
                                 the discount window primary credit rate, and required borrowers who
                                 frequently accessed the facility to pay frequency fees.

                                 Operationally, the Federal Reserve looked to its experienced discount
                                 window staff in FRB-NY to operate the PDCF. During the peak of the
                                 crisis, FRB-NY had a staffing shortage due to the effort required to
                                 operate the PDCF and other lending facilities. It responded by borrowing
                                 staff from other sections of the Reserve Bank on an as-needed,
                                 temporary basis to support PDCF operations and obtaining operational
                                 assistance from FRB-Chicago and FRB-Atlanta. Once the facility utilization
                                 declined, the borrowed employees returned to their original positions.
                                 FRB-NY’s ability to quickly draw on knowledgeable staff from other areas
                                 helped to mitigate the risks that staffing constraints could have had
                                 on the quality and quantity of transaction processing, particularly for
                                 short-term periods of high utilization. No permanent staff were added to
                                 specifically operate the PDCF.

                                 Did it have an impact?
                                 Facility Utilization
                                 The PDCF experienced varied usage. After inception, total PDCF loans
                                 quickly rose to about $37 billion, but then dropped to $0 by July 2,
                                 2008, and utilization remained at $0 through September 10, 2008. Once
                                 eligible collateral to the PDCF was expanded to include all tri-party
                                 repurchase agreements eligible collateral, and after the bankruptcy of
                                 Lehman Brothers, lending increased and then peaked at $146.6 billion on
                                 October 1, 2008. As overall financial markets improved, primary dealers
                                 stopped utilizing the facility, with the last activity being in May 2009. The
                                 PDCF terminated on February 1, 2010. Figure 5-3 illustrates the utilization
                                 of the PDCF since inception.
                                                                                  Primary Dealer Credit Facility (PDCF)   53



Financial Review of the Facility
According to FRB-NY, operation of the PDCF generated $593 million
from interest and fees charged on PDCF loans, and the Board reported
there were no losses on PDCF operations.14 All loans made were repaid
with interest.

Market Impact Analysis
While it is difficult to determine the specific impact of the PDCF,
market data indicated improved functioning in financial markets more
generally.

For example, the London Interbank Offered Rate-Overnight Indexed
Swap (LIBOR-OIS) spread, a general measure of financial market stress,
has historically hovered around 10 basis points. However, in the midst
of the financial crisis, the spread increased from 60 basis points to
83 basis points in March 2008 and spiked to over 360 basis points in
October 2008. An increasing LIBOR-OIS spread indicates that banks are
charging each other higher interest rates to borrow money from one
another because they are concerned about a greater chance of loan
defaults, whereas a smaller LIBOR-OIS spread indicates increased bank
confidence as LIBOR rates are conforming more closely to traditionally
more stable central bank rates.

As shown by Figure 5-4, the spread between LIBOR and OIS rates
subsequently decreased significantly, dropping below 100 basis points
in mid-January 2009 and returning to a range of 10 to 15 basis points
by September 2009, apparently reflecting that investors’ concerns had
diminished and financial markets had improved.




14 The Federal Reserve’s reporting of the results of PDCF operations also included credit
   extended to other broker-dealers, such as credit provided to broker-dealers whose parent
   companies were transitioning to bank holding companies.
54   Federal Reserve Board OIG Lending Facilities Review




                            THIS PAGE INTENTIONALLY LEFT BLANK.

Section 6	   Asset-Backed
             Commercial Paper
             Money Market Mutual
             Fund Liquidity Facility
             (AMLF)
                                                                                                                 57




                                                                                                              AMLF at a Glance
Asset-Backed Commercial Paper Money
Market Mutual Fund Liquidity Facility
At a Glance                                            Asset-Backed Commercial Paper Money Market
Announced on September 19, 2008, the           Mutual Fund Liquidity Facility (AMLF) Overview
Asset-Backed Commercial Paper Money            (as of June 30, 2010)
Market Mutual Fund Liquidity Facility          Announcement Date September 19, 2008
(AMLF) was intended to provide funding
to U.S. depository institutions and bank       Operational Date      September 22, 2008
holding companies (including U.S. broker-      Expiration Date       February 1, 2010
dealer affiliates) and U.S. branches and
agencies of foreign banks to finance           Current Utilization   No outstanding loans
purchases of high quality asset-backed
                                               Peak Utilization      $152.1 billion
commercial paper (ABCP) from distressed
                                                                     October 1, 2008
money market mutual funds (MMMFs),
thereby helping to restore liquidity to        Participants          U.S. depository institutions and U.S.
the ABCP markets and assist MMMFs in                                 bank holding companies (parent
meeting investor redemption demands.                                 companies or U.S broker-dealer affili­
Under normal circumstances, MMMFs meet                               ates) and U.S. branches and agencies
investor redemption requests by drawing                              of foreign banks
on cash reserves or by selling assets, such as Collateral            Asset-backed commercial paper
ABCP. In the fall of 2008, however, MMMFs
were faced with having to sell assets at       Managed by            Federal Reserve Bank of Boston
deep discounts to meet the redemption                                (FRB-Boston)
requests of investors who were leaving         Loan Term             Up to 120 days for depository
MMMFs for less-risky investments. By                                 institutions and up to 270 days for
providing non-recourse loans to eligible                             non-depository institutions
borrowers to fund the purchase of eligible
ABCP from MMMFs, the AMLF was designed
to foster liquidity in the ABCP market and money markets in general.

Utilization Summary
Upon initiation of the program, lending levels from the AMLF peaked almost immediately.
The program reached its maximum outstanding utilization of $152.1 billion on October
1, 2008. Use of the AMLF tapered off thereafter as funding markets gradually stabilized
and MMMF redemption pressures subsided. The AMLF experienced a moderate increase
in utilization around May 2009, which coincided with the U.S. government’s pending
release of its bank stress tests results. According to Federal Reserve Bank of Boston (FRB-
Boston) officials, these results could have led to downgrades to ABCP issuers that would
have reduced the credit rating of their ABCP and, thus, made the ABCP ineligible for AMLF
funding.

This facility expired on February 1, 2010. While it is difficult to assess the specific, direct
impact of the AMLF, market data suggested that the facility helped to restore liquidity to
the ABCP markets and, thereby, assisted MMMFs in meeting redemption demands, as well
as fostered liquidity in the money markets in general.
Federal Reserve Board OIG Lending Facilities Review
           Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility (AMLF)                                   59



Detailed Overview of the AMLF
What was it?
The AMLF, managed and funded by FRB-Boston, became operational on
September 22, 2008. It provided funding for U.S. depository institutions
and bank holding companies (including U.S. broker-dealer affiliates) and
U.S. branches and agencies of foreign banks to use in purchasing ABCP
from MMMFs. MMMFs are large investment funds that hold highly rated,
short-term debt instruments, including ABCP. Under normal circumstances,
MMMFs meet investor redemption requests by drawing on cash reserves
or by selling assets, such as ABCP. However in the fall of 2008, many MMMFs
experienced liquidity shortages and were faced with selling assets at deep
discounts to meet their redemption requests, which could have resulted in
substantial losses. The AMLF was intended to assist distressed MMMFs that
held ABCP in meeting investor redemption demands, and thereby foster
liquidity in the ABCP market and money markets in general.

In June 2009, the AMLF terms and conditions were revised to require a
determination that an MMMF was experiencing “significant” redemption
pressures, to warrant utilization of the facility. Net redemptions were required
to exceed 5 percent of the MMMF’s net assets in a single day, or 10 percent in
a period of five business days or less, to be considered “significant.”

Of the six section 13(3) lending facilities, the AMLF and two other lending
facilities, the Commercial Paper Funding Facility (CPFF) and the Money
Market Investor Funding Facility (MMIFF), were authorized by the Board to
address liquidity strains faced by MMMFs and borrowers in the commercial
paper markets, which includes the ABCP market. While the CPFF was
intended to provide liquidity in the commercial paper markets, the AMLF
and MMIFF were intended to facilitate the sale of assets by MMMFs to
increase their liquidity and encourage lending at longer-term maturities.

How did we get there?
Figure 6-1 highlights the key events in the relevant financial markets and
operation of the AMLF.

During 2005 to 2007, the ABCP market experienced significant growth.
By early August 2007, the U.S. market had $1.2 trillion in ABCP outstanding
and $2.2 trillion in total commercial paper outstanding. MMMFs held
approximately 40 percent of all commercial paper in 2007. By the end               Redemption—The return of an investor’s
of 2007, decreasing loan growth, lower investor demand for ABCP, and a             principal in a security, such as a bond,
                                                                                   preferred stock, or mutual fund shares, and
recessionary economy reduced total ABCP to $840 billion, with MMMFs                any interest earned, at or prior to maturity.
holding about 34 percent of that total (about $285 billion). The financial
crisis that intensified in 2008 also impacted the MMMFs. On September
16, 2008, one of the oldest investment funds, the Reserve Primary Fund,
“broke the buck” (meaning that the net value of its shares fell below $1)
due to losses from its holdings of Lehman Brothers Holdings, Inc. (Lehman
60     Federal Reserve Board OIG Lending Facilities Review



                                                 Brothers) commercial paper. This event caused widespread concern
                                                 among investors regarding the creditworthiness of financial institutions,
                                                 including MMMFs that had invested in financial institutions. As investors
                                                 reallocated their funds, many MMMFs were put under enormous pressure
                                                 to meet redemption requests from investors. Concurrently, the markets
                                                 for commercial paper began to freeze. Asset prices dropped, leading to
                                                 investors being concerned that they may not recover their investments.

                                                 To meet the increased level of investor redemptions, many MMMFs
                                                 would have been forced to liquidate a considerable amount of assets at
                                                 steep discounts. Selling assets at these markdowns would have created
                                                 substantial losses, which likely would have resulted in further loss of
                                                 investors’ confidence and even higher levels of future redemptions,
                                                 creating a cascading effect in declining asset prices. With $3.4 trillion in
                                                 total assets as of October 2008, the failure of an MMMF could have had a
                                                 systemic impact across the financial markets.

                                                 How did it work?
                                                 The AMLF, authorized under section 13(3) of the Federal Reserve Act,
                                                 was designed to help distressed MMMFs meet redemption requests
                                                 by enhancing investors’ interest in the purchase of ABCP, and thereby
                                                 fostering liquidity in the ABCP market and money markets in general.15
                                                 It provided non-recourse loans to U.S. depository institutions, U.S. bank
                                                 holding companies (including U.S. broker-dealer affiliates), and U.S.
                                                 branches and agencies of foreign banks to purchase eligible ABCP from
                                                 MMMFs. Since AMLF loans were non-recourse, FRB-Boston would only
                                                 be able to enforce its rights on the ABCP in the case of default. In April
                                                 2009, eligibility criteria were tightened to require no credit ratings lower
A-1/P-1/F1—The highest short-term ratings        than A-1/P-1/F1 and no ABCP identified as on “negative watch” as part
by NRSROs (Standard & Poor’s, Moody’s,           of a Rating Watch by any major Nationally Recognized Statistical Rating
and Fitch Ratings). The ratings indicate a
strong capacity by the issuer to meet its
                                                 Organization (NRSRO). Prior eligibility criteria only required that ABCP be
financial commitments.                           rated A-1/P-1/F1 by at least two NRSROs. If rated by only one NRSRO, the
                                                 ABCP must have been rated within that NRSRO’s top rating category.
Rating Watch—A formal announcement by a
rating agency that a security or issuer rating   In addition, beginning in June 2009, the ABCP was required to be
is being reviewed to determine if the current    purchased from a distressed MMMF that was experiencing net
rating is appropriate. The announcement
includes the likely direction of such a          redemptions in excess of 5 percent of the fund’s value on a given business
change (“positive” indicates a potential         day or 10 percent in a period of five or less business days. The eligibility of
upgrade, and “negative” indicates a              the ABCP and the level of fund redemptions were required to be certified
potential downgrade). However, ratings can       by the borrower and the MMMF’s transfer agent (a company employed by
be raised or lowered without being placed
on Rating Watch first if circumstances
                                                 the MMMF to maintain shareholder records, including purchases, sales, and
warrant such an action.                          account balances), respectively.

                                                 15 The AMLF was also authorized under section 10B of the Federal Reserve Act, which authorizes
                                                    Reserve Banks to make advances to depository institutions.
            Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility (AMLF)                  61



The ABCP also had to be purchased by the borrower at the MMMF’s
amortized cost (the carrying value of the investment in the MMMF’s
accounting records). This was done to prevent sales at depressed values
from causing another MMMF to “break the buck.” A purchase from the
MMMF at amortized cost caused no detriment to remaining MMMF
shareholders and, therefore, did not create further incentives for MMMF
shareholders to redeem shares and place further liquidity pressure on the
MMMFs.

The ABCP served as the collateral for the loan. In order to encourage
participation in the AMLF and restore stability in the MMMF and ABCP
markets, there was no haircut on the collateral in the loan process.

Figure 6-2 illustrates the overall AMLF operating model, beginning with the
MMMF’s sale of ABCP.

The following describes components of the AMLF operating model.

AMLF Process Flow
Under the facility, borrowers received AMLF loans to purchase eligible ABCP
from an MMMF that was experiencing redemption pressure. Borrowers
secured loans from the AMLF through FRB-Boston by pledging eligible ABCP
as collateral. The maturity date of the FRB-Boston loan equaled the maturity
date of the ABCP used as collateral, but could not exceed 270 days for non-
depository institutions and 120 days for depository institutions. According to
FRB-Boston officials, credit ratings of ABCP collateral were reviewed daily for
signs of any impairment.

Terms and Conditions of the AMLF
The following summarizes the terms and conditions of the AMLF at the
time of our review. (A comprehensive list of AMLF terms and conditions
was available on the FRB-Boston website.)

Element           Description
 Standard Terms   • 	 Only U.S. dollar-denominated ABCP purchased directly from a registered MMMF
                      was accepted as collateral.
                  • 	 The loan was non-recourse to the borrower, meaning FRB-Boston ultimately bore
                      the risk of credit loss on the ABCP.
                  • 	 In order to be eligible ABCP, the ABCP had to be issued out of a program that was
                      in existence as of September 18, 2008, and actively issuing eligible ABCP directly
                      to market investors on September 18, 2008.
                  • 	 ABCP was required to be purchased by the borrower at the MMMF’s amortized
                      cost.
                  • 	 An MMMF must have experienced net redemptions exceeding 5 percent of its net
                      assets in a single day or 10 percent over a period of five business days or less, for
                      its ABCP to be eligible for the AMLF.
62   Federal Reserve Board OIG Lending Facilities Review



                                 Element             Description
                                 Interest Rates      •	 The interest rate on the loan was the primary credit rate in effect for FRB-Boston
                                                        on the day that the loan was made.
                                                     • The interest rate was fixed for the term of the loan.
                                 Maturity            •	 Loans to non-depository institutions were equal to the maturity of the ABCP that
                                                        was purchased, which could range from overnight to 270 days.
                                                     •	 For depository institutions, the loans were equal to the maturity of the ABCP that
                                                        was purchased, which could range from overnight to 120 days.
                                                     •	 Prepayment of the loan was not allowed except in the event of bankruptcy or
                                                        receivership of the borrower.
                                 Collateral          •	 The collateral for the loan was the ABCP purchased by the borrower. In addition,
                                 Requirements           the ABCP was supported by the assets backing the paper.
                                                     •	 The ABCP was required to be rated not lower than A-1/P-1/F1 and not be identi­
                                                        fied as on “negative watch” by any NRSRO.
                                                     •	 Eligible borrowers were not able to pledge extendible ABCP (commercial paper
                                                        whose term can be extended due to contractual allowances).
                                                     •	 Collateral valuation was equal to the amortized cost of the eligible ABCP without
                                                        any haircut on the collateral. MMMFs determined the amortized cost, and the
                                                        borrowers certified to the purchase of the pledged ABCP at amortized cost as a
                                                        condition of program participation.
                                 Eligible            • The following types of institutions qualified to borrow under the AMLF:
                                 Participants &            – U.S. banks
                                 Involved Entities
                                                           –	 U.S. bank holding companies (parent companies or U.S. broker-dealer
                                                              affiliates)
                                                           – U.S. branches and agencies of foreign banks

                                 Since the inception of the facility, the Federal Reserve made some changes
                                 to the terms and conditions of the AMLF, including:

                                 Regulatory Requirements
                                 On January 30, 2009, the Board announced two rules that amended
                                 existing banking regulations to facilitate financing ABCP purchases from
                                 MMMFs through the AMLF. The changes included:

                                 •	 A temporary limited exception from the Board’s leverage and risk-based
                                    capital rules for bank holding companies (BHCs) and state member
                                    banks. Ordinarily, a bank or BHC would be required to hold capital
                                    against ABCP, including that purchased from affiliated money market
                                    funds. This final rule eliminated any capital requirement for purchases
                                    financed under the AMLF, which lowered a bank’s and a BHC’s cost of
                                    investment.
           Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility (AMLF)   63



•	 A temporary limited exception from sections 23A and 23B of the Federal
   Reserve Act, which establish certain restrictions on and requirements for
   transactions between a bank and its affiliates. Without this exception, a
   bank would be severely limited in the amount of ABCP it could purchase
   from an affiliated MMMF.
These two rules were meant to facilitate participation by depository
institutions and BHCs as intermediaries between the AMLF and MMMFs,
thus increasing the number of eligible AMLF borrowers. The exceptions
under the two rules were no longer available once the AMLF expired.

Collateral Eligibility
•	 Effective April 22, 2009, program guidelines were updated to tighten
   ABCP eligibility requirements to require that no ABCP could have a rating
   lower than A-1/P-1/F1 and not be identified as on “negative watch.” Prior
   to April 22, ABCP eligibility was defined as ABCP not rated lower than
   A-1/P-1/F1 by at least two NRSROs, or, if rated by only one NRSRO, the
   ABCP must have been rated within that NRSRO’s top rating category.
MMMF Qualification
On June 25, 2009, program guidelines were amended to require that
MMMFs be under significant redemption pressure in order for their
ABCP to be eligible for purchase through the AMLF, as discussed earlier
(previously, there was no such provision).

•	 When an MMMF reached the established redemption pressure
   threshold, net redemptions in excess of 5 percent of the fund’s value
   on a given business day or 10 percent in a period of five or less business
   days, ABCP purchased from the fund would be eligible for the AMLF on
   the following business day, and for the next five days after the threshold
   was met. At the end of the eligibility period, any ABCP purchased from
   the MMMF became ineligible for the AMLF unless another redemption
   threshold was met.
•	 The transfer agent of the MMMF was required to certify that the net
   redemption requirement of the AMLF had been reached to make the
   MMMF’s ABCP eligible.
Facility Expiration Date
The term of the facility was extended three times, in response to continued
instability in the financial markets.

•	 On December 2, 2008, the AMLF was extended through April 30, 2009.
•	 On February 3, 2009, the AMLF was extended through October 30, 2009.
•	 On June 25, 2009, the AMLF was extended through February 1, 2010.
Financial Reporting
The results of the AMLF operations were reported on the Federal Reserve’s
H.4.1 weekly statistical release, entitled Factors Affecting Reserve Balances
of Depository Institutions and Condition Statement of Federal Reserve Banks. In
addition, the Board publishes a monthly Credit and Liquidity Programs and
64   Federal Reserve Board OIG Lending Facilities Review



                                 the Balance Sheet report, which included additional, detailed information
                                 on the AMLF. Both reports are posted on the Board’s public website. The
                                 income earned by the AMLF was reported as a component of “Interest
                                 Income” in the Federal Reserve Banks Combined Statements of Income and
                                 Comprehensive Income, as well as FRB-Boston’s financial statements.

                                 How was risk managed?
                                 To respond quickly to the stressed ABCP and MMMF markets, the
                                 AMLF was established under severe time constraints that afforded little
                                 opportunity for extensive implementation planning. In order to stabilize
                                 the financial markets, the Federal Reserve provided broad eligibility for
                                 the AMLF loans across banks, BHCs (including U.S. broker-dealer affiliates),
                                 and U.S. branches and agencies of foreign banks. Since AMLF loans were
                                 extended to these borrowers to buy the ABCP from MMMFs, AMLF terms
                                 and conditions needed to be structured to attract the borrowers to take
                                 the loans, which carried risk for the Federal Reserve. In addition, the AMLF
                                 operational policies and procedures had to be developed quickly, were
                                 based on the market stress conditions at the time, and were not designed
                                 to address changes in risk that could occur as market conditions improved.

                                 To attract the borrowers to purchase the ABCP using AMLF financing, the
                                 Federal Reserve did not impose haircuts on the collateral—that is, loans
                                 were provided for the full value of the collateral at its amortized cost rather
                                 than requiring a higher collateral value than the loan that would reflect
                                 the credit risk of the collateral asset(s) and the market in which it was
                                 traded. This exposed the Federal Reserve to credit risk. In general, collateral
                                 assets with lower credit ratings, longer maturities, and less liquidity would
                                 typically have higher haircuts than assets with higher credit ratings and
                                 shorter maturities that are more liquid. Further, AMLF loans were provided
                                 without recourse to the assets of the borrowers in the case of default,
                                 which entailed additional risk.

                                 To mitigate these credit risks while providing broad AMLF loan eligibility
                                 to stabilize the ABCP and MMMF markets, the Federal Reserve required the
                                 ABCP to be highly rated. The original AMLF terms and conditions required
                                 that ABCP had to be rated A-1/P-1/F1 by at least two NRSROs, or, if rated by
                                 only one NRSRO, the ABCP must have been rated within that NRSRO’s top
                                 rating category. The terms were tightened in April 2009, to require ratings
                                 no lower than A-1/P-1/F1 and no ABCP identified as on “negative watch.”
                                 In addition, the ABCP was secured by underlying assets, and interest was
                                 charged on the AMLF loan at the primary credit rate. Also, AMLF policies
                                 and procedures were changed to restrict eligibility as the ABCP and MMMF
                                 stresses subsided, as discussed below.

                                 Operationally, the AMLF’s original policies and procedures were established
                                 quickly to address the financial crisis in the ABCP market that led to MMMF
                                 redemptions, and were not designed to address changes in risk that could
                                 occur as market conditions improved. Based on the severe market stress
              Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity Facility (AMLF)     65



conditions that existed at the time and the pressure of investor redemption
demands on the MMMFs, the AMLF terms did not specifically require that the
ABCP be purchased solely from MMMFs experiencing material “redemption
pressure.” After utilization of the facility had declined significantly, FRB-
Boston staff observed that some of the borrowers and MMMFs may have
been continuing to use the facility in anticipation of possible ABCP issuer
downgrades under the bank stress tests (discussed below) that could have
made the ABCP ineligible. In June 2009, the Board changed the terms of
the program to add a redemption provision requiring that ABCP must be
purchased from MMMFs demonstrating material redemption pressures—net
asset loss of 5 percent in a single day or at least 10 percent for a period of five
business days or less—for eligibility under the AMLF.

Did it have an impact?
Facility Utilization
After initiation of the program, the AMLF escalated to a peak utilization
of $152.1 billion on October 1, 2008. As depicted in Figure 6-3, use of the
AMLF tapered off thereafter as funding markets gradually stabilized and
MMMF redemption pressures subsided. According to FRB-Boston officials,
the AMLF experienced a moderate increase in utilization around May 2009,
coinciding with the U.S. government’s pending release of its Supervisory
Capital Assessment Program (also known as bank stress test) results, which
could have resulted in ABCP issuer downgrades and, thus, ineligibility of
certain ABCP to the AMLF.16 The facility expired on February 1, 2010.




16 The Supervisory Capital Assessment Program was an interagency (the Board, the Department
   of the Treasury, the Federal Deposit Insurance Corporation, and the Office of the Comptroller
   of the Currency) evaluation completed during the spring of 2009 to determine if the largest
   U.S. banking organizations had sufficient capital to withstand the impact of a “more adverse”
   economic environment.
66   Federal Reserve Board OIG Lending Facilities Review



                                 Financial Review of the Facility
                                 According to the Federal Reserve, the operation of the AMLF generated
                                 $543 million in interest, and all loans were repaid. The Board reported that
                                 improving market conditions as well as limiting eligible collateral to highly
                                 rated ABCP, which was supported by assets backing the commercial paper,
                                 contributed to the absence of losses in the AMLF.

                                 Market Impact Analysis
                                 While it is difficult to determine the specific impact of the AMLF on the
                                 markets, market data suggested that the AMLF helped to restore liquidity
                                 to the ABCP markets and, thereby, assisted MMMFs in meeting redemption
                                 demands. Figure 6-4 shows that AMLF utilization coincided with a
                                 reduction in the ABCP blended rate, signaling improvement in short-term
                                 markets.17 By providing non-recourse loans, the AMLF provided attractive
                                 loans, from a risk and capital perspective, to eligible borrowers, who used
                                 the funds to invest in ABCP owned by MMMFs, providing liquidity to the
                                 MMMFs that reduced their redemption concerns and fostered liquidity in
                                 the money markets in general.




                                 17 The ABCP blended rate is the weighted average of AA-rated ABCP rates for maturities ranging from overnight
                                    through 90 days, weighted by the volume of issuances during the time period, as reported by the Board.
Section 7	   Commercial Paper
             Funding Facility
             (CPFF)
                                                                                                             69




                                                                                                          CPFF at a Glance
Commercial Paper Funding Facility
At a Glance                                          Commercial Paper Funding Facility (CPFF)
Announced on October 7, 2008, the                Overview (as of June 30, 2010)
Commercial Paper Funding Facility (CPFF)         Announcement Date October 7, 2008
was intended to increase the liquidity of the
commercial paper markets and provide an          Operational Date      October 27, 2008
immediate funding source for companies,
                                                 Expiration Date       February 1, 2010
allowing them to continue to finance
day-to-day operations, such as payroll,          Current Utilization   No outstanding loans
purchasing, and lending. (Commercial
paper is a short-term debt instrument            Peak Utilization      $348.2 billion
issued by companies to meet short-term                                 January 21, 2009
financing needs.) Due to instability in the      Participants          U.S. commercial paper issuers
commercial paper market during 2007
and 2008, companies experienced limited          Collateral            Commercial paper
access to reasonably priced, short-term
                                                 Managed by            Federal Reserve Bank of New York
funding, putting enormous strain on their                              (FRB-NY)
ability to finance operations. As a step
toward unfreezing credit markets and             Loan Term             Three months
ensuring short-term market liquidity, the
Board authorized the CPFF to provide
liquidity to the commercial paper markets. Authorized under section 13(3) of the Federal
Reserve Act, the CPFF was structured using a special purpose vehicle (SPV). (An SPV is a
separate legal entity used for the acquisition and financing of assets.) The Federal Reserve
Bank of New York (FRB-NY) provided loans to the SPV on a recourse basis. The SPV used the
funds to purchase eligible three-month, unsecured commercial paper and asset-backed
commercial paper (ABCP) from eligible issuers.

Utilization Summary
On January 21, 2009, the CPFF reached peak utilization of $348.2 billion in outstanding loans.
At the end of January 2009, as the first wave of commercial paper purchased by the CPFF
matured, the facility’s utilization dropped by approximately $100 billion. Subsequently,
the facility’s utilization steadily decreased. Although the facility expired February 1, 2010, its
remaining commercial paper holdings did not mature until April 26, 2010.

While it is difficult to assess the specific, direct impact of the CPFF on the commercial
paper market, market data suggested that CPFF helped to stabilize commercial paper
market funding. After its initiation, the CPFF became a significant investor in the market,
at one time representing approximately 22 percent of the commercial paper market.
The CPFF gave commercial paper market participants access to liquidity that allowed
them to sell commercial paper at a lower cost than was feasible in a very stressed market.
Further, it provided this liquidity at above normal market cost and with utilization fees
that motivated issuers to fund commercial paper in the private markets, as soon as market
conditions improved and lower cost private financing was available to issuers. Commercial
paper rates decreased significantly after the CPFF was implemented.
Federal Reserve Board OIG Lending Facilities Review
                                                            Commercial Paper Funding Facility (CPFF)   71



Detailed Overview of the CPFF 

What was it?
The CPFF, which was funded and managed by FRB-NY, provided
liquidity to the commercial paper markets as a step toward unfreezing
credit markets and ensuring short-term market liquidity. Authorized
under section 13(3) of the Federal Reserve Act, the CPFF was structured
using an SPV. The SPV purchased eligible three-month unsecured
commercial paper and ABCP from eligible issuers using financing
provided by FRB-NY. The SPV held the commercial paper until maturity
and used the proceeds from maturing commercial paper and other
assets of the SPV to repay its loans from FRB-NY.

Of the six section 13(3) lending facilities, the CPFF, the Asset-Backed
Commercial Paper Money Market Mutual Fund Liquidity Facility
(AMLF), and the Money Market Investor Funding Facility (MMIFF) were
authorized by the Board to address liquidity strains faced by money
market mutual funds (MMMFs) and borrowers in the commercial
paper markets. While the CPFF was intended to provide liquidity in the
commercial paper markets, the AMLF and the MMIFF were intended
to facilitate the sale of assets by MMMFs to increase their liquidity and
encourage lending at longer-term maturities.

How did we get there?
Figure 7-1 highlights the key events in the relevant financial markets
and operation of the CPFF.

From 2005 to 2007, the commercial paper market experienced dramatic
growth, especially ABCP, which grew by 69 percent. Commercial paper
is an important funding source for large companies and generally
carries low risk due to its short duration (on average, less than 30 days)
making it easier to assess the ability of the issuer to meet its obligation.
Also, most issuers are large companies with strong credit ratings. For
unsecured commercial paper, the primary risk is a negative event that
threatens the viability of an issuing company’s business. For ABCP, the
primary risk is a significant decrease in the value of the underlying
assets of the ABCP, such as higher-than-expected mortgage defaults.

After peaking in mid-2007 at $2.2 trillion, the commercial paper market
shrank significantly. When the credit crisis and declining housing
market started to unfold in the summer of 2007, asset-backed securities
tied to subprime mortgages were a key area of weakness within the
financial markets, which caused the rates on related ABCP to increase.
Concerns about exposure to mortgage assets also negatively impacted
companies’ ability to issue unsecured commercial paper. Disruptions
to commercial paper markets became more severe and widespread
after the bankruptcy of Lehman Brothers Holdings, Inc. (Lehman
72     Federal Reserve Board OIG Lending Facilities Review



                                                 Brothers). Between September 10, 2008, and October 22, 2008, the
                                                 commercial paper market declined by $325 billion to $1.43 trillion,
                                                 essentially shrinking by about one-fifth. In addition to the reduction of
                                                 total outstanding commercial paper, the maturity of issued commercial
                                                 paper also shortened over this timeframe. Only the most trusted
                                                 institutions were able to issue commercial paper beyond a few days at
                                                 favorable rates, and many firms had to reissue their paper on a daily
                                                 basis. At the height of the credit crisis, even highly rated institutions
                                                 were unable to reissue their commercial paper for longer than
                                                 overnight, which increased costs to obtain funding. In addition, shorter
                                                 maturities increased the risk that the issuer might not be able to find
                                                 investors willing to roll over its maturing, outstanding paper, even at
                                                 very high rates. To alleviate strain in the commercial paper markets, the
                                                 Board authorized the CPFF.

                                                 How did it work?
                                                 The CPFF supported the commercial paper markets by providing
                                                 a liquidity backstop to U.S. issuers of commercial paper. The CPFF
                                                 was established as an SPV that was a limited liability company (LLC)
                                                 authorized by the Board and created by FRB-NY to operate the
                                                 CPFF and maintain its assets. FRB-NY was responsible for funding,
                                                 facility management, and oversight. The SPV purchased and held the
                                                 commercial paper until maturity and used the proceeds from maturing
                                                 commercial paper and other assets of the SPV to repay its loan from
                                                 FRB-NY. The CPFF SPV paid the maximum of the target federal funds
                                                 rate range to FRB-NY; this rate was set at loan origination and remained
                                                 fixed through the term of the loan. FRB-NY’s loans to the CPFF SPV
                                                 were made with full recourse to the SPV and were secured by all the
                                                 assets of the SPV. In situations where the obligations acquired by the
                                                 SPV were ABCP, the FRB-NY loans also were secured by the assets that
                                                 support the commercial paper. However, the loans were not made
                                                 with recourse to the assets of the issuers. To cushion against potential
                                                 losses, the CPFF SPV retained all fee income, such as the facility fees,
                                                 and unsecured credit surcharges paid by borrowers. The maximum
                                                 amount of commercial paper that could be financed by the CPFF SPV
                                                 was estimated at approximately $1.8 trillion, which was based on eligible
                                                 issuers’ outstanding commercial paper between January and August
                                                 2008. Individual issuer limits were established to ensure the CPFF acted
                                                 only as a liquidity backstop.

                                                 An important part of the CPFF structure was the use of vendors to assist
                                                 in various CPFF operations. Pacific Investment Management Company
Transaction Agent—An individual or firm          LLC (PIMCO) performed transaction agent functions and investment
authorized to act on behalf of another           management services, and State Street Bank & Trust Company
(called the principal), such as by executing a
transaction.
                                                 performed custodial and administrative services. As a transaction
                                                 agent, PIMCO interacted with the issuers, the primary dealers, and the
                                                 custodian to review and process proposed sales of commercial paper to
                                                           Commercial Paper Funding Facility (CPFF)                      73



the CPFF. PIMCO was also responsible for daily monitoring of CPFF credit
risk, and developed a four-tiered rating system that supported FRB-NY’s
internal collateral valuation and credit risk monitoring processes. FRB-NY
was responsible for risk control, monitoring credit exposure, impairment
estimates, and mitigation strategies.

Figure 7-2 illustrates the CPFF operating model, beginning with the
commercial paper issuer’s request to the primary dealer.

The following describes the various components of the CPFF operating
model.

CPFF Process Flow
The CPFF SPV received its funding directly from FRB-NY in the form
of loans. Issuers requested access to the CPFF by contacting their
respective primary dealer, who informed PIMCO of the request. Once
PIMCO determined that the issuer and the collateral met CPFF eligibility
requirements, PIMCO initiated the commercial paper purchase process
by notifying FRB-NY of the need for a loan to the SPV. On behalf of the
SPV, FRB-NY sent the loan proceeds to the custodian bank. Meanwhile,
the issuer’s new commercial paper was issued to the issuing/paying
agent’s (IPA’s) account at the Depository Trust Company (DTC). The
SPV ‘s custodian bank then used the loan proceeds to purchase the
commercial paper in the DTC from the IPA. The IPA provided the funds
to the issuer, and the custodian bank held the commercial paper for the
SPV until maturity. PIMCO also provided periodic collateral valuation
reports to FRB-NY. Once the commercial paper matured, the SPV used
the proceeds from the commercial paper and other assets to repay its
loan to FRB-NY.

Terms and Conditions of the CPFF
The following summarizes the terms and conditions for the CPFF at the
time of our review. (A comprehensive list of CPFF terms and conditions
was available on the FRB-NY website.)


                                                                             Depository Trust Company (DTC)—An
                                                                             organization that provides clearing
                                                                             and settlement services for securities,
                                                                             institutional trades (which typically involve
                                                                             money and securities transfers between
                                                                             custodian banks and broker-dealers), and
                                                                             money market instruments.
74   Federal Reserve Board OIG Lending Facilities Review



                                 Element          Description
                                 Standard Terms   • 	 CPFF SPV purchases were limited to three-month term, U.S. dollar-
                                                      denominated commercial paper directly from eligible issuers.
                                                  • 	 Commercial paper purchased was discounted, based on a rate equal to a
                                                      spread over the three-month overnight indexed swap (OIS) rate on the
                                                      day of purchase.
                                                  • 	 If collateral was ABCP, the loans were also secured by the underlying
                                                      assets.
                                                  • 	 To ensure that the CPFF only acted as a liquidity backstop and not as a
                                                      substitute for other funding sources, the CPFF placed restrictions on the
                                                      amount of commercial paper it could buy from any one issuer. The maxi­
                                                      mum amount that the CPFF SPV could own at any one time from any
                                                      issuer could not exceed the greatest amount of U.S. dollar-denominated
                                                      commercial paper the issuer had outstanding on any day between Janu­
                                                      ary 1, 2008, and August 31, 2008. The CPFF SPV also could not purchase
                                                      additional commercial paper from an issuer whose total commercial
                                                      paper outstanding to all investors, including the CPFF SPV, equaled or
                                                      exceeded the issuer’s maximum limit amount.
                                 Interest Rates   • 	 Issuers of unsecured commercial paper paid an interest rate of the three-
                                                      month OIS rate plus 100 basis points.
                                                  • 	 Issuers of ABCP purchased by the CPFF SPV paid an interest rate of the
                                                      three-month OIS rate plus 300 basis points.
                                                  • 	 All interest rates were published daily on FRB-NY’s website.
                                 Fees             • 	 Issuers registering for the program were also required to pay a non­
                                                      refundable facility fee of 10 basis points of the issuer’s maximum
                                                      issuance amount to the CPFF SPV. For example, if an issuer could sell a
                                                      maximum of $500 million in commercial paper to the CPFF SPV, its com­
                                                      mitment fee upon registration to the CPFF would be $500,000.
                                                  • 	 Unsecured credit surcharge: Issuers of unsecured commercial paper to
                                                      the CPFF were also required to pay up front a 100 basis point per annum
                                                      fee on each sale of commercial paper to the SPV.
                                 Collateral       • The CPFF was limited to purchases of three-month term, U.S. dollar-
                                 Requirements       denominated commercial paper issued by a U.S. issuer.
                                                  • 	 The commercial paper was required to be rated at least A-1/P-1/F1 by
                                                      one or more of the Nationally Recognized Statistical Rating Organizations
                                                      (NRSROs).
                                                  • 	 If the commercial paper had been rated by more than one NRSRO, then
                                                      the commercial paper was required to be rated at least A-1/P-1/F1 by at
                                                      least two NRSROs.
                                                  • 	 The CPFF SPV was not able to purchase extendible commercial paper,
                                                      which is commercial paper with a term that can be extended due to
                                                      contractual allowances.
                                                  • 	 Interest-bearing commercial paper was not eligible.
                                                                                     Commercial Paper Funding Facility (CPFF)   75



Element                  Description
 Eligible Participants   • 	 Only U.S. issuers and co-issuers of commercial paper were eligible to
 & Involved Entities 	       participate in the CPFF, including U.S. issuers with a foreign parent and U.S.
                             branches of foreign banks. Each legal entity that issued commercial paper
                             was considered a separate “issuer,” thus a parent company and its subsidiaries
                             could each issue to the CPFF SPV if each of them was an eligible issuer.
                         • 	 The CPFF SPV would buy commercial paper directly from issuers only, not
                             investors.

Since the inception of the facility, the Federal Reserve made some
changes to the terms and conditions of the CPFF, as described below:

Issuer Eligibility
On January 23, 2009, the terms and conditions of the CPFF were revised
to make issuers of ABCP that were inactive prior to the creation of the
CPFF ineligible to participate in the CPFF.

Facility Expiration Date
Since inception, the facility was extended twice due to continued
instability in the commercial paper market:

• On February 3, 2009, the term of the CPFF was extended to October
  30, 2009.
• On June 25, 2009, the term of the CPFF was extended to February 1,
  2010.
Financial Reporting
The results of the CPFF operations were reported on the Federal
Reserve’s H.4.1 weekly statistical release, entitled Factors Affecting
Reserve Balances of Depository Institutions and Condition Statement of
Federal Reserve Banks. The H.4.1 also contained information on the value
of the collateral and the net holdings of the CPFF SPV, which secured
FRB-NY’s loans to the SPV. In addition, the Board publishes a monthly
Credit and Liquidity Programs and the Balance Sheet report, which
included additional, detailed information on the CPFF. These reports are
available on the Board’s public website. The income related to CPFF has
been reported as “Investments Held By Consolidated Variable Interest
Entities” in the Federal Reserve Banks Combined Statements of Income
and Comprehensive Income, as well as in FRB-NY’s consolidated financial
statements. The CPFF SPV also has separate financial statements, which
have been audited by Deloitte & Touche LLP, an independent public
accounting firm.
76   Federal Reserve Board OIG Lending Facilities Review



                                 How was risk managed?
                                 In response to the financial crisis in the commercial paper market,
                                 the CPFF was developed quickly to provide immediate liquidity to
                                 companies to enable them to continue to fund day-to-day operations,
                                 which afforded little opportunity for extensive implementation planning.
                                 To stabilize the commercial paper markets, the Federal Reserve provided
                                 broad eligibility for the commercial paper that could be purchased
                                 by the CPFF across many companies. Although the commercial paper
                                 was required to be highly rated, FRB-NY did not (1) specifically provide
                                 formal differentiation of loan terms and conditions based on the
                                 strength and capitalization of individual borrowers, and (2) formally and
                                 systematically use Federal Reserve supervisory information throughout
                                 the program to evaluate the credit risk of eligible CPFF borrowers that
                                 were financial institutions. This exposed the Federal Reserve to credit
                                 risk. In addition, an important part of the CPFF structure was the use
                                 of vendors with specialized expertise to perform mission critical
                                 operations, such as PIMCO, which provided investment management
                                 and transaction agent services, and State Street Bank & Trust, which
                                 provided custodial and administrative services. Vendor contracts
                                 introduce certain risks, such as the risk that the vendors will not
                                 (1) comply with all contract provisions; (2) provide the quantity and
                                 quality of services required, at the best value; and (3) protect against
                                 conflicts of interest. For example, CPFF vendors were operating entities
                                 in the commercial paper and investment markets and had clients who
                                 were eligible to participate in the CPFF.

                                 To mitigate credit risk, the Board specified a number of terms and
                                 conditions that focused on ensuring adequate collateral to protect
                                 against potential financial loss. The Board required the commercial
                                 paper collateral for loans to be highly rated, created an SPV to acquire
                                 and manage the collateral, charged interest rates and facility fees,
                                 and established loan limits that were tied to commercial paper
                                 volumes. Additional safeguards were provided through loan terms
                                 and conditions that provided recourse to the SPV’s assets in the
                                 case of loan default, and the ability to reduce loan limits for specific
                                 commercial paper issuers, as needed, to reduce risk exposure. Also, risk
                                 was mitigated by analysis of CPFF borrowers and collateral monitoring
                                 performed by PIMCO, which had specialized expertise in credit risk
                                 analysis and knowledge of the commercial paper markets.

                                 To mitigate contracting risks, FRB-NY CPFF staff and internal auditors
                                 performed an on-site review of PIMCO’s compliance with contract
                                 provisions. In addition, FRB-NY put in place conflict of interest contract
                                 provisions for each of its CPFF vendors. Contractual conflict of interest
                                 provisions are used to protect professional or public interests from actions
                                 that instead benefit a contracted vendor, its employees, or its clients. FRB­
                                 NY staff reviewed conflict of interest provisions and, at the time of our
                                                                 Commercial Paper Funding Facility (CPFF)   77



review, a third-party vendor, under contract with FRB-NY’s Legal group, was
performing a conflict of interest review and testing compliance with contract
provisions.

Did it have an impact?
Facility Utilization
On January 21, 2009, the CPFF reached a peak utilization of $348.2 billion.
At the end of January 2009, as the first wave of commercial paper purchased
by the CPFF SPV matured, the facility’s utilization dropped by approximately
$100 billion. Private investors began purchasing reissued commercial paper
in an improved market. Subsequently, the facility’s utilization steadily
decreased. Although the facility expired on February 1, 2010, its remaining
commercial paper holdings did not mature until April 26, 2010.

Figure 7-3 illustrates the utilization of the CPFF since inception.




Financial Review of the Facility
According to FRB-NY, the operations of the CPFF SPV generated $6.112
billion in interest income and usage fees and the commercial paper
purchased by the CPFF SPV experienced no defaults, as well as few
downgrades. The Board reported that there were no losses on CPFF
operations.

Market Impact Analysis
After its start, the CPFF played a significant role in the market, at one time
representing approximately 22 percent of the commercial paper market.
The CPFF gave commercial paper issuers access to a liquidity “backstop”
that allowed them to sell commercial paper at a lower cost than was
feasible in a very stressed market. Further, it provided this liquidity at
above normal market cost and with utilization fees that motivated issuers
to fund commercial paper in the private markets, as soon as market
78   Federal Reserve Board OIG Lending Facilities Review



                                 conditions improved and lower cost private financing was available to
                                 issuers. It may also have been a source of 2008 year-end financing for
                                 financial firms. As illustrated in Figure 7-4, the introduction of the CPFF
                                 coincided with a decline in commercial paper rates.18 While commercial
                                 paper rates may have decreased for a number of reasons, such as the
                                 decreased federal funds rate and declining investor concerns as to
                                 corporate defaults, market data suggested that the presence of the
                                 CPFF helped to stabilize commercial paper market funding. Investors
                                 buying CPFF-eligible commercial paper knew the issuer could reissue
                                 its commercial paper to the CPFF SPV, if necessary, and repay the
                                 investor, thereby calming the financial markets and leading to a
                                 significant decline in facility utilization over time.




                                 18 The blended 30-day commercial paper (CP) rate is the weighted average (by issuance
                                    volume) of the interest rates for 30-day maturity, AA-rated financial & non-financial CP and
                                    ABCP, and A2/P-2 rated non-financial CP, as reported by the Board.
Section 8	   Money Market
             Investor Funding
             Facility (MMIFF)
                                                                                                            81




                                                                                                        MMIFF at a Glance
Money Market Investor Funding Facility
At a Glance                                        Money Market Investor Funding Facility (MMIFF)
Announced on October 21, 2008,                     Overview (as of June 30, 2010)
the Money Market Investor Funding
                                                   Announcement Date October 21, 2008
Facility (MMIFF) was intended to restore
confidence and liquidity in the money              Operational Date      November 24, 2008
markets, which are critical to the short-
                                                   Expiration Date       October 30, 2009
term financing needs of businesses.
Money market mutual funds (MMMFs) are              Current Utilization   No outstanding loans
an important component of the money
markets.                                           Peak Utilization      $0

During the fall of 2008, hundreds of             Participants     U.S. money market mutual funds
                                                                  (MMMFs) and certain other money
billions of dollars were withdrawn from
                                                                  market investors
MMMFs, and more than 100 MMMFs
lost a substantial amount of assets over         Collateral       Certificates of deposit (CDs), bank
a short period of time due to investor                            notes, and commercial paper
redemptions. These redemptions placed
                                                 Managed by       Federal Reserve Bank of New York
considerable pressure on the liquidity of
                                                                  (FRB-NY)
the MMMFs, and many MMMFs reacted
by shortening the maturity of their              Loan Term        90 days or less
portfolio holdings. By their reluctance to
invest in anything but the shortest-term
instruments, MMMFs put great stress on financial institutions and businesses that relied
on MMMFs to purchase their commercial paper. As a result, the percentage of outstanding
money market instruments issued on an overnight basis increased significantly, which
adversely impacted the ability of financial institutions to make loans and extend credit
to businesses and households. By authorizing the MMIFF, the Federal Reserve sought to
improve money market conditions and enhance the ability of banks and other financial
intermediaries to accommodate the credit needs of businesses and households.

Under the MMIFF, the Federal Reserve Bank of New York (FRB-NY) was to provide funding
to a series of special purpose vehicles (SPVs) established by the private sector to finance
the purchase of certain money market instruments from eligible investors. The MMIFF
was to be 90 percent funded by FRB-NY’s loans, with an authorized limit of $600 billion in
assets, resulting in a maximum potential exposure of $540 billion for the Federal Reserve.
FRB-NY’s loans under the MMIFF were to be fully collateralized by the assets of the SPVs,
and investors using the facility would have absorbed approximately the first 10 percent of
any losses incurred.

Utilization Summary
The MMIFF expired on October 30, 2009, and was never utilized. Given the lack of
utilization, it is difficult to assess the impact of the MMIFF on the money markets. However,
the mere existence of the MMIFF may have provided investors with additional assurance
about holding securities with longer-term maturities and, thus, had a positive effect on the
money markets.
Federal Reserve Board OIG Lending Facilities Review
                                                   Money Market Investor Funding Facility (MMIFF)                     83



Detailed Overview of the MMIFF
What was it?
With the MMIFF, the Federal Reserve sought to restore confidence
and liquidity in the money markets, which are critical to the short-
term financing needs of U.S. businesses. By facilitating sales of
money market instruments in the secondary market, the MMIFF
was intended to reassure MMMFs and other money market investors
that they could buy longer-term (maturity up to 90 days) investments
and still maintain appropriate liquidity positions to meet immediate
redemption demands by investors. Greater access to longer-term
financing from money market investors enhances the ability of banks
and other financial intermediaries to accommodate the credit needs of
businesses and households.

The Board authorized three lending programs to address liquidity strains
faced by MMMFs and borrowers in the commercial paper markets—the
Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity
Facility (AMLF), the Commercial Paper Funding Facility (CPFF), and the
MMIFF. CPFF was intended to provide liquidity in the commercial paper
markets. Both the AMLF and the MMIFF were intended to facilitate the sale
of assets by MMMFs to increase their liquidity and encourage lending at
longer-term maturities; however, the MMIFF would have facilitated the sale
of a different, broader set of assets than the AMLF (that is, money market
instruments versus only asset-backed commercial paper (ABCP)).

The MMIFF was designed to provide funding to SPVs established by the
private sector. The private sector SPVs had an authorized limit of $600
billion in assets. The MMIFF was to be 90 percent funded through FRB­
NY loans to the private sector SPVs, resulting in a maximum potential
                                                                             Secondary Market—The secondary market,
exposure of $540 billion for the Federal Reserve. The remaining 10
                                                                             also known as the aftermarket, is where
percent was to be funded by the private sector SPVs’ issuance of highly      previously issued securities and financial
rated ABCP to the sellers of the money market instruments.                   instruments, such as stocks, bonds,
                                                                             options, and futures, are bought and sold.
How did we get there?                                                        The primary market refers to the market for
                                                                             newly-issued securities.
Figure 8-1 highlights the key events in the relevant financial markets
and operation of the MMIFF.

MMMFs are large investment funds that seek to limit investors’
exposure to losses due to various types of risk (such as credit, market,
and liquidity) by investing only in highly rated, short-term debt
instruments, such as U.S. government securities and highly rated
commercial paper. Traditionally, MMMFs are supposed to be very
safe, liquid investments and, therefore, are often used by financial
institutions to invest money that is not currently loaned to consumers.
U.S. MMMFs are an important component of the financial markets. It
84    Federal Reserve Board OIG Lending Facilities Review



                                               has been estimated that the value of assets held in U.S. MMMFs grew
                                               from $180 billion in 1983 to $3.9 trillion as of 2009, which accounted for
                                               20 percent of the liquid cash balances of households and more than
                                               30 percent of the short-term assets of non-financial businesses.

                                               MMMFs are major investors in the commercial paper and repurchase
                                               agreements markets. In the fall of 2008, as the commercial paper and
                                               other financial markets came under duress, secondary markets for
                                               MMMFs’ assets came under considerable strain. As investors began to
                                               favor very short-term (frequently overnight) instruments, MMMFs had
                                               difficulty selling assets with a longer term in the secondary market.
                                               MMMFs offer shares that are payable on demand, but hold assets that
Certificate of Deposit (CD)—A savings          typically mature over the course of weeks, such as certificates of
certificate entitling the bearer to receive    deposit (CDs), bank notes, and commercial paper. This characteristic
interest. A CD bears a maturity date, has
                                               of MMMFs makes them vulnerable to investor “runs,” much like banks
a specified fixed interest rate, and can
be issued in any denomination. CDs are         (that is, investors may quickly remove their investments, leaving the
generally issued by commercial banks and       fund with insufficient positive cash flow). However, unlike banks,
are insured by the Federal Deposit Insurance   MMMFs do not have federal deposit insurance to make investors less
Corporation up to $250,000. The term of a      likely to withdraw their investments.
CD generally ranges from one month to five
years.                                         During the fall of 2008, investors redeemed hundreds of billions of
                                               dollars from MMMFs, and more than 100 MMMFs lost a substantial
                                               amount of assets over a short period of time due to redemptions. These
                                               redemptions placed considerable pressure on the liquidity of the MMMFs.
                                               To ensure that they had adequate liquidity to meet redemptions, many
                                               MMMFs took actions to shorten the maturity of their portfolio holdings.
                                               By their reluctance to invest in long-term instruments, MMMFs put great
                                               stress on financial institutions and businesses that relied on MMMFs to
                                               purchase their commercial paper. The percentage of outstanding money
                                               market instruments issued on an overnight basis increased significantly,
                                               which impacted the available liquidity for financial institutions to make
                                               loans and extend credit to businesses and households. By authorizing
                                               the MMIFF, the Board sought to improve money market conditions
                                               and enhance the ability of banks and other financial intermediaries to
                                               accommodate the credit needs of businesses and households.

                                               How did it work?
                                               The MMIFF was authorized under section 13(3) of the Federal Reserve
                                               Act to support a private sector initiative designed to provide liquidity to
                                               U.S. money market investors. It would have done so through a series of
                                               private SPVs established to finance the purchase of specific assets from
                                               investors. MMMFs could have sold certain assets (such as commercial
                                               paper and CDs) that satisfied eligibility and certain ratings criteria to
                                               a private SPV. Each private SPV would have financed its purchases of
                                               eligible assets by borrowing 90 percent of the assets’ value from FRB­
                                               NY. The private SPV also would issue subordinated ABCP to the seller of
                                               the eligible asset equal to 10 percent of the asset’s value. Eligible assets
                                                   Money Market Investor Funding Facility (MMIFF)              85



were required to be cleared by the Depository Trust Company (DTC)
and have remaining maturities of at least 7 days and no more than
90 days.

As the structuring and referral agent for MMIFF, J.P. Morgan Securities
was to solicit sales and determine asset quality on behalf of five private
SPVs. Each SPV was to purchase only debt instruments issued by
10 designated financial institutions, which meant that debt instruments
from 50 different financial institutions were eligible to be sold to the
private SPVs. The 50 financial institutions were chosen because they
were among the largest issuers of highly rated, short-term liabilities
held by MMMFs, provided geographic diversification, and met certain
short-term debt-rating criteria. The debt instruments of a financial
institution could not constitute more than 15 percent of the assets of
its assigned SPV, except during an initial ramp-up period when the
concentration limit could be 20 percent. The SPV was to use proceeds
from investments to first repay any loans from FRB-NY, and then to
repay ABCP issued to sellers. Any remainder was to be remitted to
FRB-NY.

Figure 8-2 illustrates the MMIFF operating model, beginning with the
                                                                             Figure 8-2. Mechanics of the MMIFF
sale of eligible money market instruments to the SPV.

The following describes the various components of the MMIFF
operating model.

MMIFF Process Flow
FRB-NY was to provide senior-secured funding (that is, FRB-NY would
be the first party to be repaid) to the five private SPVs to finance
the purchase of specific types of money market instruments (CDs,                                        Loan
                                                                                                        90%
bank notes, and commercial paper) from eligible investors. Eligible                                     Cash
investors included MMMFs, as well as certain investment funds and
certain reinvestment funds, accounts, or portfolios associated with
securities lending transactions that were managed or owned by a U.S.                        SPV
bank, insurance company, pension fund, trust company, Securities
and Exchange Commission (SEC) registered investment advisor, or, for
                                                                                     Eligible  10% 90%
investment funds, a state or local government entity. The SPVs were to                Money    Value Cash
purchase assets for 90 percent of amortized cost (the carrying value                  Market ABCP
                                                                                   Instruments
                                                                                    nstruments
of the investment in the MMMF’s accounting records) and issue the
sellers ABCP for the remaining 10 percent of the asset value. The private
                                                                                   Eligible Investment Fund
SPVs were to hold the assets until they matured, and use the proceeds
to first repay the FRB-NY loan and then the ABCP held by the seller. As
                                                                                          Redemptions
the ABCP issued by the SPV was subordinated to the FRB-NY loan, the
first 10 percent of any losses incurred by the SPV were to be absorbed by
holders of the ABCP.
86   Federal Reserve Board OIG Lending Facilities Review



                                 Terms and Conditions of the MMIFF
                                The following summarizes the terms and conditions for the MMIFF
                                at the time of our review. (A comprehensive list of MMIFF terms and
                                conditions was available on the FRB-NY website.)

                                 Element           Description
                                  Standard Terms   • 	 FRB-NY was to provide senior-secured funding to a series of five SPVs
                                                       established by the private sector to finance the purchase of certain money
                                                       market instruments from eligible investors.
                                                   • 	 Each private sector SPV was to finance its purchases of eligible assets with
                                                       funding from FRB-NY and by issuing ABCP to the seller.
                                                   • 	 Each asset sold to each SPV was required to have a minimum value of
                                                       $250,000.
                                                   • 	 Assets were required to have a rate of 60 basis points above the
                                                       primary credit rate at the time of purchase by the SPV, and the issuing
                                                       institution was required to have a short-term debt rating of at least
                                                       A-1/P-1/F1 from two or more Nationally Recognized Statistical Rating
                                                       Organizations (NRSROs).
                                                   • 	 Under the MMIFF, FRB-NY’s loans were to be collateralized by the assets of
                                                       the borrowing SPV, and with recourse to the SPV.
                                                   • 	 There were no limits per eligible investor; the MMIFF did not limit how
                                                       much a single investor could sell to an SPV.
                                                   • 	 The debt instruments of a financial institution could not constitute more
                                                       than 15 percent of the assigned SPV’s assets, except during an initial ramp-
                                                       up period when the concentration limit could be 20 percent.
                                                   • 	 The SPVs were authorized, in total, to purchase a maximum amount of
                                                       $600 billion in eligible assets. Since FRB-NY would provide 90 percent of the
                                                       financing of the SPVs, Federal Reserve lending could have reached
                                                       $540 billion.
                                                   • 	 Rate of return for ABCP: eligible investors were to sell eligible assets to the
                                                       SPVs at amortized cost. Investors would initially earn an interest rate on the
                                                       ABCP they received that was at least 25 basis points below the interest rate on
                                                       the assets they sold.
                                                                       Money Market Investor Funding Facility (MMIFF)   87



Element             Description
Interest Rates      •	 FRB-NY was to lend to each SPV, on a senior-secured basis, 90 percent of
                       the purchase price of each eligible asset. The SPVs were to hold the eligible
                       assets until they matured, and proceeds from the assets would be used
                       to repay the FRB-NY loan and the ABCP. FRB-NY was to lend to the SPVs
                       at the primary credit rate. In order to reduce the interest rate risk of the
                       SPVs, however, FRB-NY subordinated its right to receive certain amounts
                       of potential interest payments. Specifically, if the primary credit rate rose
                       above the subordination threshold, FRB-NY’s right to receive interest above
                       the threshold rate would be subordinated to the rights of the ABCP holders
                       to receive principal and interest. The subordination threshold would have
                       equaled 50 basis points plus the lower of (i) the current primary credit
                       rate and (ii) the primary credit rate 90 days before. In other words, the
                       subordination threshold would have immediately and automatically
                       decreased to track any declines in the primary credit rate and would have
                       increased automatically 91 days after any increase in the primary credit rate.
                       Any accumulated income in an SPV not distributed to investors would have
                       accrued to FRB-NY.
Collateral          •	 Each SPV was limited to purchases of U.S. dollar-denominated CDs, bank
Requirements           notes, and commercial paper with a remaining maturity of at least 7 days
                       and not more than 90 days.
                    •	 The ABCP issued by each SPV and held by the investors would be subordi­
                       nated to the FRB-NY loans and absorb approximately the first 10 percent of
                       any losses incurred by the SPV. Any excess earned by the SPVs and paid to
                       FRB-NY would serve as a further buffer against loss.
                    •	 The ABCP would have been rated at least A-1/P-1/F1 by two or more
                       NRSROs.
Eligible            • The following investors were eligible to sell assets to an SPV: (1) U.S.
Participants &        MMMFs, (2) funds that operate in a manner similar to MMMFs and that
Involved Entities     were owned or managed by a U.S. bank, insurance company, pension
                      fund, trust company, SEC-registered investment advisor, or state or local
                      government entity, and (3) any U.S. dollar-denominated cash collateral
                      reinvestment fund, account, or portfolio associated with securities lending
                      transactions that was managed or owned by a U.S. bank, insurance com­
                      pany, pension fund, trust company, or SEC-registered investment advisor.
                    •	 Eligible investors in (2), above, were required to (i) maintain a dollar-weighted
                       average portfolio maturity of 90 days or less; (ii) hold the fund’s assets until
                       maturity under usual circumstances; and (iii) hold only assets that, at the time of
                       purchase, were rated by an NRSRO in one of the top three long-term investment-
                       grade rating categories (such as A and above) or the top two short-term
                       investment-grade rating categories (such as A-2 and above).
88   Federal Reserve Board OIG Lending Facilities Review



                                 Element              Description
                                  Eligible            • The 50 financial institutions (5 SPVs purchasing from 10 financial institu­
                                  Participants &        tions) that were to be funded by the MMIFF were chosen by representatives
                                  Involved Entities     of the U.S. MMMF industry. The financial institutions were chosen primarily
                                  (Continued)           because they were among the largest issuers of highly rated short-term lia­
                                                        bilities held by MMMFs, and also with an objective of achieving geographi­
                                                        cal diversification in each SPV. The financial institutions included most of
                                                        the largest global North American and European financial institutions.
                                                      • J.P. Morgan Securities was the structuring agent and referral agent for the
                                                        SPVs. It was chosen for this role by representatives of the MMMF industry.

                                 Since the inception of the MMIFF, the Federal Reserve made changes to
                                 its terms and conditions, including:

                                Eligible Investors
                                •	 On January 7, 2009, the Federal Reserve expanded the set of insti­
                                   tutions eligible to participate in the MMIFF to include U.S.-based
                                   securities-lending cash-collateral reinvestment funds, portfolios, and
                                   accounts (securities lenders) and U.S.-based investment funds that
                                   operate in a manner similar to MMMFs, such as certain local govern­
                                   ment investment pools, common trust funds, and collective invest­
                                   ment funds.
                                Eligible Assets
                                •	 On January 7, 2009, the Federal Reserve authorized the adjustment
                                   of several of the economic parameters of the MMIFF, including the
                                   minimum interest rate on assets eligible to be sold to the MMIFF, to
                                   enable the program to remain a viable source of backup liquidity for
                                   money market investors even at very low levels of money market
                                   interest rates.
                                Facility Expiration Date
                                •	 On February 3, 2009, the Federal Reserve extended the expiration of
                                   the facility from April 30, 2009, to October 30, 2009.
                                 Financial Reporting
                                The results of the MMIFF operations were reported on the Federal
                                Reserve’s H.4.1 weekly statistical release, entitled Factors Affecting
                                Reserve Balances of Depository Institutions and Condition Statement of
                                Federal Reserve Banks. The H.4.1 contained information on the value of
                                the collateral and the net holdings of the MMIFF SPVs, which would
                                have secured FRB-NY’s loans to the SPVs. In addition, the Board
                                publishes a monthly Credit and Liquidity Programs and the Balance Sheet
                                report. As the MMIFF was not utilized, it was not included in this report.
                                These reports are available on the Board’s public website.
                                                       Money Market Investor Funding Facility (MMIFF)   89



In the event that the MMIFF generated income, it would have been
reported as “Investments Held By Consolidated Variable Interest
Entities” in the Federal Reserve Banks Combined Statements of Income
and Comprehensive Income, as well as FRB-NY’s consolidated financial
statements.

How was risk managed?
With the MMIFF, the Federal Reserve sought to restore confidence and
liquidity in the money markets. However, the facility was not utilized
since inception in November 2008 and expired on October 30, 2009.
Evidence suggests a combination of factors, including the reduction of
money market pressures through CPFF and AMLF activities and general
improvement in market conditions, may have contributed to the lack
of investor use of the facility. Analysis of the facility and why the market
never engaged in any transactions may provide insight to the creation
and operation of any future lending facilities.

Did it have an impact?
Facility Utilization
The MMIFF expired on October 30, 2009. Since inception, the MMIFF
did not provide any loans for any purchases of money market
instruments.

Financial Review of the Facility
As it was never used, MMIFF had no earnings or losses.

Market Impact Analysis
Given the lack of facility utilization, it is difficult to assess the impact of
the MMIFF on the money markets. However, the mere existence of the
MMIFF may have offered investors additional assurance about holding
securities with longer-term maturities and had a positive effect on the
money markets.
90   Federal Reserve Board OIG Lending Facilities Review




                            THIS PAGE INTENTIONALLY LEFT BLANK.

Section 9	   Term Asset-Backed
             Securities Loan
             Facility (TALF)
                                                                                                                     93




                                                                                                                  TALF at a Glance
Term Asset-Backed Securities Loan Facility
At a Glance                                     Term Asset-Backed Securities Loan Facility
Announced on November 25, 2008, the             (TALF) Overview (as of June 30, 2010)
Term Asset-Backed Securities Loan Facility       Announcement Date November 25, 2008
(TALF) was intended to make credit more
available to consumers and businesses on         Operational Date      March 17, 2009
more favorable terms by facilitating the
                                                 Expiration Date       June 30, 2010, for newly-issued com­
issuance of asset-backed securities (ABS)                              mercial mortgage-backed securities
and improving the market conditions for                                (CMBS) collateralized loans; March 31,
ABS more generally. Prior to August 2007,                              2010, for all other TALF-eligible asset-
the securitization markets funded as much                              backed securities (ABS) collateralized
as 60 percent of all private credit in the                             loans
United States. By the fall of 2008, however,
                                                 Current Utilization   $42.5 billion
securitization markets had largely frozen.
                                                 Peak Utilization      $48.2 billion
In response, the Board authorized the                                  March 17, 2010
TALF to lend up to $200 billion to eligible
U.S. companies for the purchase of ABS,          Participants          U.S. eligible companies
with the potential to increase the capacity
                                                 Collateral            ABS
of the TALF to $1 trillion if economic
conditions warranted. By increasing              Managed by            Federal Reserve Bank of New York
demand for ABS, the Board sought to                                    (FRB-NY)
lower the financial sector’s cost of funding
and facilitate loans at more reasonable          Loan Term             Three years or five years
                                                                       (depending on collateral type)
interest rates to businesses and consumers.

Utilization Summary
Following inception, the range of eligible collateral was expanded and facility utilization
increased. Eligible TALF ABS collateral included newly-issued non-mortgage-related ABS
(such as ABS backed by auto loans, credit card loans, equipment loans, student loans, or
Small Business Administration (SBA) guaranteed small business loans) as well as newly-issued
and legacy commercial mortgage-backed securities (CMBS). The first TALF subscription
occurred in March 2009, and TALF ceased making loans collateralized by eligible ABS and
legacy CMBS on March 31, 2010, and loans collateralized by newly-issued CMBS on June 30,
2010. As of June 30, 2010, the authorized funding amount remained at $200 billion, and TALF
total outstanding loans were $42.5 billion, collateralized by $48 billion in ABS.

While it is difficult to assess the specific, direct impact of the TALF, market data suggested
that TALF helped to improve ABS market conditions. The introduction of the TALF was
followed by an increase in TALF-eligible ABS issuance and a dramatic decline in related ABS
rates, suggesting that the facility had a stabilizing effect on the ABS markets by providing
a source of liquidity for investors and issuers. According to FRB-NY, the TALF provided
funding that assisted 101 primary securitization transactions, totaling over $109 billion,
as of June 30, 2010.
Federal Reserve Board OIG Lending Facilities Review
                                                               Term Asset-Backed Securities Loan Facility (TALF)   95



Detailed Overview of the TALF 

What was it?
The TALF was intended to assist the credit markets in meeting the
credit needs of consumers and businesses by facilitating the issuance
of ABS backed by pools of assets—such as auto loans, credit card loans,
equipment loans, student loans, or small business loans—and improving
the market conditions for ABS more generally. By offering loans to ABS
investors to increase demand in ABS, the Federal Reserve sought to
lower the financial sector’s cost of funding and allow it to offer loans at
more reasonable interest rates to businesses and consumers.

Authorized under section 13(3) of the Federal Reserve Act, the TALF
was managed by the Federal Reserve Bank of New York (FRB-NY)
to originate non-recourse loans to eligible borrowers in exchange
for eligible collateral. Since TALF loans were non-recourse, FRB-NY
would only be able to enforce its rights on the collateral pledged,
in the case of default. (TALF loans could convert to recourse in the
event of a borrower’s fraud or misrepresentation.) FRB-NY created an
“asset disposition facility,” which is a special purpose vehicle (SPV) to
manage and liquidate collateral that may be relinquished by defaulting
borrowers. A borrower could elect to surrender collateral in lieu of
repayment, in which case, the SPV would purchase the collateral from
FRB-NY for an amount equal to the principal and interest due on the
loan.

The TALF’s authorized funding amount was $200 billion, though the
Board stated that up to $1 trillion could be committed to the TALF
program if market conditions warranted. The Department of the
Treasury’s (Treasury’s) Troubled Asset Relief Program (TARP) committed
to providing up to the first $20 billion of funds required by the TALF
asset disposition facility.19 Any expansion of the TALF above $200
billion also would have been supported by additional funds from the
TARP. However, the authorized limit for the program remained at $200
billion through June 30, 2010. As a joint program, the Federal Reserve
and Treasury coordinated on TALF policy deliberations and program
updates, such as new asset eligibility or other material changes to the
TALF.

How did we get there?
Figure 9-1 highlights the key events in the relevant financial markets
and operation of the TALF.


19 The Federal Reserve and Treasury announced on July 20, 2010, that Treasury would reduce
   from $20 billion to $4.3 billion the amount of credit protection provided to TALF under the
   TARP, based on the value of outstanding TALF loans upon the program’s expiration on
   June 30, 2010.
96   Federal Reserve Board OIG Lending Facilities Review



                                 With TALF, the Federal Reserve sought to increase demand in the
                                 financial markets for ABS and to restart the credit markets. By the
                                 fall of 2008, the financial markets had become disjointed and the
                                 securitization markets, which provide funding for consumer and
                                 business loans, were largely frozen.

                                 The ABS markets facilitate the availability of credit to individuals and
                                 businesses and new loan growth for financial institutions. Financial
                                 institutions package (securitize) loans they have previously made (such as
                                 auto loans, credit card loans, equipment loans, student loans, and small
                                 business loans) by pooling these loans and issuing claims on them in the
                                 form of financial securities. By pooling these loans and issuing financial
                                 securities that are backed by these loans, financial institutions free up
                                 monies previously lent and re-lend to new and existing customers.
                                 With securitization, the financing is backed primarily by borrowers’
                                 payments on the pool of loans rather than the creditworthiness of the
                                 institution issuing the security. The credit rating of the ABS is based
                                 on the credit quality of the loans that underlie the securities and the
                                 protections inherent in the securitization structure itself. As a result,
                                 ABS are protected from the bankruptcy of the insitution originating the
                                 underlying loans by various structural and legal arrangements, which is a
                                 benefit for investors.

                                 In general, ABS have credit ratings assigned by Nationally Recognized
                                 Statistical Rating Organizations (NRSROs), which are used widely as
                                 a guide to the credit quality of the securities. The ABS markets are
                                 considered fairly “thinly traded” (that is, most investors who purchase
                                 ABS do not actively trade the securities). Since ABS are not actively
                                 traded through an exchange, such as the New York Stock Exchange for
                                 equity securities, the market prices for ABS are not as readily available.

                                 From 2000 to 2006, the securitization markets grew significantly.
                                 During the credit boom in 2006, over $2.1 trillion of non-mortgage­
                                 related ABS, and $7.4 trillion of mortgage-backed securities (MBS),
                                 which includes CMBS as well as residential mortgage-backed securities,
                                 were outstanding. Prior to August 2007, the securitization markets
                                 funded as much as 60 percent of all private credit in the United States.

                                 In 2007, deteriorating conditions in the financial markets began to
                                 spread to the securitization markets. As delinquencies and defaults on
                                 the mortgage assets that secured MBS began to rise, investors started
                                 to sell their holdings; required higher returns on new investments; and,
                                 in many cases, stopped buying MBS altogether. Credit concerns in other
                                 aspects of the ABS markets followed and led to dysfunction across the
                                 ABS markets. The ABS markets thus proceeded to collapse in a series
                                 of stages—first subprime mortgages, then alt-A mortgages (mortgage
                                 loans typically to borrowers of good credit quality but containing
                                 some deficiency, such as incomplete documentation) and non-agency
                                                    Term Asset-Backed Securities Loan Facility (TALF)   97



residential mortgage-backed securities (mortgages that are not backed
implicitly or explicitly by the U.S. government), and finally CMBS and
non-mortgage-related ABS.

Regarding CMBS, the commercial mortgage market experienced similar
pressures as those in other ABS markets beginning in late 2007 through
early 2008. CMBS provided a significant amount of liquidity to the
commercial real estate markets in recent years. Commercial real estate
mortgages that back CMBS typically structure monthly payments as
interest-only or consistent with a 15- to 30-year amortization schedule,
but with a shorter term and a balloon payment at the end of the term.
Usually, the mortgage is simply refinanced prior to the due date for
the balloon payment. When the CMBS market was severely disrupted
in 2008, however, commercial mortgage borrowers found that lenders
were not willing to refinance commercial real estate loans. With so
many borrowers unable to make their final balloon payments without
refinancing, a potential crisis loomed in the commercial real estate
markets. The weakness in commercial real estate markets overall was
exacerbated by the stressed CMBS market, which previously financed
about 30 percent of originations and completed construction projects.

By the fall of 2008, the financial markets had become so disrupted that
the ABS markets were largely frozen. The change in investor demand
caused a significant disruption to the thinly traded ABS markets, such
that sellers of ABS could not find buyers. Due to the lack of transactions,
the markets could not set prices for ABS and issuers of securitizations
were effectively unable to obtain funding at reasonable rates. For ABS
investors, this freeze had many negative impacts. As the markets were
declining, many ABS investors could only sell their holdings for highly
discounted prices that would likely result in significant losses. At the
same time, the market value of ABS was decreasing, leading to financial
losses in the investors’ portfolios. With approximately 60 percent of the
funding market for lending essentially frozen, financial institutions had
less money available for small business and consumer loans.

By authorizing the TALF, the Board hoped to set a “floor” under the ABS
markets to stabilize prices, bring investors back into the markets, and
increase the demand for new and existing ABS.

How did it work?
The TALF was organized into two main components: (1) a lending
program that provided loans to eligible borrowers in exchange for
eligible collateral and (2) an asset disposition facility created specifically
for managing and liquidating collateral that may be relinquished by
borrowers. The disposition facility is an SPV that was organized as a
limited liability company (LLC). The SPV is managed by FRB-NY.
98     Federal Reserve Board OIG Lending Facilities Review



                                           Eligible ABS collateral included U.S. dollar-denominated ABS, for which
                                           underlying credit exposures included auto loans, student loans, credit
                                           card loans, equipment loans, floorplan loans, insurance premium
                                           finance loans, receivables related to residential mortgage servicing
                                           advances, commercial mortgage loans, and certain SBA guaranteed
                                           small business loans. Substantially all of the loans underlying eligible
                                           ABS had to be made to obligors domiciled in the United States or
                                           related to real property located in the United States or one of its
                                           territories. Substantially all of the credit exposures underlying any
                                           newly-issued ABS had to be originated by U.S.-organized entities or
                                           institutions, or U.S. branches or agencies of foreign banks.

                                           Each TALF loan had a maximum three-year maturity, except for TALF
                                           loans secured by ABS backed by SBA loans, student loans, or commercial
                                           mortgages. These loans could have maturities up to five years. If the ABS
                                           collateral matured earlier than the three-year or five-year maturity date
                                           of the TALF loan, then the TALF loan would mature upon maturity of the
Weighted Average Life—The average          ABS collateral. The weighted average life for eligible non-mortgage­
number of years for which each dollar of   related ABS could not be greater than 5 years, with limited exceptions,
unpaid principal on a loan or mortgage
                                           and the weighted average life for eligible CMBS could not be greater
remains outstanding.
                                           than 10 years. TALF loans were non-recourse, meaning that in the case of
                                           default, FRB-NY would be able to enforce its rights only on the collateral
                                           pledged, although TALF loans could convert to recourse in the event of a
                                           borrower’s fraud or misrepresentation.

                                           The TALF charged interest on the loans at interest rates that were more
                                           attractive than those that were available during the market instability,
                                           but less attractive than the rates typically available in normal market
                                           conditions. The TALF also charged borrowers an administrative fee for
                                           each loan and included a haircut on the collateral based on the collateral
                                           type and its weighted average life.

                                           Individual TALF loans did not have specific dollar amount limits (subject
                                           to the program limit), although the minimum loan was $10 million, nor
                                           were individual borrowers restricted in the number of loans they could
                                           request. However, FRB-NY reserved the right to reject any loan request
                                           at its discretion. Any eligible U.S. company could borrow from the TALF,
                                           provided the company maintained an account relationship with a TALF
                                           agent (discussed below) and pledged eligible collateral.

                                           A borrower requested a TALF loan through a TALF agent. TALF agents
                                           were securities dealers, selected by FRB-NY, who served as agents on
                                           behalf of TALF borrowers. The TALF agents’ roles and responsibilities,
                                           defined in the TALF Master Loan and Security Agreement, included
                                           representing borrower and collateral eligibility, submitting borrowers’
                                           loan requests, resolving discrepancies, and distributing payments. To
                                           evaluate borrower eligibility, TALF agents were required to apply their
                                           internal customer identification and due diligence procedures, referred
                                                               Term Asset-Backed Securities Loan Facility (TALF)   99



to as the “Know Your Customer (KYC) program,” which is used to screen
customers and manage reputational risk. Additionally, TALF agents
were expected to confirm the accuracy of the collateral certification
documentation and separately confirm that the current collateral ratings
met the eligibility criteria. FRB-NY published on its website due diligence
guidance for TALF agents to follow.

TALF loans are pre-payable in whole or in part at the option of the
borrower. Unless otherwise provided in the Master Loan and Security
Agreement, any remittance of principal on eligible collateral is used
immediately to reduce the principal amount of the TALF loan in
proportion to the loan’s original haircut (e.g., if the original haircut was
10 percent, 90 percent of any remittance of principal must immediately
be repaid to FRB-NY). In addition, for collateral priced at a premium, the
borrower periodically makes additional principal payments to prepay
the loan.

For five-year TALF loans and three-year TALF loans for legacy CMBS
collateral, some interest is diverted toward an accelerated repayment
of the TALF loan. Specifically, for five-year TALF loans, the excess of
interest and any other distributions (excluding principal distributions)
on the ABS over TALF loan interest due (i.e., net carry) is remitted to
the TALF borrower only until net carry equals 25 percent per annum
of the original haircut amount in the first three loan years, 10 percent
in the fourth loan year, and 5 percent in the fifth loan year, and the
remainder of such net carry is to be applied to the TALF loan principal.
For a three-year TALF loan for legacy CMBS, such net carry is remitted
to the borrower in each loan year until it equals 30 percent per annum
of the original haircut amount, with the remainder applied to the loan
principal.

In the event of a TALF borrower default, the asset disposition facility
SPV would purchase the collateral assets from FRB-NY at a price equal
to the TALF loan amount, plus any accrued but unpaid interest. The
SPV receives a portion of TALF loan interest earned by FRB-NY as a
fee. The SPV would use these funds to buy the collateral assets and,
if insufficient, would borrow money for additional purchases. The
Treasury, under the TARP, committed to provide a loan for the first $20
billion of any funding required by the TALF SPV.20 If more collateral
assets were to be purchased by the SPV than the amount of the TARP
loan, FRB-NY would lend funds to the SPV to finance such additional
purchases. Any FRB-NY loan to the SPV would be senior to a TARP loan
(that is, any payment or recovery on the defaulted collateral would
first go to repay the principal of the loan from FRB-NY) and would be
secured by all the assets of the SPV.

20 The Federal Reserve and Treasury announced on July 20, 2010, that Treasury would reduce
   from $20 billion to $4.3 billion the amount of credit protection provided to TALF under the
   TARP, based on the value of outstanding TALF loans upon the program’s expiration on
   June 30, 2010.
100 Federal Reserve Board OIG Lending Facilities Review



                                             Given its operational requirements, FRB-NY has contracted with various
  Figure 9-2. Mechanics of the TALF          vendors for the management and operation of the TALF, as discussed
                                             below:
                                             • Administrative and Custodial Services (bookkeeping, monthly
                                               reporting, and collateral pricing): Bank of New York Mellon.
                                             • Collateral Monitoring Services (performing credit risk assessment
                                               of collateral and issuers, providing valuation reporting on ABS
                                               collateral, assessing ABS markets, and reporting on analysis): Pacific
                                               Investment Management Company LLC (PIMCO) for the entire TALF
                                               securities portfolio; Trepp LLC for the TALF CMBS portfolio; and
                                               BlackRock Financial Management, Inc. (BlackRock) for legacy CMBS.
                                             • Advisory Services (assistance regarding the underwriting
                                               characteristics of newly-issued CMBS): CWCapital Investments LLC.
                                             • Accounting and Consulting Services (general accounting and
                                               consulting related to TALF): Ernst & Young LLP; KPMG LLP; McKinsey
                                               & Company; Promontory Financial Group, LLC; and Sidley Austin LLP.
                                             Beginning with the November 3, 2009, subscription, FRB-NY, with
                                             the assistance of its collateral monitoring vendors, performed risk
                                             assessments of non-mortgage-related ABS collateral (risk assessments
                                             of CMBS collateral were performed prior to this date). For all non­
                                             mortgage-related ABS collateral, FRB-NY assessed the ABS’ credit
                                             quality, transparency, and simplicity of structure. Data on the ABS had
                                             to be provided to FRB-NY three weeks in advance of the applicable
                                             TALF subscription date to allow for processing time. For newly-issued
                                             and legacy CMBS, FRB-NY assessed the underlying loan pools for asset,
                                             geographic, or borrower concentration; payment status; and property
                                             type, using services provided by collateral monitoring vendors. For
                                             legacy CMBS, additional analysis of expected performance under
                                             more distressed economic conditions was performed to assess the
                                             collateral’s likelihood of default in strained economic conditions. The
                                             risk assessments allowed FRB-NY to identify and reject ineligible or
                                             potentially weaker ABS that otherwise satisfied TALF eligibility criteria.

                                             Figure 9-2 illustrates the TALF operating model, beginning with the
                                             borrower’s submission of ABS collateral to the TALF agent.

                                             The following describes the various components of the TALF operating
                                             model.

                                             TALF Process Flow
                                             Under the TALF, FRB-NY provided non-recourse loans to eligible
                                             borrowers who pledged eligible collateral. On fixed days each month
                                             (subscription dates), borrowers requested loans through their TALF
Custodial Agent—An organization, typically
a commercial bank, that holds in custody
                                             agents, who submitted information regarding any loan requests to
and safekeeping someone else’s assets.       FRB-NY and the custodial agent. FRB-NY reviewed the loan requests
These assets may be cash, securities, or     against the eligibility criteria and decided whether to approve or
virtually anything of value.
                                                                         Term Asset-Backed Securities Loan Facility (TALF) 101



reject the loans. Proceeds from approved loans were disbursed on the
settlement date to the TALF agent upon receipt of the eligible collateral
and an administrative fee. The TALF agent then forwarded the funds to
the borrower. Subscription and settlement dates were typically about
a week apart, providing FRB-NY and TALF vendors time to conduct
an eligibility review of the borrower and the collateral, and reconcile
the loan and collateral amounts. FRB-NY published a Master Loan and
Security Agreement that provided further details on the terms that
applied to borrowings under the TALF.

Terms and Conditions of the TALF
The following provides an overview of the terms and conditions for the
TALF at the time of our review. (A comprehensive list of TALF terms and
conditions was available on the FRB-NY website.)

Element           Description
 Standard         • TALF loans generally had a three-year maturity; ABS backed by SBA loans, as well as
 Terms              ABS backed by student loans or commercial mortgage loans, could have a five-year
                    maturity.
                  • 	 TALF loans were for the value of the collateral reduced by the applicable haircut.
                  • 	 Lending was on a non-recourse basis except for breaches of representations,
                      warranties, and covenants, as further specified in the Master Loan and Security
                      Agreement.
                  • 	 TALF loans to borrowers did not have specific dollar amount limits (subject to the
                      program limit), although the minimum loan was $10 million.
                  • 	 Eligible investors could borrow against any eligible ABS, including ABS that they
                      already owned. Legacy CMBS must have been recently purchased (within the time
                      between sequential subscription dates) by the borrower.
                  • 	 Any payment of principal on the pledged ABS received by the TALF borrower had to
                      be used to pay down the TALF loan in proportion to the loan’s original haircut.
                  • 	 TALF borrowers had to agree to refrain from exercising any voting, consent, or
                      waiver rights under the collateral ABS, without the consent of FRB-NY.
                  • 	 Borrowers could assign all obligations with respect to a TALF loan to another
                      eligible borrower prior to expiration of the program, with the consent of FRB-NY.
 Interest Rates   • 	 Payments were based on either a fixed or adjustable rate for TALF loans,
                      depending on the asset class (such as auto, credit card, or student loan ABS).
                  • 	 The type of collateral securing the loan determined the interest rate as well as the
                      applicable loan term(s).
                  • 	 Interest rates were set one day prior to the subscription date and were published
                      on FRB-NY’s public website. Interest was accrued on a monthly basis.
                  • 	 Haircuts varied by asset class depending on the level of risk assessed by FRB-NY.
                      Haircuts were published on FRB-NY’s public website and were periodically
                      reviewed and, if appropriate, would have been adjusted for new loans.
102 Federal Reserve Board OIG Lending Facilities Review



                                 Element        Description
                                 Fees           • 	 Administrative Fee: On each loan’s settlement date, an administrative fee of
                                                    10 basis points for non-mortgage-related ABS collateral and 20 basis points for
                                                    CMBS collateral, was charged to the borrower.
                                 Collateral     • 	 Eligible collateral included U.S. dollar-denominated ABS for which underlying
                                 Requirements       credit exposures were auto loans, student loans, credit card loans, equipment
                                                    loans, floorplan loans, insurance premium finance loans, SBA guaranteed small
                                                    business loans, receivables related to residential mortgage servicing advances, or
                                                    commercial mortgage loans. These ABS must have been issued on or after January
                                                    1, 2009. Exceptions existed for SBA Pool Certificates or Development Company
                                                    Participation Certificates, which must have been issued on or after January 1, 2008,
                                                    and commercial mortgage pass-through securities, which must have been issued
                                                    before January 1, 2009 (legacy CMBS).
                                                • 	 Substantially all of the credit exposures underlying eligible ABS must have been
                                                    exposures that were made to U.S.-domiciled obligors or were for real property
                                                    located in the United States or one of its territories. Substantially all of the credit
                                                    exposures underlying any newly-issued ABS must have been originated by U.S.­
                                                    organized entities or institutions or U.S. branches or agencies of foreign banks.
                                                • 	 All ABS must have been rated AAA by at least two of the eligible NRSROs and not
                                                    have had a credit rating below AAA from any eligible NRSRO. The ABS could not
                                                    have gained its AAA rating as a result of third-party guarantees.
                                                • 	 ABS could not be on “review” or “watch” for downgrade by an eligible NRSRO.
                                                • 	 Eighty-five percent or more of the underlying credit exposures of the ABS issued
                                                    by a non-revolving trust must have been originated on or after October 1, 2007.
                                                • 	 Eligible auto ABS issued by a revolving trust must have been issued to refinance
                                                    existing auto ABS maturing in 2009 or the first quarter of 2010, and not a maturity
                                                    date beyond five years.
                                                • 	 Eligible ABS must have been cleared through the Depository Trust Company.
                                                • 	 Collateral must not have been backed by loans originated or securitized by the
                                                    borrower or by an affiliate of the borrower (a borrower was not eligible for a TALF
                                                    loan to buy its own securitization issuance).
                                                • 	 Zero-coupon ABS was not eligible, such as ABS that did not pay periodic interest
                                                    but instead was purchased by the investor at a discounted rate such that the
                                                    principal amount received at maturity included effective interest.
                                                • 	 The CMBS structure must have paid interest and principal, must have interest
                                                    at a pass-through rate that was fixed or based on the weighted average of the
                                                    underlying fixed mortgage rates, and must not have been junior to other securities
                                                    with claims on the same pool of assets. Also, the borrower could not pledge as
                                                    CMBS collateral any CMBS issued by the U.S. government.
                                                • 	 Loans for CMBS must have been secured by first-lien mortgages that were
                                                    current at the time of securitization and paid fixed rate interest.
                                                • 	 Ninety-five percent of underlying credit exposures from newly-issued CMBS must
                                                    have been originated by a U.S. entity on or after July 1, 2008.
                                                                     Term Asset-Backed Securities Loan Facility (TALF) 103



Element         Description
 Collateral     • Eligible ABS collateral was required to comply with requirements regarding
 Requirements     transparency of financial reporting; issuer certifications, such as ABS compliance
 (continued)      with TALF requirements; and accounting firm requirements.
                • 	 ABS issuers had to obtain from an accounting firm (1) an attestation indicating
                    that the ABS was TALF-eligible (for non-mortgage-related ABS) or (2) a report on
                    agreed upon procedures for newly-issued CMBS that addressed factual matters
                    related to eligibility criteria (such as weighted average lives, principal payment
                    windows, and certain loan-by-loan and property-by-property information
                    commonly set forth in an annex to the principal offering document).
                • 	 For legacy CMBS, the TALF loan amount must have been the lesser of the dollar
                    purchase price on the trade date, the market price as of the subscription date, or
                    a value based on the FRB-NY risk assessment, less the stated haircut.
 Eligible       • An application process determined the eligibility of the TALF borrower and the
 Participants     TALF collateral.
 & Involved     • 	 Any eligible U.S. company that owned eligible collateral could borrow from the
 Entities           TALF, as long as that company maintained an account relationship with a TALF
                    agent.
                • 	 A U.S. company was eligible if it was (a) a business that was organized under U.S.
                    law and conducted significant activities in the United States, (b) a U.S. branch of
                    a foreign bank that maintained reserves with a Federal Reserve Bank, (c) a U.S.
                    insured depository institution, or (d) an investment fund that was U.S. organized.
                • 	 An eligible U.S. company could not be controlled by a foreign government or
                    managed by a foreign-controlled investment manager.


Since the inception of the facility, the Federal Reserve made some
changes to the terms and conditions of the TALF, as described below:

Collateral Eligibility
Collateral eligibility has undergone significant change since the
inception of TALF, with nine key modifications. See Appendix 5 for the
list of changes to collateral eligibility.

Eligible Borrowers
• On February 6, 2009, the definition of eligible entities able to access
  the TALF was revised to specify the requirements for eligible U.S.
  companies and investment funds.
• On September 1, 2009, the list of eligible TALF agents was expanded
  to include four non-primary dealers to broaden the range of eligible
  investors to the TALF.
Transaction Structure and Pricing
Transaction structure and pricing has undergone 10 key modifications.
See Appendix 5 for the list of transaction changes.
104 Federal Reserve Board OIG Lending Facilities Review



                                Facility Expiration Date
                                • On August 17, 2009, the facility expiration date was extended from
                                  December 31, 2009, to March 31, 2010, for all TALF-eligible collateral,
                                  with one exception: the expiration date for newly-issued CMBS
                                  collateral was extended to June 30, 2010.
                                Financial Reporting
                                The results of the TALF operations have been reported on the Federal
                                Reserve’s H.4.1 weekly statistical release, entitled Factors Affecting
                                Reserve Balances of Depository Institutions and Condition Statement of
                                Federal Reserve Banks. In addition, the Board publishes a monthly Credit
                                and Liquidity Programs and the Balance Sheet report, which includes
                                additional, detailed information on the TALF. These reports are available
                                on the Board’s public website. The income earned by the TALF has
                                been reported as a component of “Interest Income” and “Non-interest
                                income” in the Federal Reserve Banks Combined Statements of Income
                                and Comprehensive Income, as well as FRB-NY’s consolidated financial
                                statements. FRB-NY also published on its website the aggregate amount
                                of loans, by sector, requested at each subscription and settled at each
                                closing.

                                Beginning November 19, 2009, information on the TALF LLC, which is
                                the asset disposition SPV, has been consolidated on FRB-NY’s balance
                                sheet and presented separately in Table 8 of the Federal Reserve’s H.4.1
                                weekly statistical release, entitled Factors Affecting Reserve Balances of
                                Depository Institutions and Condition Statement of Federal Reserve Banks.
                                In addition, the Board’s Credit and Liquidity Programs and the Balance
                                Sheet report includes detailed information on the TALF LLC. The TALF
                                LLC also has separate financial statements, which have been audited by
                                Deloitte & Touche LLP, an independent public accounting firm.

                                How was risk managed?
                                To respond rapidly to the significant stresses in the ABS markets and
                                thereby restore the availability of loans at reasonable interest rates to
                                businesses and consumers, the Board authorized the availability of TALF
                                loans to a broad range of potential borrowers, for which the Federal
                                Reserve had little credit information, for longer loan periods, and based
                                on a variety of ABS collateral. As a result, TALF exposed the Federal
                                Reserve to additional credit risk compared to the other five section 13(3)
                                lending facilities. Also, due to the nature and diversity of the ABS markets
                                and the longer term nature of TALF loans, the eligibility and operational
                                requirements of the TALF were more extensive and complex than the
                                other section 13(3) lending facilities. This complexity led to numerous
                                revisions of the facility’s terms and conditions, which created challenges
                                in managing and operating the facility. In addition, to operate the TALF,
                                FRB-NY drew heavily on vendors and third-party agents with specialized
                                expertise to perform mission-critical operations. Outsourcing carries
                                risks regarding vendors and agents not (1) complying with provisions
                                                  Term Asset-Backed Securities Loan Facility (TALF) 105



of contracts and agreements, (2) providing the quantity and quality of
services required, and (3) protecting against conflicts of interest.

Credit Risk
To stabilize the severely-stressed ABS markets, the Federal Reserve
implemented broad TALF eligibility criteria, which exposed the
Federal Reserve to credit risk because of the large number of potential
borrowers, on which it had little credit information; the various types
of collateral accepted under TALF; and the longer terms of the TALF
loans, ranging from three to five years. Due to TALF’s intent to provide
broad participation by potential borrowers in order to stabilize the ABS
markets, TALF loans were provided without recourse to the borrower’s
assets, beyond the pledged ABS collateral, although they could convert
to a recourse loan in the event of fraud or misrepresentation. TALF
terms and conditions also did not limit the amount of ABS that could
be pledged in aggregate from an issuer or by asset type. For example,
the Federal Reserve did not establish formal standards as to the
amount of subprime auto ABS that the TALF could accept as collateral,
or place a limit on the amount of ABS the TALF could accept from
a specific issuer. The lack of such limits could have led to increased
concentration risk, such that the portfolio could have become heavily
weighted with a certain type of collateral or a limited number of
issuers. Also, eligible borrowers were not restricted to a maximum
amount of TALF loans they could undertake; thus, the TALF could have
become heavily utilized by a class of borrowers that increased default
risk.

To mitigate credit risk, the Federal Reserve implemented a number of
credit risk management controls, with a particular focus on ensuring
adequate collateral. TALF required ABS collateral to be rated AAA by
at least two of the eligible NRSROs, and not be on “review” or “watch”
for a possible downgrade by an eligible NRSRO. TALF also included a
haircut on the collateral—that is, the value of the collateral exceeded
the value of the loan—to reflect the credit risk of the collateral asset(s)
and the market in which they are traded. In general, market practice is
to assess higher haircuts on collateral assets with lower credit ratings,
longer maturities, and less liquidity compared to assets with higher
credit ratings, shorter maturities, and more liquidity. FRB-NY also added
a feature (net carry) to certain TALF loans that funnels excess interest
payments to pay down principal on the TALF borrower’s loan, which
helps mitigate FRB-NY’s credit risk. Prior to approving a TALF loan,
FRB-NY required a third-party, referred to as a TALF agent, to verify
the borrower’s and collateral’s eligibility. Further, FRB-NY performed a
risk assessment of any ABS proposed as collateral for a TALF loan and
retained the right to reject any ABS as TALF loan collateral based on this
risk assessment. FRB-NY performed additional analysis on the expected
performance of legacy CMBS collateral prior to approving eligibility,
106 Federal Reserve Board OIG Lending Facilities Review



                                assessing such factors as the concentration of loans by borrower,
                                geographic area, and property type; the status of the underlying loans
                                within the CMBS and the possibility of their default; and the expected
                                cash flows of the CMBS collateral under more distressed economic
                                conditions. FRB-NY contracted with PIMCO, which has expertise in
                                the non-mortgage-related ABS and CMBS markets, and Trepp LLC
                                and BlackRock, which have expertise in the CMBS market, to provide
                                estimated valuation, risk assessment, and monitoring of proposed and
                                actual TALF collateral.

                                Challenges in TALF Management and Operation
                                The collateral eligibility and operational requirements of the TALF
                                were more extensive and complex than the other section 13(3)
                                lending facilities due to the nature and diversity of the ABS markets,
                                the complex structure of ABS, the number of ABS asset classes that
                                qualified for TALF loans, and the longer term nature of TALF loans. The
                                TALF loan process involved numerous, detailed procedural steps that
                                evolved over time, leading to over a dozen revisions of the facility’s
                                terms and conditions. New types of eligible collateral were added,
                                key legal agreements and forms were modified and reissued, and
                                additional risk mitigation measures were implemented that required
                                significant change management efforts by the Federal Reserve. Rapid
                                change management and the associated inherent risk of operational
                                error or financial loss require extensive and consistent management
                                and oversight to ensure that policies, procedures, and controls
                                continue to be thoroughly documented, analyzed, implemented, and
                                tested. To mitigate risk in managing and operating the TALF, FRB-NY
                                established a dedicated team and resources, proactively implemented
                                controls, and developed operational processes and procedures.

                                Vendor Risks
                                Vendors and agents with specialized expertise performed collateral
                                valuation and monitoring, registration processing, collateral risk
                                analysis, eligibility verification, and custodial services, and so were
                                a critical part of the TALF operating structure. Utilizing vendors and
                                agents introduces risks that they will not (1) comply with all provisions
                                in contracts and agreements, (2) provide the quality and quantity of
                                services required, and (3) protect against conflicts of interest.

                                FRB-NY performed reviews of TALF vendors and agents. FRB-NY also
                                developed an overall vendor management program for ongoing
                                monitoring and testing of vendors’ and agents’ compliance with
                                contracts and agreements. In addition, FRB-NY put in place conflict
                                of interest provisions for each of its vendor contracts and agent
                                agreements. Conflict of interest provisions are used to protect
                                professional or public interests from actions that instead benefit a
                                vendor or agent, its employees, or its clients. PIMCO, BlackRock, Bank
                                of New York Mellon, and the TALF agents are operating business
                                                   Term Asset-Backed Securities Loan Facility (TALF) 107



entities in the investment markets and have clients that were eligible to
participate in TALF. At the time of our review, FRB-NY was in the process
of monitoring vendors’ and agents’ conflict of interest provisions, and
a third-party vendor, under contract with FRB-NY’s Legal group, was
performing a conflict of interest review and testing compliance with
contract provisions.

Did it have an impact?
Facility Utilization
Facility utilization increased, and the range of eligible collateral was
expanded to include ABS backed by loans or leases related to business
equipment, leases of vehicle fleets, floorplan loans, mortgage servicing
advances, insurance premium finance loans, and newly-issued and
legacy CMBS. The facility expiration date was March 31, 2010, for all TALF-
eligible collateral except newly-issued CMBS, which expired June 30,
2010. As of June 30, 2010, TALF total outstanding loans were $42.5 billion,
collateralized by $48 billion in high quality ABS to 134 borrowers. Under
the TALF terms and conditions, TALF loans are scheduled to mature no
later than March 2015. Figure 9-3 illustrates the utilization of TALF since
inception.




Financial Review of the Facility
According to FRB-NY, operation of the TALF from March 17, 2009,
through June 30, 2010, generated $926 million in interest and fees.
As of June 30, 2010, the Board reported that there had not been any
defaults on the loans or underlying collateral and that it expects no
losses as a result of operating the facility.
108 Federal Reserve Board OIG Lending Facilities Review



                                Market Impact Analysis
                                While it is difficult to determine the specific impact of the TALF, market
                                data suggested that TALF helped to improve ABS market conditions.
                                According to FRB-NY, and as illustrated in Figure 9-4, TALF-eligible new
                                ABS issuance increased after the start of TALF in March 2009.




                                After coming to a relative halt in October 2008 (compared to an
                                average of $18 billion per month during the first half of 2008), issuance
                                of ABS started to grow as investors took advantage of TALF loans, and
                                the securitization markets showed signs of stabilizing. The increase in
                                ABS transactions that came to market in 2009 indicated improvement
                                in securitization markets when compared with the stressed conditions
                                toward the end of 2008. Through June 30, 2010, the TALF provided
                                funding that assisted 101 primary securitization transactions, totaling
                                over $109 billion. The TALF supported the new issuance of ABS across
                                the range of eligible asset classes, from credit cards and auto loans to
                                equipment and student loans. In general, new ABS issuance should
                                improve credit availability to consumers and businesses.

                                In addition, according to FRB-NY, substantial declines occurred in credit
                                spreads for student loan securitization, equipment securitization, credit
                                card securitization, and auto securitization since the TALF was initiated,
                                as illustrated in Figure 9-5 (on the next page). This suggests that TALF
                                may have had a stabilizing effect on the ABS markets by providing a
                                source of liquidity for investors and issuers.
Term Asset-Backed Securities Loan Facility (TALF) 109
110 Federal Reserve Board OIG Lending Facilities Review




                           THIS PAGE INTENTIONALLY LEFT BLANK.

Section 10   Appendixes

FederalFederal
        ReserveReserve
                OIG Lending
                       Board Facilities
                             OIG LendingReview
                                           Facilities Review
                                                                              Appendix 1—Response to Report 113



Appendix 1—Response to OIG Liquidity Facility
Draft Report



                                             September 16, 2010


    Ms. Elizabeth A. Coleman
    Inspector General
    Office of Inspector General
    Board of Governors of the Federal Reserve System
    Washington, DC 20551

    Dear Beth:

                      Thank you for the opportunity to review the OIG’s draft Review of the Federal
    Reserve System’s Section 13(3) Lending Facilities to Support Overall Market Liquidity. We believe
    that the report provides a clear summary of the purpose, implementation, operation, and expiration of
    each of the six lending facilities the OIG reviewed and of the key risks associated with each facility.

                      The Federal Reserve implemented the six lending facilities covered by this report to
    address the extraordinary financial strains and economic threats that emerged in 2007 and continued
    to develop throughout 2008 and early 2009. The Federal Reserve’s decision to invoke 13(3) lending
    authority in authorizing these facilities was made with care. All of the liquidity programs were
    designed to provide support to key financial markets that had nearly shut down. In implementing
    these programs, the Federal Reserve took appropriate steps to protect against potential losses through
    the use of collateral and other risk management measures. The Federal Reserve also established
    appropriate independent oversight and review of these programs, including the use of internal
    auditors, Board staff, and external audits of the associated financial reporting. The programs were
    designed to unwind as financial conditions improved, and all of the facilities have now expired.

                      We believe that each of these programs helped stabilize financial markets and foster
    economic recovery. Because the Federal Reserve established appropriate risk controls for the lending
    facilities, it—and U.S. taxpayers—have not suffered any losses on these programs.

                      The Federal Reserve believes strongly in the principle of transparency and
    accountability for all public institutions, including the central bank. To enhance transparency
    regarding the actions it took to address the financial crisis, the Federal Reserve provides on its
    websites a wide array of information about the policy tools that were implemented during the crisis.
    In addition, the Federal Reserve initiated a monthly report to Congress that provides a great deal of
    detail on its credit and liquidity programs, including summary quarterly financial statements.

                      The Federal Reserve welcomes the upcoming GAO audit of these programs required
    by the recent Dodd-Frank Wall Street Reform and Consumer Protection Act and will be disclosing
    additional detailed information on borrowing under these and related programs by December 1 of this
    year as required by the Act.
114 Federal Reserve Board OIG Lending Facilities Review




                                                                -2-

                          We appreciate the opportunity to comment on this report. We have provided technical
                   comments on the draft report under separate cover.

                                                              Sincere
                                                                ncerellyy,




                                                           Scott G. Alvarez
                                                           General
                                                           Gener al Counsel
                                                            Lega
                                                              gall Division




                                                          William B. English

                                                               Director

                                                     Division of Monetary Affairs





                                                         Louise
                                                            u se L
                                                            ui   L.. Roseman
                                                               Director

                                      Division of Reserve Bank Operations and Payment Systems

                                                                               Appendix 2—Glossary 115



Appendix 2—Glossary

A-1/P-1/F1—The highest short-term ratings by the NRSROs (Standard
& Poor’s, Moody’s, and Fitch Ratings). The ratings indicate a strong
capacity by the issuer to meet its financial commitments.

Agent—An individual or firm authorized to act on behalf of another.

Amortized Cost—The carrying value of an investment in an entity’s
accounting records.

Asset-Backed Commercial Paper (ABCP)—Short-term debt
instruments (maturities ranging from overnight to 270 days) issued by
corporations and financial institutions to meet short-term financing
needs. The instruments are backed by assets, such as credit card
receivables.

Asset-Backed Securities (ABS)—Tradable securities backed by pools
of assets, such as loans, leases, or other cash-flow producing assets.
The holders of ABS are entitled to payments that are distributed by the
underlying assets.

Bank Holding Company (BHC)—A company controlling one or more
banks. Bank holding companies are supervised by the Federal Reserve.

Basis Points (bps)—The smallest measure often used to specify
transaction pricing and to quote rates on fixed income products. One
basis point is equal to 1/100th of 1 percentage point (0.01 percent).
Therefore, 100 basis points would be equivalent to 1 percent.

Bid Rate—Represents the interest rate a bidder was willing to pay to
borrow a “basket” (a group) of U.S. Treasury securities against pledged
collateral.

Broker-Dealer—Any individual or firm in the business of buying and
selling securities for itself and others. When acting as a broker, a broker-
dealer executes orders on behalf of a client. When acting as a dealer,
a broker-dealer executes trades for the firm’s own account. Broker-
dealers must register with the Securities and Exchange Commission.

Certificate of Deposit (CD)—A savings certificate entitling the bearer
to receive interest. A CD bears a maturity date, has a specified fixed
interest rate, and can be issued in any denomination. CDs are generally
issued by commercial banks and are insured by the Federal Deposit
Insurance Corporation up to $250,000. The term of a CD generally
ranges from one month to five years.

Clearing Bank—A financial services company that provides settlement
services for financial transactions between two counterparties.
116 Federal Reserve Board OIG Lending Facilities Review



                                Collateral—Assets that are pledged by a borrower to a lender against
                                debts owed.

                                Collateralized Debt Obligation (CDO)—A financial instrument that
                                entitles the purchaser to cash flows from a portfolio of assets, which
                                may include bonds, loans, mortgage-backed securities, or other CDOs.
                                CDOs are a type of ABS.

                                Collateralized Mortgage Obligations (CMOs)—A type of mortgage-
                                backed security that consists of bonds that represent claims to specific
                                cash flows from large pools of home mortgages. The streams of
                                principal and interest payments on the mortgages are distributed to
                                the different classes of CMO interests, known as tranches, according to
                                the deal structure. Each tranche may have different principal balances,
                                coupon rates, prepayment risks, and maturity dates.

                                Collateral Monitor—A TALF vendor that performs credit risk
                                assessment of collateral and issuers, provides valuation reporting on
                                ABS collateral, assesses ABS markets, and reports on analysis.

                                Commercial Mortgage-Backed Securities (CMBS)—A financial
                                instrument that is backed by a commercial real estate mortgage
                                or a group of commercial real estate mortgages that are packaged
                                together.

                                Commercial Paper—Short-term debt instruments (maturities ranging
                                from overnight to 270 days) issued by corporations and financial
                                institutions to meet short-term financing needs.

                                Convertible Stock—Corporate securities (usually preferred shares
                                or bonds) that are exchangeable for a set number of another form of
                                securities (usually common shares) at a prestated price.

                                Counterparty—In any financial contract, the persons or institutions
                                entering the contract on the opposite sides of the transaction.

                                Credit and Liquidity Programs and the Balance Sheet Report—A
                                monthly report published by the Board to increase transparency
                                around the lending facilities and special programs it created to
                                address the financial crisis. The report includes an update on recent
                                developments, trends, utilization, and economic performance of the
                                lending facilities.

                                Credit Rating—An external assessment of the creditworthiness of
                                corporations and securities. A credit rating is a financial risk indicator
                                used by potential investors. The ratings are assigned by credit rating
                                agencies, such as Standard & Poor’s, Moody’s, or Fitch Ratings.

                                Credit Spreads—The difference between the rate on debt securities
                                of a particular borrower (or a class of borrowers with a specified credit
                                                                          Appendix 2—Glossary 117



rating) and the rate on similar maturity Treasury debt securities. The
larger the credit spread, the more credit risk the market perceives the
security to have.

Custodial Agent—An organization, typically a commercial bank, that
holds in custody and safekeeping someone else’s assets. These assets
may be cash, securities, or virtually anything of value.

Depository Trust Company (DTC)—An organization that provides
clearing and settlement services for securities, institutional trades
(which typically involve money and securities transfers between
custodian banks and broker-dealers), and money market instruments.

Discount Window—A Federal Reserve lending program that allows
eligible institutions to borrow money, usually on a short-term basis,
from the Federal Reserve at an above market rate to meet temporary
liquidity shortages.

Federal Agency Debt Security—A debt instrument issued by
a government sponsored enterprise or agency of the federal
government, such as Fannie Mae and the Tennessee Valley Authority,
respectively.

Federal Agency Mortgage-Backed Securities—Also known as a
government sponsored enterprise MBS. Mortgage-backed securities
that are backed or issued by entities such as Ginnie Mae, Freddie Mac,
and Fannie Mae.

Federal Deposit Insurance Corporation (FDIC)—An independent
agency created by Congress to maintain stability and public
confidence in the nation’s financial system by insuring deposits,
examining and supervising financial institutions for safety and
soundness and consumer protection, and managing receiverships.
The FDIC directly examines and supervises about 4,900 banks for
operational safety and soundness, more than half of the institutions
in the banking system. Banks can be chartered by the states or by
the federal government. Banks chartered by states have the choice of
whether to join the Federal Reserve System. The FDIC is the primary
federal regulator of banks that are chartered by the states that do not
join the Federal Reserve System.

Federal Funds Rate—The interest rate at which depository institutions
lend their excess Federal Reserve deposits to each other.

Federal Open Market Committee (FOMC)—The group that oversees
open market operations, the principal tool of national monetary policy;
it meets in Washington, D.C., usually eight times a year. The voting
members of the FOMC are the members of the Federal Reserve’s
Board of Governors and the presidents of five Federal Reserve Banks,
including the Federal Reserve Bank of New York.
118 Federal Reserve Board OIG Lending Facilities Review



                                Floorplan Loans—Lending that is a form of retail goods inventory
                                financing in which each loan advance is made against a specific
                                piece of collateral. As collateral is sold by the dealer, the loan advance
                                against that piece of collateral is repaid. Inventory commonly subject to
                                floorplan loans includes automobiles, large home appliances, furniture,
                                television and stereo equipment, boats, mobile homes, and other
                                types of merchandise usually financed by the purchaser.

                                Haircut—The amount by which a maximum authorized loan amount
                                is below the value of the assets used as collateral for the loan. When a
                                borrower pledges assets as collateral, the lender making the loan treats
                                the assets as being worth less than they actually are, so as to provide
                                the lender a cushion in case the assets’ market price decreases.

                                Illiquid Market—A market in which assets cannot be quickly
                                converted to cash.

                                Insurance Premium Finance Loans—Loans issued to small
                                businesses, so they may obtain property or casualty insurance.

                                Leveraged Lending—A loan made by a financial institution to
                                a borrower for the acquisition of an asset. Often, the asset being
                                acquired is used as collateral for the loan.

                                Liquidity—The term liquidity can be used in various ways. An
                                institution is said to have liquidity if it can easily meet its needs for cash
                                either because it has cash on hand or can otherwise raise or borrow
                                cash. A market is said to be liquid if the instruments it trades can easily
                                be bought or sold in quantity with little impact on market prices. An
                                asset is said to be liquid if it is easily convertible to cash.

                                Liquidity Backstop— An alternative source of financing in the event
                                market participants are unable to access financial markets.

                                London Interbank Offered Rate (LIBOR)—The interest rate at which
                                banks borrow unsecured funds in the London wholesale money
                                market.

                                London Interbank Offered Rate-Overnight Indexed Swap (LIBOR­
                                OIS) Spread—A financial market metric that compares the three-
                                month LIBOR with an interest rate swap tied to the federal funds rate.
                                The OIS rate is considered the more stable and less risky component of
                                the two. Thus, when the spread increases, LIBOR is rising, which means
                                banks are charging other banks higher interest rates for interbank
                                loans.

                                Market Value—The price at which buyers and sellers can agree to sell
                                a security in an arm’s length transaction.
                                                                             Appendix 2—Glossary 119



Money Market Instruments—Short-term debt securities, such as
commercial paper, negotiable certificates of deposit, and Treasury bills
with a maturity of 1 year or less and often 90 days or less.

Money Markets—Financial markets for short-term debt instruments,
such as commercial paper, repurchase agreements, and Treasury bills.
Money market instruments are generally very safe investments that
return a relatively low interest rate in exchange for temporary cash
storage over a short-term timeframe.

Money Market Mutual Fund (MMMF)—A fund that invests solely in
money market instruments, such as government securities, certificates
of deposit, commercial paper, and other short-term and low-risk
securities. Unlike a money market deposit account at a bank, money
market mutual funds are not federally insured. The Securities and
Exchange Commission regulates money market mutual funds under
the Investment Company Act of 1940.

Mortgage-Backed Securities (MBS)—Tradable securities that
represent claims on the cash flows from mortgage loans. An MBS
investor owns an interest in a pool of mortgages, which serves as the
underlying assets and source of cash flow for the security. MBS are a
type of ABS.

Multi-Price Auction Format—An auction process in which borrowers
make competitive bids by specifying the lending fee rate that they are
willing to pay. Successful bidders pay the price equivalent to the rate
they bid.

Nationally Recognized Statistical Rating Organizations
(NRSROs)—Credit rating agencies that provide their opinions on a
business entity’s or security’s creditworthiness. They are registered with
the Securities and Exchange Commission. These ratings demarcate
investment-grade (quality) and non-investment grade (lower quality)
securities and provide additional risk-based information for investors to
make investment decisions.

Net Assets—The value of a portfolio of assets minus any debt
associated with those assets.

Non-Recourse Loan—A secured loan that allows the lender to attach
only the collateral pledged, not the borrower’s other assets, if the loan
is not repaid.

Open Market Operations (OMO)—The primary tool used to
implement monetary policy. This tool consists of Federal Reserve sales,
purchases, or repurchase agreements regarding financial instruments,
usually securities issued by the U.S. Treasury, federal agencies, and
120 Federal Reserve Board OIG Lending Facilities Review



                                government-sponsored enterprises. Open market operations are
                                carried out by FRB-NY’s Trading Desk under direction from the FOMC.
                                The transactions are undertaken with primary dealers.

                                Options—The right, but not the obligation, to buy (for a call option) or
                                sell (for a put option) a specific amount of a given stock, commodity,
                                currency, index, or debt, at a specified price (the strike price) during a
                                specified period of time.

                                Overnight Indexed Swap (OIS) Rate—The OIS rate is a type of
                                interest rate swap that is based on daily federal funds rates. OIS rates
                                indicate investor expectations of future interest rates set by central
                                banks, such as the federal funds rate.

                                Overnight Loan—Money that is loaned in the interbank market by
                                banks with idle funds to those needing temporary funds. Funds are
                                due back at the lending bank at the start of business the following day.
                                The federal funds market, where financial institutions loan one another
                                excess reserves from reserve accounts kept at Federal Reserve Banks, is
                                the largest source of overnight funds.

                                Portfolio—The combined holdings of stock, bond, commodity, real
                                estate investment, mutual fund, cash equivalent, and other assets by
                                an individual or institutional investor.

                                Preferred Stock—A form of equity ownership that usually pays a fixed
                                dividend, gives the holder a claim on corporate earnings superior to
                                common stock owners, and generally has no voting rights. Preferred
                                stock also has priority over common stock in the distribution of assets
                                in the case of liquidation of a bankrupt company.

                                Primary Credit Rate—The rate of interest charged for very short-term
                                advances (typically overnight) provided by the Federal Reserve Banks’
                                discount window to generally sound depository institutions. Because
                                the rate is above the FOMC’s target rate for federal funds, the Federal
                                Reserve expects that institutions will use the discount window as a
                                backup rather than as a regular source of funding.

                                Primary Dealers—Firms that are authorized to buy and sell U.S.
                                government securities with FRB-NY’s Open Market Desk, which
                                operates on behalf of the FOMC, in order to implement monetary
                                policy.

                                Rating Watch—A formal announcement by a rating agency that a
                                security or issuer rating is being reviewed to determine if the current
                                rating is appropriate. The announcement includes the likely direction of
                                such a change (“positive” indicates a potential upgrade, and “negative”
                                indicates a potential downgrade). However, ratings can be raised or
                                lowered without being placed on Rating Watch first if circumstances
                                warrant such an action.
                                                                             Appendix 2—Glossary 121



Receivable—Money owed but not yet paid by a customer (individual
or corporation) to another entity in exchange for goods or services
that have been delivered or used. Most companies operate by allowing
some portion of their sales to be on credit.

Recourse—In the case of default, the legal right of a lender to seek
loan repayment from the borrower’s unpledged assets, in addition to
the assets pledged to the lender as collateral.

Redemption—The return of an investor’s principal in a security, such
as a bond, preferred stock, or mutual fund shares, and any interest
earned, at or prior to maturity.

Repurchase Agreement—A financial transaction in which the holder
of a security obtains funds by selling that security to another financial
market participant under an agreement to repurchase the security at a
fixed price on a predetermined future date.

Repurchase Agreements Market—A short-term lending market
utilizing collateral to obtain funding, with the collateral repurchased
at the original price, plus an agreed upon additional amount, on a
specified future date.

Reserve Requirements—Requirements regarding the percentage of
certain deposits that depository institutions must hold in reserve in the
form of cash or in an account at a Federal Reserve Bank.

Residential Mortgage-Backed Securities (RMBS)—Financial
instruments that are backed by a group of residential real estate
mortgages that are packaged together. An RMBS investor owns an
interest in a pool of mortgages, which serves as the underlying assets
and source of cash flow for the security.

Seasonal Credit Rate—The Federal Reserve’s seasonal credit program
that is designed to assist small depository institutions in managing
significant seasonal swings in their loans and deposits. The interest rate
applied to seasonal credit is a floating rate based on market rates.

Secondary Credit Rate—The rate of interest for very short-term loans
(typically overnight) provided by the Federal Reserve Banks’ discount
window to depository institutions that are not eligible for primary
credit. The secondary credit rate is set above the primary credit rate
and is provided to temporarily meet backup liquidity needs with
the understanding that an institution returns to a reliance on market
sources of funding in a timely manner or that a troubled institution is
resolved in an orderly manner.

Secondary Market—The secondary market, also known as the
aftermarket, is where previously issued securities and financial
instruments, such as stocks, bonds, options, and futures, are bought
122 Federal Reserve Board OIG Lending Facilities Review



                                and sold. The primary market refers to the market for newly-issued
                                securities.

                                Section 13(3) of the Federal Reserve Act—A section of the
                                Federal Reserve Act that provides as follows: “In unusual and exigent
                                circumstances, the Board of Governors of the Federal Reserve
                                System . . . may authorize any Federal reserve bank … to discount
                                for any individual, partnership, or corporation, notes, drafts, and
                                bills of exchange . . . [that are] . . . secured to the satisfaction of the
                                Federal reserve bank: Provided . . . that such individual, partnership,
                                or corporation is unable to secure adequate credit accommodations
                                from other banking institutions. All such discounts for individuals,
                                partnerships, or corporations shall be subject to such limitations,
                                restrictions, and regulations as the Board of Governors of the Federal
                                Reserve System may prescribe.”

                                Securitization—The process of pooling various types of debt (such as
                                mortgages, auto loans, or credit card debt) and packaging that debt
                                into securities, which are sold to investors. The principal and interest on
                                the debt underlying the securities are paid to the investors on a regular
                                basis, though the method varies based on the type of security.

                                Servicing Advance Receivables—Receivables related to residential
                                mortgage loan securitizations that grant the servicer first priority
                                in any insurance or liquidation proceeds from a loan. The servicer
                                is responsible for administering a mortgage, including calculating
                                principal and interest, collecting payments from the mortgagor, acting
                                as an escrow agent, and foreclosing in the event of a default.

                                Single Price Auction Format—An auction process in which borrowers
                                make competitive bids that specify the lending fee rate that they are
                                willing to pay. Successful bidders pay the same price equivalent to the
                                lowest accepted rate regardless of the rate they bid.

                                Special Purpose Vehicle (SPV)—A separate legal entity used for the
                                acquisition and financing of assets.

                                Supervisory Capital Assessment Program—An interagency
                                evaluation completed during spring 2009 to determine if the largest
                                U.S. banking organizations had sufficient capital to withstand the
                                impact of a “more adverse” economic environment than the consensus
                                expectation. The participants included the Board, the Department of
                                the Treasury, the Federal Deposit Insurance Corporation, and the Office
                                of the Comptroller of the Currency.

                                System Open Market Account (SOMA)—An investment account that
                                the Federal Reserve uses to help implement its monetary policy. By
                                buying or selling U.S. Treasury securities in the financial markets, FRB­
                                NY, on behalf of the FOMC, is able to add or subtract reserves from the
                                                                             Appendix 2—Glossary 123



monetary system and, thus, influence inflation, consumer lending, and
interbank lending.

System Open Market Account (SOMA) Securities Lending
Program—An FRB-NY lending program that offers specific U.S.
Treasury securities held by the System Open Market Account for loan
against Treasury general collateral (such as Treasury bills, notes, and
bonds) on an overnight basis in order to improve market liquidity.

Term Asset-Backed Securities Loan Facility (TALF) Agents—
Securities dealers selected by FRB-NY to screen for borrower and
collateral eligibility, submit loan requests, resolve discrepancies, and
distribute payments.

Term Auction Facility (TAF)—A Federal Reserve lending program in
which term funds were auctioned to depository institutions that were
eligible to borrow under the primary credit program. By allowing the
Federal Reserve Banks to inject term funds against discount window
collateral, the TAF helped ensure that liquidity could be disseminated
efficiently even when the unsecured interbank markets were under
stress. TAF was created under the Federal Reserve’s discount window
authority and was not a 13(3) lending facility.

Transaction Agent—An individual or firm authorized to act on behalf
of another (called the principal), such as by executing a transaction.

Tri-Party Repurchase Agreement—A financial transaction in which
the holder of a security obtains funds by selling that security to another
financial market participant under an agreement to repurchase the
security at a fixed price on a predetermined future date. The borrower
posts collateral at a clearing bank and receives cash from the lender.
The clearing bank confirms collateral eligibility, assesses the value of
the collateral, and applies a haircut to set the loan amount.

Underwriting—The due diligence that a lender conducts to ensure
that potential borrowers are able to repay their loans.

Weighted Average Life—The average number of years for which each
dollar of unpaid principal on a loan or mortgage remains outstanding.
124 Federal Reserve Board OIG Lending Facilities Review




                           THIS PAGE INTENTIONALLY LEFT BLANK.

                                                Appendix 3—Objectives, Scope, and Methodology 125



Appendix 3—Objectives, Scope,
and Methodology
As the Board’s Office of Inspector General, we performed this work
to provide an independent review of the six lending facilities that the
Board authorized under section 13(3) of the Federal Reserve Act to
support overall market liquidity. Specifically, our objectives were to
(1) determine the overall function and status of each facility, including
how it operated, the financial markets it was intended to support, the
financial utilization of the facility, the total amount of loans extended,
and the current outstanding balances; and (2) identify risks in each
facility for the Board’s review in exercising its monetary policy function
and in its general supervision and oversight of the Federal Reserve
Banks. We reviewed the Term Securities Lending Facility (TSLF) including
the TSLF Options Program (TOP), Primary Dealer Credit Facility (PDCF),
Asset-Backed Commercial Paper Money Market Mutual Fund Liquidity
Facility (AMLF), Commercial Paper Funding Facility (CPFF), Money
Market Investor Funding Facility (MMIFF), and Term Asset-Backed
Securities Loan Facility (TALF). Our review did not include the Board
authorized lending programs in support of specific institutions, such
as American International Group (AIG), Bear Stearns Companies, Inc.,
or the transitional credit extension program to certain other broker-
dealers. The approach used to conduct this review consisted of three
parts: a characterization of each facility, an assessment of the current
status of each facility, and the identification of risk areas and how
they were managed in each facility. Our report does not include any
recommendations.

To carry out our objectives, we reviewed relevant laws, regulations,
reports, testimonies, bulletins, press releases, vendor contracts, the
lending facilities’ terms and conditions, and other publicly-available
information from the Federal Reserve Board, the Federal Reserve Banks,
the Department of the Treasury, and the Government Accountability
Office. We analyzed internal Federal Reserve studies and reports,
including facility-specific policies, procedures, process controls, program
management documentation, and internal performance reporting; and
we interviewed key Federal Reserve staff (Federal Reserve Banks of New
York (FRB-NY) and Boston (FRB-Boston), and the Board). We also analyzed
the Board’s Division of Reserve Bank Operations and Payment Systems’
(RBOPS) reports and findings on the lending facilities, and relevant
Reserve Banks internal auditors’ reports and findings.

In identifying risk areas, we analyzed oversight reviews, audits, and
other analyses of the management and operation of these lending
facilities, including RBOPS’ reports concerning TSLF (including TOP),
PDCF, CPFF, and TALF, and Reserve Banks internal auditors’ reports
126 Federal Reserve Board OIG Lending Facilities Review



                                concerning TSLF, PDCF, AMLF, and CPFF. We also discussed various
                                risk areas with Board, FRB-NY, and FRB-Boston officials to understand
                                controls and risk mitigation strategies.

                                During our review, we assessed credit risk (the risk that borrowers are
                                unable to meet their obligations in accordance with agreed-upon
                                terms) and operational risk (the risk of inadequate or failed internal
                                policies, procedures, and processes) for the lending facilities. We did
                                not assess the potential risks in the information technology assets used
                                to support these lending facilities.

                                Because our review objectives and field work focused on determining
                                the overall function and status of the lending facilities and identifying
                                risk areas, our review did not include detailed risk analysis or
                                transaction testing of the individual lending facilities. We identified
                                overall risk areas in each facility and how the Federal Reserve managed
                                overall risks, but we did not perform detailed analysis or testing of
                                the adequacy of the Federal Reserve’s policies, terms and conditions;
                                controls in managing and operating the lending facilities; contracts
                                or agreements; or vendors’ and agents’ compliance with contracts
                                or agreements. We did not assess the Federal Reserve’s underlying
                                analysis and methodology for determining the policies, procedures,
                                terms, and conditions for each facility, such as collateral haircut
                                amounts or interest and fees charged. We also did not analyze the
                                borrowers who were extended credit under the lending facilities.
                                Because audits of the financial statements of the Federal Reserve
                                Banks and the lending facilities by an independent public accounting
                                firm were in process at the time of our review, we did not perform an
                                independent review of financial data reported for the lending facilities
                                by the Federal Reserve.

                                We conducted our review from August 2009 through June 2010 in
                                accordance with generally accepted government auditing standards.
                                Those standards require that we plan and perform the review to obtain
                                sufficient and appropriate evidence to provide a reasonable basis for
                                our findings and conclusions based on our objectives. We believe that
                                the evidence obtained provides a reasonable basis for our findings and
                                conclusions based on our objectives.
                                         Appendix 4—List of FRB-NY Primary Dealers 127



Appendix 4—
List of FRB-NY Primary Dealers
as of June 30, 2010
Primary Dealers
BNP Paribas Securities Corporation

Banc of America Securities LLC

Barclays Capital, Inc.

Cantor Fitzgerald & Company

Citigroup Global Markets, Inc.

Credit Suisse Securities (USA) LLC

Daiwa Capital Markets America, Inc.

Deutsche Bank Securities, Inc.

Goldman, Sachs & Company

HSBC Securities (USA), Inc.

Jefferies & Company, Inc.

J. P. Morgan Securities, Inc.

Mizuho Securities USA, Inc.

Morgan Stanley & Company, Inc.

Nomura Securities International, Inc.

RBC Capital Markets Corporation

RBS Securities, Inc.

UBS Securities LLC

128 Federal Reserve Board OIG Lending Facilities Review




                              THIS PAGE INTENTIONALLY LEFT BLANK.

                                                                              Appendix 5—Changes in TALF 129



Appendix 5—
Changes in TALF Eligible
Collateral, and Transaction
Structure and Pricing
As a joint program, the Federal Reserve and Treasury coordinated
on TALF policy deliberations, program updates, and other material
changes to the TALF.

1)	 Eligible Collateral

    i)	 On February 6, 2009, the Federal Reserve announced a number
        of changes to eligible collateral, including

        (a) 	 clarifying the definition to not allow ABS that obtained
              AAA ratings through a third-party guarantee or were on
              watch for downgrade by an NRSRO,

        (b) 	 requiring that only ABS that cleared through DTC were
              eligible,

        (c) 	 adding auto ABS backed by recreational vehicle loans as
              eligible collateral, and

        (d) 	 establishing that auto and credit card ABS not have an
              expected life of more than five years.

    ii) 	 On March 19, 2009, the Federal Reserve added ABS backed by
          vehicle fleet leases, equipment loans/leases, and floorplan loans
          as eligible TALF collateral, as well as ABS backed by receivables
          related to residential mortgage servicing advances.

    iii) 	On May 1, 2009, the Federal Reserve added newly-issued CMBS
          and insurance premium finance loans to the list of eligible ABS,
          effective in June 2009, and set forth terms and conditions for
          borrowing against such collateral.

    iv) 	On May 19, 2009, the Federal Reserve clarified that underlying
         credit exposures for all ABS must be originated by a U.S.­
         organized entity and made to U.S.-domiciled obligors if real
         property, and that ABS with a redemption option was not
         eligible unless approved by FRB-NY. It also announced the
         requirements for legacy CMBS, effective in July 2009, and
         clarified that eligible CMBS must have 95 percent or more of its
         credit exposure to U.S.-organized entities or U.S. branches of
         foreign banks.
130 Federal Reserve Board OIG Lending Facilities Review



                                   v)	 On June 23, 2009, the Federal Reserve added the requirement
                                       that a borrower may not pledge CMBS for which it or its
                                       affiliates are borrowers under a mortgage loan backing the
                                       CMBS in an amount greater than 5 percent of the aggregate
                                       principal balance of the loan pool.

                                   vi) 	On July 2, 2009, the Federal Reserve added legacy CMBS issued
                                        before January 1, 2009, as eligible collateral. It also clarified
                                        distinctions between newly-issued and legacy CMBS and
                                        removed the requirement that legacy CMBS had to be cleared
                                        through DTC.

                                   vii) On July 23, 2009, the Federal Reserve clarified that eligible
                                        collateral for a particular borrower that was originated by any
                                        of its affiliates was ineligible and set forth that ABS backed by
                                        commercial and government fleet leases, rental fleet leases, or
                                        floorplans were not eligible collateral for any borrower that was
                                        an obligor to more than 10 percent of the underlying loans. It
                                        also set forth that a borrower could not use collateral for
                                        which it was the manufacturer, producer, or seller of more
                                        than 10 percent of the underlying products.

                                   viii) On August 4, 2009, the Federal Reserve clarified that all
                                         underlying credit exposure for TALF collateral must come in the
                                         form of auto loans, student loans, credit card loans, equipment
                                         loans, floorplan loans, insurance premium finance loans, U.S.
                                         SBA guaranteed small business loans, receivables related to
                                         residential mortgage servicing advances (servicing advance
                                         receivables), or commercial mortgage loans that were issued
                                         on or after January 1, 2009 (except for SBA Pool Certificates
                                         or Development Company Participation Certificates, which
                                         must be issued on or after January 1, 2008, and commercial
                                         mortgage pass-through securities, which must have been
                                         issued before January 1, 2009 (legacy CMBS)).

                                   ix) On September 1, 2009, the Federal Reserve clarified that
                                       eligible ABS cannot contain interest payments that step up or
                                       step down to predetermined levels on set dates. The Federal
                                       Reserve also extended the eligibility of collateral secured by
                                       credit card, auto, floorplan, and insurance premium finance
                                       loans to those targeted to the refinancing of existing maturing
                                       ABS in the first quarter of 2010.

                                2) 	Transaction Structure and Pricing

                                   i) 	 On February 6, 2009, the Federal Reserve established 

                                        benchmarks for pricing and haircuts for the collateral.

                                                                       Appendix 5—Changes in TALF 131



ii) 	 On March 3, 2009, the Federal Reserve revised the benchmarks
      for the different loans by collateral type, differentiated
      haircuts on different credit card ABS collateral, and clarified
      haircut percentage increases. In addition, the Federal Reserve
      announced that certain executive compensation requirements
      of the Emergency Economic Stabilization Act of 2008 would
      not be applied to TALF sponsors, underwriters, and borrowers
      as a result of their participation in the TALF.

iii) 	On May 19, 2009, the Federal Reserve began to allow loans for
      ABS secured by SBA Pool Certificates and SBA Development
      Company Participation Certificates, and ABS backed by student
      loans or commercial mortgage loans to have up to five-year
      maturities and made corresponding changes to various
      calculations and formulas.

iv) 	On July 2, 2009, the Federal Reserve increased the
     administrative fee from 5 to 20 basis points for any TALF loan
     with CMBS collateral. The Federal Reserve (1) clarified that
     the TALF loan amount for each legacy CMBS would be the
     lesser of the dollar amount price on the trade date, the market
     price as of the subscription date, or a value based on FRB-NY’s
     risk assessment using a stressed valuation provided by the
     collateral monitor, and (2) set forth how the weighted average
     life of legacy CMBS would be calculated and repayment of
     principal should occur.

v) 	 On July 23, 2009, the Federal Reserve increased the
     administrative fee from 5 to 10 basis points for any TALF loan
     with non-mortgage-backed ABS collateral.

vi) 	On October 5, 2009, the Federal Reserve announced a change
     to the procedures for evaluating ABS pledged to the TALF.
     The change was intended to ensure that TALF collateral
     continued to comply with existing high standards for credit
     quality, transparency, and simplicity of structure. The change
     required FRB-NY to conduct a formal risk assessment of all
     proposed collateral in addition to continuing to require that
     collateral for TALF loans receive two AAA ratings from TALF-
     eligible Nationally Recognized Statistical Rating Organizations
     (NRSROs). The FRB-NY assessment began with the November
     TALF subscription.

vii) On November 13, 2009, and then again on January 15, 2010, the
     Federal Reserve issued revised conflict of interest guidance to
     TALF agents.

viii) On November 13, 2009, the Federal Reserve issued a revised
      due diligence policy for TALF agents to further elaborate
      on provisions contained in the Master Loan and Security
132 Federal Reserve Board OIG Lending Facilities Review



                                       Agreement. On January 20, 2010, FRB-NY issued additional
                                       due diligence guidance to TALF agents to better clarify
                                       expectations regarding practices viewed as effective in
                                       reviewing TALF borrowers and maintaining appropriate
                                       records.

                                   ix) 	On November 30, 2009, FRB-NY extended by one day the
                                        period of time in which monthly disbursements of principal
                                        and interest on underlying collateral would be distributed
                                        under the terms of existing TALF loans.

                                   x) 	 On December 4, 2009, the Federal Reserve announced the
                                        adoption of a final rule that established criteria for determining
                                        the eligibility of NRSROs to issue credit ratings on ABS, other
                                        than those backed by commercial real estate loans, to be
                                        accepted as collateral for the TALF. The rule was intended to
                                        promote competition among NRSROs and ensure appropriate
                                        protection against credit risk for the U.S. taxpayer. The set of
                                        NRSROs eligible under the new criteria took effect with the
                                        February 2010 TALF subscription.
